<html>
<title> - OVERSIGHT HEARING ON EVALUATING FEDERAL OFFSHORE OIL AND GAS DEVELOPMENT ON THE OUTER CONTINENTAL SHELF</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]










   EVALUATING FEDERAL OFFSHORE OIL AND GAS DEVELOPMENT ON THE OUTER 
                           CONTINENTAL SHELF

=======================================================================

                           OVERSIGHT HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, July 12, 2017

                               __________

                           Serial No. 115-14

                               __________

       Printed for the use of the Committee on Natural Resources



[GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-252 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
       
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Vacancy
Darin LaHood, IL
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT

                 Todd Ungerecht, Acting Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                      PAUL A. GOSAR, AZ, Chairman
            ALAN S. LOWENTHAL, CA, Ranking Democratic Member

Louie Gohmert, TX                    Anthony G. Brown, MD
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Niki Tsongas, MA
Stevan Pearce, NM                    Jared Huffman, CA
Glenn Thompson, PA                   Donald S. Beyer, Jr., VA
Scott R. Tipton, CO                  Darren Soto, FL
Paul Cook, CA                        Nanette Diaz Barragan, CA
  Vice Chairman                      Vacancy
Garret Graves, LA                    Vacancy
Jody B. Hice, GA                     Raul M. Grijalva, AZ, ex officio
Darin LaHood, IL
Jack Bergman, MI
Liz Cheney, WY
Rob Bishop, UT, ex officio
                                 ------   
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, July 12, 2017.........................     1

Statement of Members:
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     3
    Lowenthal, Hon. Alan S., a Representative in Congress from 
      the State of California....................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Howell, Margaret S., Founder, Stop Offshore Drilling in the 
      Atlantic, Pawleys Island, South Carolina...................    19
        Prepared statement of....................................    21
    Knapp, James H., Ph.D., Professor, School of the Earth, 
      Ocean, and Environment, University of South Carolina, 
      Columbia, South Carolina...................................    38
        Prepared statement of....................................    40
        Questions submitted for the record.......................    45
    LeBlanc, Lori, Director, Offshore Committee, Louisiana Mid-
      Continent Oil and Gas Association, Baton Rouge, Louisiana..    14
        Prepared statement of....................................    16
    MacGregor, Katharine, Acting Assistant Secretary, Land and 
      Minerals Management, U.S. Department of the Interior, 
      Washington, DC.............................................     7
        Prepared statement of....................................     8
        Questions submitted for the record.......................    13
    Whatley, Michael, Executive Vice President, Consumer Energy 
      Alliance, Charlotte, North Carolina........................    28
        Prepared statement of....................................    29

Additional Materials Submitted for the Record:
    Department of Defense, April 26, 2017 Letter to 
      Representative Matt Gaetz..................................    77
    Department of Defense, June 23, 2017 Letter to Representative 
      Rob Bishop.................................................    77
    Department of Defense, June 27, 2017 Letter to Senator Bill 
      Nelson.....................................................    78
    Georgia Department of Natural Resources, July 6, 2017 Letter 
      to Jolie Harrison, NMFS Office of Protected Resources......    67
    List of documents submitted for the record retained in the 
      Committee's official files.................................    81
 
     OVERSIGHT HEARING ON EVALUATING FEDERAL OFFSHORE OIL AND GAS 
               DEVELOPMENT ON THE OUTER CONTINENTAL SHELF

                              ----------                              


                        Wednesday, July 12, 2017

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 1324, Longworth House Office Building, Hon. Paul Gosar 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gosar, Gohmert, Lamborn, Wittman, 
Graves, Hice; Lowenthal, Brown, Tsongas, Beyer, Soto, and 
Barragan.
    Dr. Gosar. The Subcommittee on Energy and Mineral Resources 
will come to order. I ask that there not be any kind of 
disruption regarding the testimony given here today. It is 
important that we respect the decorum and the rules of the 
Committee and of the House, and to allow the Members and the 
public to hear our proceedings.
    The Subcommittee is meeting today to hear testimony on 
evaluating Federal offshore oil and gas development on the 
Outer Continental Shelf.
    I ask unanimous consent that the gentleman from Alaska, Mr. 
Young, be allowed to sit with the Subcommittee and to 
participate in this hearing.
    Without objection, so ordered.
    Under Committee Rule 4(f), any oral opening statements at 
the hearings are limited to the Chairman, the Ranking Minority 
Member, and the Vice Chair. This will allow us to hear from our 
witnesses sooner, and help the Members keep to their schedules. 
Therefore, I ask unanimous consent that all other Members' 
opening statements be made part of the hearing record, if they 
are submitted to the Subcommittee Clerk by 5:00 p.m. today.
    Without objection, so ordered.

 STATEMENT OF HON. PAUL A. GOSAR, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Dr. Gosar. Today, the Subcommittee will discuss Federal 
offshore oil and gas development on the Outer Continental 
Shelf, or OCS. America's offshore industry produces 20 percent 
of our Nation's domestic oil supply from the OCS, and directly 
employs 300,000 Americans. In turn, this industry supports 
hundreds of thousands of additional jobs through associated 
industries, and serves as an important facet of coastal life.
    Furthermore, it is an economic boon for those states 
fortunate enough to enjoy offshore production. Through lease 
bonuses, rental payments, and production royalties, states, 
their coastlines, and the Federal Government are provided with 
billions of dollars each year.
    In fact, Federal leasing revenues for 2016 totaled $2.8 
billion, with portions going to states and coastal communities. 
These shared revenues are used to fund schools, coastal 
restoration, and infrastructure projects throughout each 
receiving state, fortifying their economies and providing jobs 
across the Gulf Coast.
    However, this revenue source has fallen dramatically over 
the past 8 years due to the prior administration's hostile 
position toward harnessing our offshore energy potential. In 
fact, at $18 billion in 2008, the share brought into Federal 
coffers from offshore revenues was more than six times higher 
than it was in 2016, at the end of the Obama administration.
    The new Administration's ``America First'' initiative seeks 
to reverse the prior administration's stunted approach to 
domestic energy production by requiring our government to 
carefully review and reconsider all of our Nation's energy 
resources, including coal, oil and gas, as well as renewable 
resources.
    The review of our offshore resources is being conducted by 
the Bureau of Ocean Energy Management (BOEM) and the Bureau of 
Safety and Environmental Enforcement (BSEE), who together 
administer over 1.7 billion acres of federally submerged lands 
and over 3,000 active leases. It is the duty of these agencies 
to ensure the exploration, leasing, and development of offshore 
hydrocarbon resources are promoted to fulfillment of the 
President's energy initiative.
    To determine the location and schedule of Federal offshore 
lease sales, BOEM develops a 5-year leasing program that 
considers geological data, public input, and environmental 
impacts to determine the area and timing of offshore leasing. 
The basis for planning requires an accounting of what we 
actually have to work with.
    In recent years, the advent of 3D seismic surveying and 
data processing has provided a more dynamic and accurate 
picture of geologic formations that allows policy makers, the 
public, scientists, and industry to make informed and safe 
decisions about leasing and drilling.
    However, much of our Nation's offshore resources have not 
been evaluated in more than 30 years, inhibiting our 
regulators' ability to make informed leasing decisions.
    In order to accurately manage our energy inventory, meet 
future demand, and ensure national security, it is imperative 
that we facilitate the seismic surveying permitting process in 
these offshore areas, including the Atlantic and Pacific 
Oceans.
    Our leasing and drilling decisions should be determined by 
geology, not shifting partisan politics. I applaud Secretary 
Zinke's efforts to improve the seismic permitting process, and 
re-evaluate the OCS leasing schedule by requiring the issuance 
of a new 5-year plan that will take effect in 2019.
    The new program will allow full consideration of OCS 
production in Alaska, the Mid and South Atlantic, and the Gulf 
of Mexico. Communities and states along the Atlantic Coast, in 
particular, have long expressed interest in evaluating and 
potentially developing offshore energy resources, and will have 
a voice in the leasing process.
    With 94 percent of the OCS precluded from responsible 
development under the previous plan, the new planning process 
will give previously excluded communities an opportunity to 
join the leasing conversation.
    According to a recent study, offshore leasing in the 
Atlantic, Pacific, and Eastern Gulf of Mexico would result in 
the creation of 800,000 new jobs, and $200 billion in state and 
Federal revenues by 2035. Furthermore, enhanced domestic 
production would improve our national security position by 
decreasing our country's reliance on foreign sources of 
petroleum.
    For instance, in 2016, decreased production in Alaska 
forced California to meet its energy demand by importing over 
half its crude supply from foreign sources, such as Saudi 
Arabia.
    We are grateful for the opportunity to re-evaluate the 
management of our Nation's offshore resources, and look forward 
to a strong, respectful conversation on these issues.
    [The prepared statement of Dr. Gosar follows:]
Prepared Statement of the Hon. Paul A. Gosar, Chairman, Subcommittee on 
                      Energy and Mineral Resources
    Today, the Subcommittee will discuss Federal offshore oil and gas 
development on the Outer Continental Shelf, or ``OCS.'' America's 
offshore industry produces 20 percent of our Nation's domestic oil 
supply from the OCS, and directly employs 300,000 Americans. In turn, 
this industry supports hundreds of thousands of additional jobs through 
associated industries, and serves as an important facet of coastal 
life.
    Furthermore, it is an economic boon for those states fortunate 
enough to enjoy offshore production. Through lease bonuses, rental 
payments, and production royalties, states, their coastlines, and the 
Federal Government are provided with billions of dollars each year. In 
fact, Federal leasing revenues for 2016 totaled $2.8 billion, with 
portions going to states and coastal communities. These shared revenues 
are used to fund schools, coastal restoration, and infrastructure 
projects throughout each receiving state, fortifying their economies 
and providing jobs across the Gulf Coast.
    However, this revenue source has fallen dramatically over the past 
8 years due to the prior administration's hostile position toward 
harnessing our offshore energy potential. In fact, at $18 billion in 
2008, the share brought into Federal coffers from offshore revenues was 
more than six times higher than it was in 2016 at the end of the Obama 
administration.
    The new Administration's ``America First'' initiative seeks to 
reverse the prior administration's stunted approach to domestic energy 
production by requiring our government to carefully review and 
reconsider all of our Nation's energy resources, including coal, oil 
and gas, as well as renewable sources. The review of our offshore 
resources is being conducted by the Bureau of Ocean Energy Management, 
or BOEM, and the Bureau of Safety and Environmental Enforcement, or 
BSEE, who together administer over 1.7 billion acres of federally 
submerged lands and over 3,000 active leases. It is the duty of these 
agencies to ensure the exploration, leasing, and development of 
offshore hydrocarbon resources are promoted in fulfillment of the 
President's energy initiative.
    To determine the location and schedule of Federal offshore lease 
sales, BOEM develops a 5-year leasing plan that considers geologic 
data, public input, and environmental impacts to determine the area and 
timing of offshore leasing. The basis for planning requires an 
accounting of what we actually have to work with. In recent years, the 
advent of 3D seismic surveying and data processing has provided a more 
dynamic and accurate picture of geologic formations that allows 
policymakers, the public, scientists, and industry to make informed and 
safe decisions about leasing and drilling. However, much of our 
Nation's offshore resources have not been evaluated in over 30 years, 
inhibiting our regulators' ability to make informed leasing decisions.
    In order to accurately manage our energy inventory, meet future 
demand, and ensure national security, it is imperative that we 
facilitate the seismic surveying permitting process in these offshore 
areas, including the Atlantic and Pacific Oceans. Our leasing and 
drilling decisions should be determined by geology, not shifting 
partisan politics, and I applaud Secretary Zinke's efforts to improve 
the seismic permitting process and re-evaluate the OCS leasing schedule 
by requiring the issuance of a new 5-year plan that will take effect in 
2019.
    The new program will allow for full consideration of OCS production 
in Alaska, the Mid and South Atlantic, and the Gulf of Mexico. 
Communities and states along the Atlantic Coast, in particular, have 
long expressed interest in evaluating and potentially developing 
offshore energy resources, and will have a voice in the leasing 
process. With 94 percent of the OCS precluded from responsible 
development under the previous plan, the new planning process will give 
previously excluded communities an opportunity to join the leasing 
conversation.
    According to a recent study, offshore leasing in the Atlantic, 
Pacific, and Eastern Gulf of Mexico would result in the creation of 
800,000 new jobs and $200 billion in state and Federal revenues by 
2035. Furthermore, enhanced domestic production would improve our 
national security position by decreasing our country's reliance on 
foreign sources of petroleum. For instance, in 2016, decreased 
production in Alaska forced California to meet its energy demand by 
importing over half its crude supply from foreign sources, such as 
Saudi Arabia.
    We are grateful for the opportunity to re-evaluate the management 
of our Nation's offshore resources, and look forward to a strong, 
respectful conversation on these issues.

                                 ______
                                 

    Dr. Gosar. I now recognize the gentleman from California, 
the Ranking Member, Mr. Lowenthal, for his 5 minutes.

 STATEMENT OF THE HON. ALAN S. LOWENTHAL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Dr. Lowenthal. Thank you, Mr. Chairman. Before getting into 
the offshore discussion, I would just like to touch on a few 
things about onshore drilling.
    Just 2 weeks ago, we learned that the oil and gas companies 
currently hold 7,950 approved drilling permits that they have 
not used--that is almost 8,000. We have also learned that the 
so-called backlog of unprocessed drilling permits is the 
smallest in over a decade. It is roughly 2,800.
    If we take these two facts, a record high number of 
permits--8,000 waiting to be used--and a historically low 
number of permits waiting to be approved, and combine that with 
the glut of domestic oil that is so huge that we are shipping 
it to other countries almost as fast as we can get it out of 
the ground, you might think that speeding up drilling permits 
shouldn't be a pressing issue.
    But you would be wrong, because last week Secretary Zinke 
announced a new effort to try to approve permits even faster. 
In doing so, he said, ``the Department of the Interior will be 
a better neighbor in the new Trump administration.''
    So, if you are the kind of person who likes to live next to 
oil rigs, that will undoubtedly be true, because the Department 
of the Interior and the Administration have made it clear they 
are fully devoted to giving the oil and gas industry anything 
that it wants.
    But if you live near public lands and appreciate clean 
water or clean air, or the ability to hunt, fish, camp, hike, 
graze, or simply enjoy the scenic beauties of the land, 
Interior is going to become the worst neighbor imaginable.
    One of these places where clean water and scenic beauty are 
particularly important is our beaches. According to the 
National Oceanic and Atmospheric Administration, tourism and 
recreation along our Atlantic and Pacific coasts alone employs 
over 1.5 million people, and creates $71 billion in GDP. Over 1 
million of those jobs are on the East Coast.
    Think about that when you hear the industry-generated 
fantasies of 215,000 jobs if the entire Atlantic Seaboard was 
open to drilling rigs. Four times as many jobs would be at risk 
from the industrial facilities that would be built along the 
coast. Four times as many jobs would be at risk from the 
chronic pollution and pipeline spills that are widespread with 
offshore rigs of oil and gas. And four times as many jobs would 
be at risk from a catastrophic blowout like the one we saw in 
the Gulf of Mexico only 7 years ago.
    Prior to the Deepwater Horizon, we were told time and time 
again that nothing like that could ever again happen in the 
United States. The industry was too smart, the technology was 
too good to let something like that happen. After all, it had 
been 40 years since the Santa Barbara blowout, which just 
showed that we were perfectly safe.
    But obviously, we were not safe. We did learn a lot from 
the Deepwater Horizon, with hundreds upon hundreds of 
recommendations for improving the regulation, safety, and 
environmental impact of offshore drilling. Some of those 
recommendations were aimed at Congress. We have not acted.
    But many of those recommendations were taken to heart by 
the Obama administration, which toughened the rules on 
drilling, required real safety plans from companies, and 
established an agency devoted to regulating safety offshore.
    Now, with all that new regulation, what happened? Offshore 
oil production is now at an all-time high and climbing. In the 
first half of the year, nearly 400 offshore permits were 
approved, and only 23 are pending.
    But now the Trump administration wants to take us backward. 
Currently, they are reviewing all--and I repeat, all--the new 
offshore policies with an eye not toward what makes us safer--
that is not what they are looking at--but what makes things 
easier and more profitable for ExxonMobil, Shell, and BP.
    And now they have decided to restart a new 5-year leasing 
process, throwing away 2\1/2\ years of planning and tens of 
millions of dollars of effort, ignoring the overwhelming 
bipartisan opposition from hundreds of thousands of people up 
and down the Atlantic and Pacific Coasts, and eliminating the 
protections that President Obama provided for the fragile 
Arctic.
    Lifting regulations on the oil and gas industry, while 
giving them more of our oceans to play with is a dangerous 
combination. I fear it would just be a matter of time before we 
see a repeat of that horrible day 7 years ago.
    Thank you, and I yield back my time.

    [The prepared statement of Dr. Lowenthal follows:]
   Prepared Statement of the Hon. Alan S. Lowenthal, Ranking Member, 
              Subcommittee on Energy and Mineral Resources
    Thank you, Mr. Chairman.
    Before getting into the offshore discussion, I'd like to just touch 
on a few things about onshore drilling.
    Two weeks ago, we learned that oil and gas companies currently hold 
7,950 approved drilling permits that they have not used. We also 
learned that the so-called ``backlog'' of unprocessed drilling permits 
is the smallest in over a decade--roughly 2,800.
    Take these two facts--a record high 8,000 permits waiting to be 
used, and a historically low number of permits waiting to be approved--
and combine that with a glut of domestic oil so huge we're shipping it 
to other countries almost as fast as we can get it out of the ground, 
and you might think that speeding up drilling permit approvals 
shouldn't be a pressing issue.
    But you'd be wrong.
    Because last week Secretary Zinke announced a new effort to try to 
approve permits even faster. In doing so he said, ``The Department of 
the Interior will be a better neighbor in the new Trump 
administration.''
    If you're the kind of person who likes to live next to oil rigs, 
that will undoubtedly be true. Because the Department of the Interior 
and this Administration have made it clear they are fully devoted to 
giving the oil and gas industry anything it wants. But if you live near 
public lands and appreciate clean water, or clean air, or the ability 
to hunt, fish, camp, hike, graze, or simply enjoy the scenic beauty of 
those lands, Interior is going to become the worst neighbor imaginable.
    One of those places where clean water and scenic beauty are 
particularly important is our beaches. According to the National 
Oceanic and Atmospheric Administration, tourism and recreation along 
our Atlantic and Pacific coasts alone employs over 1.5 million people 
and creates $71 billion in GDP. Over 1 million of those jobs are on the 
East Coast. Think about that when you hear the industry-generated 
fantasies of 215,000 jobs if the entire Atlantic seaboard was open to 
drilling rigs.
    Four times as many jobs would be at risk from the industrial 
facilities that would be built along the coast. Four times as many jobs 
would be at risk from the chronic pollution and pipeline spills that 
are widespread with offshore oil and gas. And four times as many jobs 
would be at risk from a catastrophic blowout like the one we saw in the 
Gulf of Mexico only 7 years ago.
    Prior to the Deepwater Horizon, we were told time and time again 
that nothing like that could ever happen in the United States. The 
industry was too smart, and the technology too good, to ever let 
something like that happen. After all, it had been 40 years since the 
Santa Barbara blowout, which just showed that we were perfectly safe.
    But we obviously were not safe.
    We did learn a lot from the Deepwater Horizon, with hundreds upon 
hundreds of recommendations for improving the regulation, safety, and 
environmental impact of offshore drilling. Some of the recommendations 
were aimed at Congress. We have not acted.
    But many of those recommendations were taken to heart by the Obama 
administration, which toughened the rules on drilling, required real 
safety plans from companies, and established an agency devoted to 
regulating safety offshore.
    And with all that new regulation, what happened? Offshore oil 
production is now at an all-time high, and climbing. And in the first 
half of the year, nearly 400 offshore permits were approved, and only 
23 are pending.
    But now the Trump administration wants to take us backwards. 
Currently they are reviewing all the new offshore policies with an eye 
not toward what makes us safer, but what makes things easier and more 
profitable for ExxonMobil, Shell, and BP.
    And now they have decided to restart a new 5-year leasing process, 
throwing away 2\1/2\ years and tens of millions of dollars of effort, 
ignoring the overwhelming bipartisan opposition from hundreds of 
thousands of people up and down the Atlantic and Pacific coasts, and 
eliminating the protections that President Obama provided for the 
fragile Arctic.
    Lifting regulations on the oil and gas industry, while giving them 
more of our oceans to play with is a dangerous combination, and I fear 
it would just be a matter of time before we see a repeat of that 
horrible day 7 years ago.
    I yield back the balance of my time.

                                 ______
                                 

    Dr. Gosar. I thank the gentleman. I am now going to 
introduce our guests.
    First we have Ms. Katharine MacGregor, Acting Assistant 
Secretary, Land and Mineral Management, U.S. Department of the 
Interior--Round two, right? And Ms. Lori LeBlanc, Director, 
Offshore Committee, Louisiana Mid-Continent Oil and Gas 
Association; Ms. Margaret S. Howell, Founder, Stop Offshore 
Drilling in the Atlantic; Mr. Michael Whatley, Executive Vice 
President, Consumer Energy Alliance; and Dr. James H. Knapp, 
Professor, School of the Earth, Ocean, and Environment, 
University of South Carolina.
    Let me remind the witnesses that under our Committee Rules, 
they must limit their oral statements to 5 minutes, but their 
entire statement will appear in the hearing record.
    Our microphones are not automatic. Once you start, you have 
to push the little button to make sure you are speaking. You 
are going to see a little flag up in front of you. For the 
first 4 minutes it is going to be green. Then it will turn to 
yellow. When you see the red, I am going to start cutting you 
off, so wrap it up.
    I am going to now start with Ms. MacGregor.
    Thanks for coming back. You are recognized.

 STATEMENT OF KATHARINE MacGREGOR, ACTING ASSISTANT SECRETARY, 
LAND AND MINERALS MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR, 
                         WASHINGTON, DC

    Ms. MacGregor. Chairman Gosar, Ranking Member Lowenthal, 
and members of the Subcommittee, thank you for, once again, the 
opportunity to appear before you today to discuss the 
Department of the Interior's offshore oil and gas programs. My 
name is Kate MacGregor, and I am currently serving as the 
Acting Assistant Secretary for Land and Minerals Management.
    The Department, through the Bureau of Ocean Energy 
Management (BOEM) and the Bureau of Safety and Environmental 
Enforcement (BSEE) plays a central role in advancing the 
Administration's America First energy agenda and Secretary 
Zinke's goal of achieving American energy dominance.
    BOEM manages the Nation's energy and mineral resources on 
1.7 billion acres of the Outer Continental Shelf. BSEE is 
charged with regulatory oversight and enforcement to ensure 
safe and responsible exploration, development, and production.
    The Administration's America First energy agenda aims to 
safely harness all of our Nation's energy resources, including 
oil and gas, coal, and renewable energy. Offshore energy 
production is vital to this strategy, and currently accounts 
for 18 percent of our domestic oil production, 4 percent of our 
domestic natural gas production, billions of dollars in revenue 
for the Treasury, states, and conservation programs, and it 
supports over 300,000 jobs nationwide. Over 85 oil and gas 
companies operate today on the OCS, and in 2016 alone, 
production from offshore leases generated $2.8 billion. In 
short, the OCS is a critical economic driver for our Nation.
    Last month marked the end of the 2012-2017 5-year OCS oil 
and gas leasing program, comprised of 13 lease sales. Lease 
sale 244, the final sale in the program, was conducted last 
month in Alaska's Cook Inlet. That sale received bids on 14 
tracks for a total of more than $3 million. This is the first 
time in 20 years that Federal leases in the Cook Inlet have 
received bids. We are now operating under the 2017-2022 5-year 
offshore oil and gas leasing program. This program consists of 
11 lease sales, nearly all of which are in the Gulf of Mexico, 
with the exception of one in the Cook Inlet.
    Since the start of this Administration, several ongoing 
efforts have been underway to ensure that OCS oil and gas 
resources are made available to help meet our Nation's energy 
needs. I want to touch on just a few examples of the work the 
Department and its bureaus are doing to advance this agenda 
under Secretary Zinke's leadership.
    First, in March, Secretary Zinke signed an order 
implementing the review of agency actions directed by the 
President's Executive Order entitled, ``Promoting Energy 
Independence and Economic Growth.'' This order directed 
agencies to review all actions that potentially burden domestic 
energy production. BSEE and BOEM are undertaking a thorough 
review of their rulemakings in accordance with this directive.
    Second, in May, Secretary Zinke signed Secretarial Order 
3350, which implements the President's America First offshore 
energy Executive Order. This order enhances opportunities for 
energy exploration, leasing, and development; directs a review 
of specific regulatory actions; and promotes collaboration with 
other Federal agencies whose actions may impact offshore energy 
development.
    Chief among the action items called for in this order is 
the development of a new 5-year program with full consideration 
given to areas omitted in the current program. This includes 
areas in Alaska and the Mid and South Atlantic.
    The leasing program is critical to future development 
because the life cycle of an offshore well can span several 
years. In many cases, production today is the result of leases 
issued decades ago. By opening the planning process for a new 
5-year program, we will examine long-term opportunities to 
enhance responsible offshore energy development in the United 
States. We will ensure public input throughout the process, and 
maintain our ultimate commitment to safety.
    Dominance is defined as exerting authority or commanding 
from a superior position. Dominance does not stem from 
eliminating areas from future production. Instead, the United 
States can maintain its position as a global energy leader by 
harnessing energy resources on public lands, and doing so 
safely and responsibly. Under this Administration, offshore 
energy production will continue to support our Nation's 
position of energy superiority to meet national need, promote 
job growth, and keep energy prices low for American families 
and businesses.
    As we carry out the Administration's goal of energy 
dominance, we look forward to working with you and members of 
this Committee in our efforts. Thank you for the opportunity to 
testify today, and I will be happy to answer any questions.
    [The prepared statement of Ms. MacGregor follows:]
    Prepared Statement of Katharine S. MacGregor, Acting Assistant 
    Secretary, Land and Minerals Management, U.S. Department of the 
                                Interior
    Chairman Gosar, Ranking Member Lowenthal, and members of the 
Subcommittee, I am pleased to join you today to discuss the Department 
of the Interior's (Department) offshore programs carried out by the 
Bureau of Ocean Energy Management (BOEM) and the Bureau of Safety and 
Environmental Enforcement (BSEE), and our efforts to advance these 
programs to help secure American energy dominance, create jobs, lower 
costs for working Americans and build a strong economy, freeing us from 
dependence on foreign oil. Through these programs, the Department is 
providing access to our energy resources offshore, while adhering to 
all safety and environmental laws and regulations.
    The Outer Continental Shelf (OCS) is a vital component of our 
Nation's energy economy. It accounts for 18 percent of domestic oil 
production, 4 percent of domestic natural gas production, billions of 
dollars in annual revenue for the Treasury, states, and conservation 
programs, and supports more than 300,000 jobs. OCS activities are a key 
aspect of the Trump administration's America First Energy Agenda and 
Secretary Zinke's goal of maintaining our Nation's energy dominance by 
advancing domestic energy production, generating revenue, and creating 
and sustaining jobs throughout our country.
                               background
    The Department manages and regulates the development of America's 
natural resources, including oil, gas, mineral, and renewable energy 
sources offshore. American energy resources create hundreds of 
thousands of jobs and generate significant revenue both to the U.S. 
Treasury and states. Through natural resource policies designed to 
foster growth and facilitate local input, the Department provides 
opportunities for new jobs and revenue for Federal, state and local 
governments.
    BOEM manages the Nation's energy and mineral resources on 1.7 
billion acres of Federal submerged lands known as the Outer Continental 
Shelf (OCS). BOEM is responsible for managing development of these 
resources through offshore leasing, resource evaluation, review and 
administration of oil and gas exploration and development plans, 
renewable energy development, economic analysis, National Environmental 
Policy Act analysis, and environmental studies. BOEM promotes energy 
security, environmental protection and economic development through 
responsible, science-informed management of offshore conventional and 
renewable energy and mineral resources. BOEM carries out these 
responsibilities while ensuring that American taxpayers receive fair 
market value from OCS leases, balancing the energy and mineral needs of 
the Nation with the protection of the human, marine, and coastal 
environments.
    BSEE was established to protect life, property, and the environment 
by ensuring the safe and responsible exploration, development, and 
production of the Nation's offshore energy resources. BSEE fulfills 
this mission through integrated preparedness, prevention, and 
compliance activities. The Bureau's diverse team includes highly 
skilled engineers, geoscientists, geologists, environmental 
specialists, inspectors, and preparedness analysts. As the 
Administration works to support and promote domestic energy production, 
BSEE is taking the necessary steps to provide effective oversight of 
oil and natural gas development on the OCS, which reflects a careful 
balance among resource development, production goals, worker safety, 
and environmental protection. BSEE also consults with BOEM on these 
issues with respect to renewable energy.
    BSEE actively works to promote the efficient and responsible 
production of America's offshore energy resources, pursuing this 
objective through a comprehensive program of permitting, regulations, 
compliance monitoring and enforcement, technical assessments, 
inspections, and incident investigations. As a steward of the Nation's 
OCS oil, gas, and mineral resources, BSEE protects Federal royalty 
interests as well as energy users by ensuring that oil and gas 
production methods maximize recovery from underground reservoirs.
    The Administration's America First Energy Plan is an ``all-of-the-
above'' plan that includes oil and gas, coal, and renewable resources 
and the OCS is integral to the development of important energy 
resources. A key principle of this plan is that America's free markets 
will help determine where and when energy development on the OCS is 
feasible. To begin implementing this strategy, the President signed an 
Executive Order on April 28, 2017 which directs the Secretary to take 
regulatory steps to encourage energy exploration and production. In 
furtherance of this directive and in order to respond to our Nation's 
energy needs, the Department is engaged in a variety of ongoing efforts 
to support domestic offshore production while meeting our stewardship 
and environmental responsibilities. These efforts include predictable 
leasing; reducing barriers to accessing energy resources on the OCS; 
reviewing and streamlining leasing and permitting processes to serve 
its customers and the public more efficiently and effectively; 
regulatory reform; and improving coordination among key stakeholders, 
including state and local governments, other Federal agencies, and the 
public.
      outer continental shelf contribution to energy independence
    Oil and gas production from the OCS is a significant part of the 
America First Energy Plan and is a critical component in the Nation's 
energy supply. As of July 2017, there were more than 3,000 active oil 
and gas leases on more than 16 million OCS acres. In 2016, OCS leases 
provided 582 million barrels of oil, which accounted for 72 percent of 
all oil production from Federal lands, and 18 percent of total U.S. 
production of oil. During that same period, 1.3 trillion cubic feet of 
natural gas was produced in Federal waters, representing 27 percent of 
all natural gas produced on Federal lands and 4 percent of total U.S. 
natural gas production.
    The OCS is also a key revenue source for the Federal Government, 
providing a significant non-tax source of funding to Federal as well as 
state treasuries, which serves as an important economic driver for 
local communities across the country. More than 85 oil and gas 
companies operate on Federal submerged lands. There are more than 2,100 
offshore production platforms and approximately 26,800 miles of 
pipelines transporting oil and gas to shore. In Fiscal Year 2016, BOEM 
and BSEE offshore oil and gas activities supported a total of more than 
300,000 jobs across the country, and billions in value added economic 
output. In 2016 alone, production from leases on the Federal OCS 
generated $2.8 billion dollars in leasing revenue.
    I would now like to provide you with information on the most recent 
activities in these programs.
      the 2012-2017 and 2017-2022 ocs oil and gas leasing programs
    Last month marked the end of the 2012-2017 Five-Year OCS Oil and 
Gas Leasing Program. During that period, BOEM held 13 lease sales. Not 
including Lease Sale 244, BOEM awarded leases on over 1,350 tracts for 
a total of over $3.3 billion in bonus bids. Lease Sale 244, the final 
sale in the program, was conducted on June 21 in the Cook Inlet 
Planning Area in Alaska. That sale received bids on 14 tracts for a 
total of $3,034,815 in high bids and the bid evaluation process is 
currently being conducted. This is the first time in 20 years that OCS 
tracts in the Cook Inlet have received bids.
    Last month also marked the beginning of the 2017-2022 Five-Year 
Offshore Oil and Gas Leasing Program. The Program schedules 10 region-
wide sales comprised of unleased acreage in the Western, Central, and 
Eastern Gulf, not subject to moratoria or otherwise unavailable. This 
includes one sale during 2017 and 2022 and two sales during 2018, 2019, 
2020, and 2021. This region-wide sale approach provides greater 
flexibility for industry to respond to changing market conditions, 
including Mexican energy reforms. The first lease sale in this program 
is scheduled for August 2017 in the Gulf of Mexico and will offer 
approximately 13,725 tracts covering about 73 million acres. The 
Program also offers one sale off the coast of Alaska in Cook Inlet.
               lease continuation through operations rule
    On June 9, 2017, BSEE issued a final rule entitled, ``Oil and Gas 
and Sulphur Operations on the Outer Continental Shelf--Lease 
Continuation Through Operations,'' which amended sections 250.171 and 
250.180 of title 30 of the Code of Federal Regulations. This rule, 
issued in response to provisions of the Consolidated Appropriations Act 
of 2017 (P.L. 115-31), extends from 180 days to 1 year the time a lease 
in its extended term is allowed to continue between periods of 
production, drilling or well-reworking operations on that lease, before 
the lease would expire. These additional months mean companies doing 
business on the OCS will have more planning flexibility, which will 
help them be more cost efficient, create more jobs, and maximize the 
economic benefit for the entire nation.
                         secretary's order 3349
    On March 29, 2017, Secretary Zinke signed Secretary's Order 3349, 
which implements the review of agency actions directed by an Executive 
Order signed by the President on March 28, 2017, and entitled 
``Promoting Energy Independence and Economic Growth.'' It also directs 
a re-examination of the mitigation policies and practices across the 
Department of the Interior in order to better balance conservation 
strategies and policies with the equally legitimate need to create jobs 
for hard-working American families.
    BSEE and BOEM are undertaking a thorough review of their 
rulemakings in accordance with this directive. In addition, on June 22, 
2017, the Secretary requested public input on how the Department of the 
Interior can improve implementation of regulatory reform initiatives 
and policies and identify regulations for repeal, replacement, or 
modification. (82 Federal Register 28429; https://
www.Federalregister.gov/documents/2017/06/22/2017-13062/regulatory-
reform) The Secretary's request also provides an overview of the 
Department's approach for implementing the regulatory reform initiative 
to alleviate unnecessary burdens placed on the American people, which 
was established by President Trump in Executive Order (E.O.) 13777, 
``Enforcing the Regulatory Reform Agenda.''
                         secretary's order 3350
    On May 1, 2017, Secretary Zinke signed Secretary's Order 3350, 
which implements the President's Executive Order 13795 entitled, 
``Implementing an America-First Offshore Energy Strategy'' (Executive 
Order). Secretary's Order 3350 enhances opportunities for energy 
exploration, leasing, and development on the OCS; establishes 
regulatory certainty for OCS activities; and enhances conservation 
stewardship, providing jobs, energy security, and revenue for the 
American people. BOEM and BSEE were tasked, as discussed more fully 
below, with the following action items:
Initiation of the National Program Process
    This action item calls for the development of a new Five-Year Outer 
Continental Shelf Oil and Gas Leasing Program, with full consideration 
given to leasing the OCS offshore Alaska, Mid-Atlantic, South Atlantic, 
and the Gulf of Mexico, in accordance with the provisions of the Outer 
Continental Shelf Lands Act (OCSLA) as directed by the Executive Order. 
On July 3, BOEM initiated development by publishing in the Federal 
Register a Request for Information (RFI) seeking comments from a 
multitude of stakeholders, including states, local and tribal 
governments, Federal agencies, energy and non-energy industries, public 
interest groups, and the general public. The information will be used 
in the analyses that the Secretary must consider in making his first of 
three decisions on potential sales, the Draft Proposed Program. Under 
the last administration, 94 percent of the OCS was off-limits to 
responsible development, despite interest from state and local 
governments and industry leaders. The Trump administration is dedicated 
to promoting access to our offshore energy resources in order to 
promote energy dominance, create more job opportunities, and keep 
energy prices low for American families and businesses. By opening the 
planning process for a new Five-Year Program, we will achieve these 
goals while also ensuring the public has a say in how our natural 
resources are used.
Cooperation with the National Marine Fisheries Service on Seismic 
        Survey Permitting Oversight
    S.O. 3350 directs BOEM, in cooperation with the National Marine 
Fisheries Service (NMFS), to establish a plan to expedite consideration 
of Incidental Take Authorization requests, including Incidental 
Harassment Authorizations (IHA) and Letters of Authorization, that may 
be needed for seismic survey permits and other OCS activities; and to 
develop and implement a streamlined permitting approach for privately-
funded seismic data research and collection aimed at expeditiously 
determining the offshore energy resource potential of the United 
States.
    On May 11, 2017, Departmental leadership met with their National 
Oceanic and Atmospheric Administration (NOAA)/NMFS counterparts to 
begin to establish a plan to expedite consideration of Marine Mammal 
Protection Act authorization requests, as well as associated Endangered 
Species Act requests, and to develop and implement a streamlined 
permitting approach for privately funded seismic surveys. All parties 
agreed that NMFS and the Department, through the U.S. Fish and Wildlife 
Service, would convene an interagency working group to carry out these 
tasks. BOEM remains steadfast in its goals to implement its legal 
requirements expeditiously and effectively. BOEM will participate in 
the interagency working group as soon as it is established, identifying 
issues and potential solutions that would most help to streamline the 
permitting process for seismic surveys.
Consideration of Atlantic Seismic Permitting Applications
    This directive calls for the expedited consideration of appealed, 
new, or resubmitted seismic permitting applications for the Atlantic. 
As we begin the important job of deciding which areas will be offered 
for exploration and development in a new Five-Year Program, information 
on what resources are potentially available is critical. For this 
reason, we are moving forward with evaluation of the seismic permit 
applications for the Mid- and South Atlantic. The current data for 
these areas was collected 30 to 40 years ago. There have been many 
advances in technology since then, and we need to have a better 
understanding of the resources we manage for the Nation.
    Following the previous administration's January 2017 denials of six 
pending G&G permit applications, and the subsequent Notices of Appeal 
by the applicants, BOEM's Acting Director issued a memorandum on May 
10, 2017, seeking a remand by the Interior Board of Appeals of the 
January 2017 denials so that the applications could be processed. Upon 
request by BOEM, the Interior Board of Land Appeals remanded the 
appealed denials to BOEM on May 15, 2017, and BOEM notified the 
companies that the denials had been rescinded.
    BOEM has resumed its evaluation of the previously denied 
applications. The NMFS Draft Proposed IHAs were published in the 
Federal Register on June 6, 2017, initiating a 30-day public comment 
period that has since been extended by NOAA to July 21, 2017. The draft 
IHAs will be updated to reflect any new information resulting from the 
public review. BOEM will then coordinate with NMFS on mitigation 
issues.
Review of Notice to Lessees (NTL) No. 2016-N01
    The order directs BOEM to promptly complete the previously 
announced review of NTL No. 2016-N01 and to produce a report describing 
the review and options for revising or rescinding the NTL. This NTL 
modified BOEM's financial assurance program, which is designed to 
ensure that OCS lessees are able to meet all of their obligations. 
Currently, the timeline for implementation of the NTL has been extended 
pending completion of the review by the Department. However, BOEM has 
the authority to issue sole liability orders if it determines there is 
a substantial risk of nonperformance of the interest holder's 
decommissioning liabilities.
    BOEM is finalizing its review of NTL 2016-N0l, and has obtained 
significant industry feedback, principally from the Outer Continental 
Shelf Advisory Board, the Offshore Operators Committee, and the 
Pipeline Coalition. Final program recommendations from BOEM to senior 
management are forthcoming. Consistent with Secretary's Order 3350, 
BOEM does not intend to implement the NTL prior to completing its 
review.
Re-Examination of the ``Offshore Air Quality Control, Reporting, And 
        Compliance'' Proposed Rule
    This action item requires that BOEM immediately cease all 
activities to promulgate the ``Offshore Air Quality Control, Reporting, 
and Compliance'' Proposed Rule published in the Federal Register on 
April 5, 2016, and all other rules and guidance published pursuant 
thereto. BOEM is reviewing options for revising or withdrawing the 
proposed rule.
Review of the Well Control and Blowout Preventer Rule (BOP)
    This action item directs BSEE to ``Promptly review the final rule 
on `Oil and Gas and Sulfur Operations in the Outer Continental Shelf--
Blowout Preventer Systems and Well Control' for consistency with the 
policy set forth in section 2 of the Executive Order as well as all 
policies, rules, guidance, instructions, notices, or other implementing 
actions that have been adopted or are in the process of being developed 
relating thereto.''
    The final Well Control Rule (WCR) was issued more than 12 months 
ago and is being implemented by industry while some provisions of the 
rule have staggered implementation dates. Based on feedback from 
industry and other parties since the final rule was issued, BSEE has 
identified potential modifications to the rule and subsequent related 
rulemakings. While internal review of this regulation is ongoing, any 
change would require adherence to the rulemaking process, which would 
provide opportunities for public comment on any proposed changes.
Review of Final Rule on Exploratory Drilling in the Arctic
    This action item calls for the prompt review by both BOEM and BSEE 
of the final rule entitled ``Oil and Gas and Sulfur Operations on the 
Outer Continental Shelf--Requirements for Exploratory Drilling on the 
Arctic Outer Continental Shelf,'' published in the Federal Register on 
July 15, 2016. In accordance with Section 4c of Secretary's Order 3350, 
the President's Executive Order on Promoting Energy Independence and 
Economic Growth, signed on March 28, 2017, as well as OMB guidance on 
Regulatory Review, internal review of this regulation is ongoing. Any 
change would require adherence to the rulemaking process, which would 
provide opportunities for public comment on any proposed changes.
    BOEM and BSEE are currently on track to comply with all action 
items tasked to them by Secretary's Order 3350.
                        renewable energy program
    BOEM has 13 commercial offshore wind energy leases in Federal 
waters, totaling over 1.2 million acres on the OCS. In fact, BOEM's 
Offshore Renewables Program now has wind energy leases off every state 
from Massachusetts to North Carolina, forming the foundation for an 
offshore wind industry in the Atlantic.
    In the Atlantic, BOEM has held seven competitive offshore wind 
lease sales, generating $67.9 million in high bids. In December 2016, 
after soliciting input from all stakeholders, particularly the fishing 
community, BOEM conducted an auction for 79,350 acres offshore New 
York, resulting in a winning bid of $42,469,725 for the lease area. 
This auction, which yielded the highest revenue of any domestic 
offshore renewable energy auction to date, underscores the growing 
market demand for renewable energy among our coastal communities. In 
March 2017, BOEM auctioned 122,405 acres offshore Kitty Hawk, North 
Carolina. The provisional winner of the lease sale is Avangrid 
Renewables, LLC, with a bid of over $9 million.
    In the Pacific, BOEM continues to work closely with states and 
other stakeholders to facilitate offshore renewable energy development 
on the OCS off California, Oregon, and Hawaii. In the Gulf of Mexico, 
we are seeing interest by some oil companies to possibly use renewable 
energy resources to provide or supplement power for offshore 
operations, as well as interest from oil and gas-related manufacturing, 
fabrication and service industries to expand into the renewable energy 
sector.
                        marine minerals program
    BOEM is the only Federal agency authorized under the OCSLA to 
convey OCS sand resources for shore protection, beach, or wetland 
restoration projects undertaken by a Federal, state or local 
government. In exercising this authority, BOEM may issue a negotiated 
non-competitive lease for the use of OCS sand to a qualifying entity in 
response to a request.
    BOEM has invested more than $40 million over the past 20 years to 
identify non-energy resources on the OCS, conduct world-class 
scientific research, and lease OCS resources to coastal communities and 
other Federal agencies in need. Information from environmental research 
and resource identification has informed environmental assessment and 
leasing decisions concerning the use of OCS sand resources in beach 
nourishment and coastal restoration. To date, BOEM has authorized the 
conveyance of over 139 million cubic yards of sand in eight states 
resulting in the restoration of 303 miles of coastline. Notable 
projects include significant beach restoration in Brevard, Duval, and 
Pinellas Counties in Florida, and coastal restoration along the coasts 
of New Jersey and New York in the aftermath of Hurricane Sandy. Major 
restoration efforts have also occurred along the coastline of 
Louisiana.
                               conclusion
    Mr. Chairman, thank you again for the opportunity to be here today 
to discuss the Department, BOEM and BSEE's efforts to execute our 
missions to safely and responsibly reduce our dependence on foreign oil 
and create jobs through the development of these important energy 
resources.
    I will be glad to answer any questions that you or members of the 
Subcommittee may have.

                                 ______
                                 

 Questions Submitted for the Record to Ms. Katharine MacGregor, Acting 
 Assistant Secretary, Land and Minerals Management, U.S. Department of 
                              the Interior

Ms. MacGregor did not submit responses to the Committee by the 
appropriate deadline for inclusion in the printed record.

                   Questions Submitted by Rep. Gosar

    Question 1. Does BOEM consider impacts to microorganisms (or 
plankton) when completing Programmatic Environmental Impact Statements 
for OCS G&G activities?

    Question 2. What is BOEM's process for considering and assessing 
new scientific studies and how does BOEM incorporate new scientific 
findings into its decision-making process?

    Question 3. What improvements have been made since the Deepwater 
Horizon spill to prevent future spills?

                 Questions Submitted by Rep. Lowenthal

    Question 1. Please provide the full analysis performed by BOEM to 
support the reduction of royalty rates for shallow-water leases in Gulf 
of Mexico Lease Sale 249.

    Question 2. Please explain the specific way that the Department of 
the Interior is calculating benefits for regulations and policies being 
reviewed for their potential burden on the development of energy 
resources.

    Question 3. Both you and the Secretary have said that the 
Department is fully committed to all energy sources, and does not favor 
oil and gas over renewables. However, the proposed FY 2018 budget for 
renewables is cut in both BOEM and BLM while oil, gas, and coal 
programs would receive budget increases. When asked about the cut to 
the BOEM renewable energy program during the FY 2018 budget hearing, 
Secretary Zinke said, ``With regard to wind, the budget matches the 
anticipated demand.''

    3a. Please provide the analysis showing the expected drop in 
offshore wind demand that justifies the proposed cut to the BOEM 
renewable energy program.

    3b. Please provide any analysis that was done to show the expected 
increase in demand in Federal coal leasing that justifies the proposed 
80 percent increase in the FY 2018 BLM coal program budget.

    3c. The FY 2018 BOEM Budget Justification indicates that the cut to 
the BOEM renewable energy program would significantly hurt the program, 
and drive a decrease in demand for offshore wind. It reads that the cut 
will, ``slow the advancement of offshore renewable energy commercial 
leasing activities on both the Atlantic and Pacific coasts,'' and that, 
``although stakeholder meetings will still occur, BOEM may not be able 
to provide a trained facilitator at all of these meetings, which could 
impact their effectiveness.'' How are these statements consistent with 
the idea that the renewable budget is being cut due to an expected 
decrease in demand that is separate from the impact of the budget cut 
itself?

    3d. The Secretary also indicated his desire to hold better 
stakeholder outreach regarding offshore wind, particularly with 
fishermen. Given that the proposed BOEM FY 2018 budget would, according 
to BOEM, make stakeholder outreach meetings less effective, how is the 
proposed cut consistent with Secretary Zinke's stated desire to improve 
outreach to fishermen?

    Question 4. Please identify each remaining deepwater lease issued 
inclusively between 1996 and 2000 under the provisions of the OCS Deep 
Water Royalty Relief Act for which royalties were not paid in FY 2016, 
the volumes of royalty-free deepwater (> 200m) oil and gas produced in 
FY 2016 broken down by the amount of production of oil and gas 
attributable to each company that owns all or part of each royalty-free 
deepwater lease, and the amount of royalty-free volumes of oil and gas 
remaining to be produced from each of the remaining leases. What is the 
total amount of royalties that have been foregone under the terms of 
the OCS Deep Water Royalty Relief Act?

                                 ______
                                 

    Dr. Gosar. Thank you. The Chair now recognizes Ms. LeBlanc 
for her 5 minutes.

   STATEMENT OF LORI LeBLANC, DIRECTOR, OFFSHORE COMMITTEE, 
 LOUISIANA MID-CONTINENT OIL AND GAS ASSOCIATION, BATON ROUGE, 
                           LOUISIANA

    Ms. LeBlanc. Good morning, Mr. Chairman, Ranking Member 
Lowenthal, and members of the Committee. I appreciate the 
opportunity to participate in today's hearing on oil and gas 
development opportunities of the OCS. My name is Lori LeBlanc. 
I currently serve as the Director of the Offshore Committee for 
the Louisiana Mid-Continent Oil and Gas Association (LMCOGA), 
and I live and work in Lafourche Parish, Louisiana.
    LMCOGA is Louisiana's longest-standing trade association, 
exclusively representing all aspects of the oil and gas 
industry onshore and offshore. First, I would like to take a 
moment to recognize Majority Whip Scalise, who has been a 
champion for Louisiana's offshore energy industry, and we 
continue to keep him in our prayers as he is going through this 
recovery process. I also thank Congressman Graves for his 
leadership on our offshore energy issues.
    As the Committee looks at opportunities for increasing 
offshore access for oil and gas development, I urge you to look 
to Louisiana and our long history in successfully producing 
America's energy.
    I want to make two primary points in today's testimony.
    First, Louisiana is a leader in producing American energy, 
and we do it in such a way that we balance energy production 
with environmental stewardship. Louisiana has demonstrated that 
not only are we an energy state, but we are also the 
sportsman's paradise.
    My second point is that the OCS revenue sharing is critical 
to Louisiana's environmental stewardship, and it should be 
preserved, enhanced, and included in any future proposals for 
OCS energy development activities.
    To best understand the potential of our Nation's offshore 
energy development, it is useful to take a look at the scope of 
energy production that takes place in the Gulf. Since the first 
offshore well was drilled 70 years ago, the Gulf has produced 
90 percent of domestic U.S. crude oil from all OCS territories, 
with approximately 20 percent of our Nation's oil and gas 
currently coming from the Gulf.
    Louisiana has a long and distinguished history of producing 
the energy to fuel America. In 2016, about 18 percent of our 
crude oil and 4.5 percent of our natural gas production 
occurred in Federal waters off of our coast. Louisiana is first 
in revenues generated offshore, with an estimated $5 to $14 
billion going to the Federal Treasury each year.
    In 2014, in fact, Federal revenues from energy production 
in the Gulf were $7.4 billion. This revenue stream is one of 
the largest sources of annual deposits to the national 
Treasury.
    The total economic impact of Gulf energy is immense. It 
creates jobs in every state in the United States, with more 
than 650,000 jobs nationwide estimated to be linked to Gulf 
energy activity. We are an example of how a robust offshore oil 
and gas industry can provide significant benefits to our local 
state and national economies. A 2014 economic study indicates 
the offshore industry has a $4 billion annual impact to 
Louisiana.
    A robust offshore oil and gas industry also results in a 
boom of many other industries. In fact, Louisiana has one of 
the top port systems in the country: 5 of the top 15 largest 
ports in the United States are located in Louisiana, with Port 
Fourchon considered to be our Nation's energy port.
    The state of Louisiana does all this while also boasting 
some of America's most precious landscapes and habitats. 
Louisiana has demonstrated firsthand how to balance the 
development of our Nation's oil and gas resources off our coast 
and still maintain a robust hunting, fishing, and wildlife 
industry, and a world-renowned tourist destination.
    In Louisiana, our commercial fishing represents nearly 30 
percent of the commercial fishing landings of the Continental 
United States. Our wetlands provide habitat for over 5 million 
migratory water fowl, and wildlife recreation has amounted to a 
$3 billion industry supporting over 25,000 jobs.
    In fact, in 2016, Louisiana experienced a record-breaking 
year for tourism, with 46.7 million visitors and spending of 
nearly $17 billion.
    Energy production in the Gulf is also critical to restoring 
Louisiana's coast and protecting our coastal communities. As a 
result of the 2006 Gulf of Mexico Energy Security Act, 
investments by Louisiana's oil and gas industry in the Gulf 
will soon fund coastal restoration and protection projects.
    In Louisiana, revenue-sharing is dedicated for funding the 
state's coastal restoration and protection initiatives. In 
fact, in 2006, Louisiana voters passed a constitutional 
amendment to dedicate 100 percent of our GOMESA revenues to the 
restoring and protecting of Louisiana's coast. Our coastal land 
loss is a crisis, and the state has a $50 billion master plan 
over a 50-year period to restore our coast. GOMESA funding is 
critical to those efforts. And I will add primary 
responsibility of our coastal land loss is due to the fact that 
we put levees on the Mississippi River, and that sediment is no 
longer replenishing our coastal wetlands.
    Finally, I just want to tell you that I live in south 
Louisiana. It is a place where we live, where we work, and 
where we play. It is a working coast where we feed and fuel 
America. I am proud to call it my home, and we are proud to 
produce America's energy.
    Thank you.
    [The prepared statement of Ms. LeBlanc follows:]
   Prepared Statement of Lori LeBlanc, Director, Offshore Committee, 
            Louisiana Mid-Continent Oil and Gas Association
    Good morning Chairman Gosar, Ranking Member Lowenthal and members 
of the Committee. I appreciate the opportunity to participate in 
today's hearing on oil and gas development opportunities on the Outer 
Continental Shelf (OCS). My name is Lori LeBlanc, I am the Director of 
the Offshore Committee for the Louisiana Mid-Continent Oil and Gas 
Association (LMOGA). In addition to serving as the Director of LMOGA's 
Offshore Committee, I also serve as the Executive Director of the Gulf 
Economic Survival Team and previously served as the Deputy Secretary of 
Louisiana Department of Natural Resources as well as the Executive 
Director of a non-profit coastal restoration organization, Restore or 
Retreat.
    LMOGA is Louisiana's longest standing trade association, 
exclusively representing all aspects of the oil and gas industry 
onshore and offshore, including exploration, production, mid-stream 
activities, pipeline, refining and marketing.
    I would like to start off by saluting the Administration and the 
Department of the Interior for taking a hard and thorough look at the 
abundance of opportunities that comprise our country's very promising 
energy future.
    I want to make two primary points in today's testimony. First, 
Louisiana is a leader in producing American Energy and we do it in such 
a way that we balance energy production with environmental stewardship. 
Because of our responsible management of our abundant natural 
resources, Louisiana has demonstrated that we are an Energy State as 
well as the Sportsman's Paradise. Louisiana's success in effectively 
achieving that balance is a shining example of what the United States 
can achieve in other Federal offshore areas. My second point is that 
OCS revenue sharing is critical to Louisiana's environmental 
stewardship and it should be preserved, enhanced and included in any 
future proposals for OCS energy development activities.
    To best understand the potential of our Nation's offshore energy 
development, it is useful to take a look at the scope of energy 
production that takes place in the Gulf of Mexico and recognize that a 
successful OCS industry requires a blend of major integrated oil 
companies and smaller independents working both competitively and 
cooperatively where the market forces determine what works best. A 
successful OCS industry also requires a Federal regulatory regime in 
which operators are provided a high degree of clarity, predictability 
and certainty as they invest hundreds of millions of dollars in 
developing and producing our Nation's energy.
    Since the first offshore well was drilled 70 years ago, the Gulf 
has produced 90 percent of domestic U.S. crude oil from all of the OCS 
territories, with approximately 20 percent of our Nation's oil and gas 
currently coming from the Gulf of Mexico. In 2016, offshore production 
of crude oil in Federal waters totaled more than 594 million barrels, 
which represented over 18 percent of total U.S. crude oil production, 
according to the Energy Information Administration (EIA). In 2016, EIA 
data shows that there was 1.2 trillion cubic feet of offshore natural 
gas production or a little less than 4.5 percent of total marketed 
domestic gas production.
    U.S. crude oil production in the Federal Gulf of Mexico (GOM) set 
an annual high of 1.6 million barrels per day (b/d) in 2016, surpassing 
the previous high set in 2009 by 44,000 b/d. In January 2017, GOM crude 
oil production increased for the fourth consecutive month, reaching 1.7 
million b/d. On an annual basis, oil production in the GOM is expected 
to continue increasing through 2018, based on forecasts in EIA's latest 
Short-Term Energy Outlook.
    The total economic impact of Gulf energy is immense. It creates 
jobs in every state in the United States, with more than 650,000 jobs 
nationwide estimated to be linked to Gulf energy activity, along with 
tens of thousands here in Louisiana alone. In fact, the Department of 
the Interior has cited that over $1 trillion in net economic value is 
associated with the development of the Gulf of Mexico over the past 20 
years and the Federal Government has collected over $150 billion in 
revenues during that time. In 2014, for example, Federal revenues from 
energy production in the Gulf of Mexico were $7.4 billion. This revenue 
stream is one of the largest sources of annual deposits to the national 
Treasury.
    As the Committee explores opportunities for increasing offshore 
access for oil and gas development and expanding the tremendous 
economic benefits of offshore production, I urge you to look to 
Louisiana and our long, distinguished history of successfully producing 
the Energy to fuel America.
    The first land-based oil well was drilled in Louisiana in 1858, the 
first ``offshore'' well was drilled in state inland waters in 1911, and 
the first successful well drilled out of sight of land was in 1947, 
bringing with it a whole new era of oil and gas exploration and 
production for Louisiana and our Nation. Deepwater Gulf of Mexico 
operations now account for 80 percent of all Gulf oil produced.
    Louisiana proudly serves as the gateway to the Gulf, the front door 
to the boundless energy potential just miles off our coast and 
thousands of feet under the water's surface. It is a job that 
Louisianans have done proudly and it has become a significant part of 
our livelihood and our culture, just as much as our bountiful hunting 
and fishing, our wildlife watching, our ecotourism, and our unique food 
and music.
    The state of Louisiana is first in OCS oil production and second in 
OCS natural gas production. Louisiana is first in revenues generated 
offshore with an estimated $5-$14 billion deposited into the Federal 
Treasury each year from activity off of the Louisiana coast.
    Louisiana is an example of how a robust offshore oil and gas 
industry can provide significant benefits to our local, state and 
national economies. A 2014 study by economist Dr. Loren C. Scott, 
indicates the offshore industry has a $44 billion annual impact to 
Louisiana and a $70 billion annual impact when you factor in the 
related pipeline and refining activities.
    In 2013, energy jobs and earnings existed in all 64 Louisiana 
parishes with 17 parishes employing more than 1,000 workers in the 
energy industry. In Lafayette Parish alone, the energy sector accounted 
for more than 16,000 direct jobs and more than $1 billion in salaries. 
Where I live in Lafourche Parish, Louisiana, it is very common to have 
at least one energy worker in your family or several others living in 
your neighborhood--it's a way of life.
    A robust offshore oil and gas industry results in a boom of many 
other industries from ports, to pipelines, to refineries, to 
shipbuilding to platform fabrication, to offshore transportation, to 
drilling services, to catering services, to numerous specialty and 
service supply companies. As stated in BOEM's Five Year Plan 2017-2022, 
``An OCS oil and gas project requires equipment and supplies for 
exploration, development, platform fabrication, pipeline construction, 
air and water transportation, and other activities. Not only does the 
industry purchase goods and services from vendors and suppliers across 
the country, but its work schedules (usually a week or more offshore, 
followed by the same period off duty) allow offshore workers to commute 
even from thousands of miles away.''
    Louisiana has one of the top port systems in the country and 5 of 
the top 15 largest ports in the United States are located in Louisiana 
with Port Fourchon considered to be our Nation's Energy Port. Port 
Fourchon is an intermodal and supply port located on the Gulf of Mexico 
near the mouth of Bayou Lafourche and is the only Louisiana port 
directly on the Gulf of Mexico. More than 250 companies utilize Port 
Fourchon in servicing offshore rigs in the Gulf of Mexico, carrying 
equipment, supplies and personnel to offshore locations. In terms of 
service, Port Fourchon's tenants provide services to more than 90 
percent of all deepwater rigs in the Gulf of Mexico, and roughly 45 
percent of all shallow water rigs in the Gulf. Eighty percent of all 
Gulf oil now comes from deepwater Gulf of Mexico operations. In total, 
Port Fourchon plays a key role in providing nearly 20 percent of the 
Nation's oil supply--or one in every five barrels of oil in the 
country.

    The state of Louisiana does all of this while also boasting some of 
America's most precious landscapes and habitats. Truly, Louisiana has 
demonstrated firsthand how to balance the development of our Nation's 
oil and gas resources off its coast and still maintain a robust 
hunting, fishing, and wildlife industry as well as world-renowned 
tourist destination. In Louisiana:

    <bullet> Our commercial fishermen harvest over 2 billion pounds of 
            fish and shellfish annually, representing nearly 30 percent 
            of the commercial fishing landings of the continental 
            United States.

    <bullet> Our wetlands provide habitat for over 5 million migratory 
            waterfowl.

    <bullet> Wildlife recreation, which includes hunting, fishing and 
            wildlife watching has amounted to a $3 billion industry, 
            supporting over 25,000 jobs.

    <bullet> In 2016, Louisiana experienced a record-breaking year for 
            tourism with 46.7 million visitors and spending $16.8 
            billion. In fact, tourism increased approximately 65 
            percent from 2013 to 2016.

    For those of us who live in Louisiana, oil and gas is a way of life 
that is intertwined with our love for hunting and fishing. The oil and 
gas industry is part of our geography, our society, our economy, our 
culture. The Louisiana energy industry has been a responsible community 
partner for more than a century, creating more jobs than any other 
industry in Louisiana, raising the standard of living and quality of 
life all across Louisiana. At the same time, the industry has invested 
hundreds of millions of dollars and forged partnerships with the best 
scientists to develop cutting-edge efforts to protect and restore our 
coastal wetlands and communities.
    The people who really understand American energy are those who live 
it. I'm talking about those folks on the front lines of producing 
American Energy in small towns across the Gulf Coast--from Gulf Port, 
to Galliano to Galveston. Nowhere else in America would you find an 
annual festival called the Shrimp & Petroleum Festival, but here in 
Louisiana, we celebrate these two bountiful resources each Labor Day 
weekend.
    Additionally, nowhere else in America is safe offshore energy 
development as important as it is in Louisiana. This is a place where 
we live, work and play. Every day our family, friends, and neighbors go 
off to work in their hard hats and steel toe boots and we want them to 
come home safely. Increased activity in the Gulf of Mexico has rested 
on the implementation of strict safety and environmental standards.
    Since the 2010 Deepwater Horizon incident, the oil and gas industry 
has demonstrated its commitment to ensure that people and the 
environment are protected during all phases of energy exploration, 
development and production. A robust collaborative effort among 
industry has resulted in the development of new technology and 
standards for prevention, intervention and response. Industry 
established the Center for Offshore Safety (COS) to foster safety 
culture and share lessons learned across industry, and the Marine Well 
Containment Company (MWCC) and the Helix Well Containment Group (HWCG) 
to provide containment technology and response capabilities.
    The reality is that not a single industry has a zero risk; however, 
the industry has taken extensive measures to reduce risk. According to 
the Bureau of Labor Statistics for 2015, the total recordable incident 
rate for private industry was 3.0; whereas the total recordable 
incident rate for support activities for oil and gas operations was 
1.2. The industry is committed to a goal of zero fatalities, zero 
injuries and zero incidents.
    Louisiana's oil and gas industry provides significant benefits to 
our Nation's energy supply, American jobs and local economies, but 
energy production in the Gulf of Mexico is also critical to saving 
Louisiana's coast and our coastal communities. This brings me to my 
second point--how revenue sharing can help preserve Louisiana's ability 
to continue to provide energy security for our Nation.
    As a result of the 2006 Gulf of Mexico Energy Security Act 
(GOMESA), investments by Louisiana's oil and gas industry in the Gulf 
will soon fuel coastal restoration and protection projects, with 
hundreds of millions of dollars from offshore drilling revenue coming 
to Louisiana and three other Gulf states. It's another example of the 
powerful positive impacts of offshore energy development.
    GOMESA officially recognizes the efforts and contributions of 
states like Louisiana in supporting America's energy supply and 
generating Federal revenue. Each year, the Federal Government collects 
on average between $5 billion-$14 billion in offshore royalty revenue, 
much of it from right here in the Gulf of Mexico.
    For the first time in our Nation's history, GOMESA provides a way 
to compensate Gulf states and coastal communities with a much deserved 
and long overdue portion of royalty revenue collected from the OCS in 
the Gulf. GOMESA represents our fair share for supporting offshore oil 
and gas activity, just as non-coastal states share in royalty revenues 
for activity on Federal lands, although at a much higher rate.
    GOMESA was designed to ensure that states have adequate resources 
for coastal restoration, conservation, and hurricane protection 
projects. In Louisiana, revenue sharing is dedicated for funding the 
state's coastal restoration and protection initiatives as well as 
protecting critical energy infrastructure such as Louisiana Hwy 1, 
which is the only highway to Port Fourchon, America's energy port. In 
fact, in 2006 Louisiana voters passed a constitutional amendment to 
dedicate 100 percent of all GOMESA revenues to the restoring and 
protecting of Louisiana's coast. Large-scale restoration of coastal 
Louisiana is critical to protecting existing infrastructure and an 
industry of national importance.
    GOMESA funding is a reinvestment in America's wetlands and our 
critical energy infrastructure. GOMESA represents Louisiana's fair 
share of offshore royalty revenues and this funding is critical for 
restoring Louisiana's vanishing coastline as well as protecting the 
coastal communities and businesses who support our offshore oil and gas 
industry. It is imperative that this reinvestment in America's coastal 
communities that give so much be sustained.
    In closing, Louisiana has proven firsthand that we can successfully 
produce American energy while at the same time protecting our 
environment. As Congress and the Administration considers opportunities 
to expand oil and gas development and production in the OCS, look no 
further than Louisiana for an example of the tremendous benefits such 
robust activity can offer while also protecting precious coastal 
environments, wildlife and fisheries. Consider Louisiana as well, when 
you consider the impact that GOMESA funds can make in preserving this 
economic engine and environmental treasure for decades to come.
    The vibrant offshore oil and gas industry in the Gulf of Mexico has 
proven to provide long-lasting and undisputable economic and energy 
security benefits not only to Louisiana, but also to the entire Nation. 
These are direct benefits that states across our country could 
experience with the opening of additional OCS territories for energy 
development. The OCS has significant reserves of oil and natural gas 
that could help reduce our dependence on foreign energy sources, expand 
employment opportunities, improve the stability of our economy, and 
reduce the burden on consumer's pocketbooks. It's time to look at all 
of these options as we forge America's energy future.

                                 ______
                                 

    Dr. Gosar. I thank the gentlelady.
    The Chair will now recognize Ms. Howell for her 5 minutes.

    STATEMENT OF MARGARET S. HOWELL, FOUNDER, STOP OFFSHORE 
    DRILLING IN THE ATLANTIC, PAWLEYS ISLAND, SOUTH CAROLINA

    Ms. Howell. Thank you. Chairman Gosar, Ranking Member 
Lowenthal, and honorable Subcommittee members, good morning. My 
name is Peg Howell. Thank you for inviting me to testify before 
the Committee today. I would like to submit my written 
testimony for the record.
    I especially want to thank you for inviting a citizen who 
lives on the beautiful South Atlantic coast. The binders in 
front of me hold resolutions and letters from just some of the 
people I am representing today who opposed seismic testing and 
drilling.
    There are over 126 East Coast municipalities, more than 
1,200 local state and Federal elected officials, an alliance 
representing over 41,000 businesses, and half-a-million fishing 
families. There are fishing management councils, restaurant and 
hotel associations, numerous chambers of commerce, tourism 
boards, and homeowners represented in these binders. All of 
these people are Republicans and Democrats. For us, protecting 
their Atlantic Coast is not a partisan issue.
    My comments today are informed by my firsthand experience 
as an offshore drilling engineer and business owner, and 
especially as a mother who is committed to leaving this world a 
better place for my son and for generations to come.
    I was the first female company man--which is the oil 
field's term for a drilling rig supervisor--in the Gulf of 
Mexico. I have worked for Mobil, Marathon, and Chevron Oil 
companies in the U.S. Gulf and in the North Sea. I later earned 
an MBA from Harvard and have run my own consulting business for 
23 years.
    On behalf of the coastal businesses and residents, I want 
to emphasize four important points today.
    First, the Atlantic Coast economy, nearly 1.4 million jobs 
and over $95 billion in GDP annually from our fishing, tourism, 
and recreation industries, rely on a healthy ocean ecosystem 
and an unsoiled coast. Offshore exploration and production and 
the dirty onshore infrastructure that support it represent too 
great a risk to our current and future livelihood and quality 
of life. To expose the Atlantic to offshore drilling is, as my 
state of South Carolina's Governor McMaster says, ``killing the 
goose that laid the golden egg.''
    The Gulf Coast's economy grew up with the oil business. The 
people of the Atlantic Coast have protected it from misuse and 
exploitation for hundreds of years. To now bring the pipelines, 
vessel traffic, storage tanks, and refineries to the Atlantic 
Coast not only guarantees destruction of our coastal economy, 
it also puts at risk human health and quality of life.
    Onshore infrastructure like that at Port Fourchon, 
Louisiana are pollution threats to water and air quality, 
especially when hurricanes strike. Remember the Deepwater 
Horizon catastrophe? Visitor spending in Louisiana alone in 
2010 dropped by $247 million. The total impact of that disaster 
on fisheries could total $8.7 billion by 2020.
    Two, there is no reason to drill in the Atlantic to enhance 
our energy independence or security. The United States is 
already the dominant producer of oil and gas in the world. 
Because we have an abundant supply, in December of 2015, 
Congress allowed oil companies to start exporting our crude oil 
for the first time since the oil embargoes in the 1970s. We are 
now exporting more than a million barrels of our oil a day to 
foreign countries like China.
    Congress and the Administration acknowledge that our supply 
is so secure that they will be selling off half of our 
strategic petroleum reserve. Our global security comes from 
moving away from oil and gas toward cleaner energy sources.
    Three, contrary to claims made by oil and gas industry 
associations, seismic airgun blasting is not harmless, and 
drilling is not safer or environmentally friendly.
    Let's start with seismic surveys. Seismic airgun blasts, 
one of the loudest man-made noises in the ocean, are discharged 
every 10 to 12 seconds, 24 hours a day, for months at a time. 
The noise can be heard more than 2,500 miles from the source, 
approximately the distance from New York to Las Vegas.
    Five seismic companies are currently applying for permits 
to blast an unprecedented amount of noise into the ocean. There 
is nowhere for the impacted mammals like whales, dolphins, and 
sea turtles to escape the noise, which seriously affects their 
ability to communicate, navigate, feed, and mate. Numerous 
studies show the detrimental impact of seismic airguns on our 
fisheries and on zooplankton, the foundation of our marine food 
web.
    If seismic testing had definitively found oil and gas, then 
Royal Dutch Shell would not have spent $7 billion in the Arctic 
2 years ago to drill a dry hole. In order to find oil and gas, 
you have to drill.
    Now, let's talk about drilling. It is not safer. In fact, 
the safeguards put in place after Deepwater Horizon are being 
rolled back by this Administration. But the Deepwater Horizon 
blowout did not happen because of failed technology. It 
happened because of a bad decision. Technology may improve, but 
decisions are still made by people, and people make mistakes.
    Four, when the oil and gas business comes to town, they are 
here to stay. Some people in our government think that somehow 
oil rigs just come, drill holes, and then they go away. They 
don't know that if commercial quantities of oil and gas are 
found, as Kate mentioned earlier, the lease entitles the oil 
company to produce there forever. This is the sad reality of 
the West Coast, where Californians have been trying to stop 
offshore drilling for nearly 50 years. In some foreign 
countries there are precious reserves; the oil companies pocket 
the profits, and those of us along the coast take all the 
risks.
    [The prepared statement of Ms. Howell follows:]
   Prepared Statement of Margaret S. Howell, Founder, Stop Offshore 
                        Drilling in the Atlantic
    Chairman Gosar, Ranking Member Lowenthal and Honorable Committee 
Members: Good morning. My name is Peg Howell. Thank you for inviting me 
to testify before the Committee today. I look forward to a robust 
conversation about the impacts that the proposed offshore drilling and 
seismic testing in the Atlantic will have on coastal economies and the 
people who live and visit here. I would like to submit my written 
testimony for the record.

    I especially want to thank you for inviting a citizen who lives on 
the beautiful Atlantic coast. We are the ones who will be most impacted 
if the Atlantic is opened to offshore exploration and drilling. It is a 
daunting task to represent the millions of residents, tens of thousands 
of business owners, and the marine and wild life that grace our coast--
all of which will be harmed in some way by offshore drilling, seismic 
testing, and the onshore infrastructure that supports it.

    The opposition to seismic airgun blasting and offshore drilling in 
the Atlantic is enormous and continues to grow [Fig. 1]. We have 
resolutions and letters opposing seismic testing and drilling from:

    <bullet> 126 East Coast municipalities

    <bullet> Over 1,200 local, state and Federal elected officials

    <bullet> An alliance representing over 41,000 businesses and 
            500,000 fishing families from Florida to Maine

    <bullet> New England, South and Mid-Atlantic Fishery Management 
            Councils

    <bullet> Other commercial and recreational fishing interests, such 
            as the Fisheries Survival Fund, Southern Shrimp Alliance, 
            Billfish Foundation and International Game Fish Association

    <bullet> Numerous chambers of commerce, tourism boards, and 
            homeowners, restaurant and hotel associations from New 
            Jersey to Florida

    In addition, NASA, the Department of Defense, and the Florida 
Defense Support Task Force have also expressed concern with offshore 
oil and gas development threatening their ability to perform critical 
activities.

    In my own state of South Carolina, every mayor in every coastal 
city and town as well as our Governor oppose seismic testing and 
drilling. They are Republican and Democrat alike; protecting our coast 
is not a partisan issue.

    My comments today are informed by my firsthand experience as an 
offshore drilling engineer, business owner, educator and especially as 
a mother who is committed to leaving this world better than I found 
it--for my son and for generations to come.

    I was the first female petroleum engineer to graduate from Marietta 
College, where I earned my B.S. in Petroleum Engineering, cum laude. I 
was also the first female ``company man''--which is the oilfield's term 
for drilling rig supervisor--in the Gulf of Mexico [Fig. 2]. I have 
worked for Chevron, Mobil, and Marathon oil companies in the United 
States and in the North Sea. I later earned an MBA from Harvard 
Business School and have run my own consulting business for 23 years. 
My work has been focused on developing leaders, primarily senior 
executives in Fortune 50 companies.

    A little over 8 years ago, my husband and I semi-retired to a piece 
of heaven on earth called Pawleys Island, South Carolina. Pawleys 
Island is one of the oldest seaside resorts in the country, established 
in the early 1700s by plantation owners who came to the beach in the 
summertime to escape the mosquitoes and the malaria in the rice fields. 
Pawleys is a place where people deeply love their land, the rivers, the 
salt marshes and the beaches. We are proud, as one neighbor said, of 
the ``generations of concerned, responsible people, along with county, 
state and federal governments, that have worked for more than a century 
to protect hundreds of miles of the Atlantic Coast from abuse, misuse 
and exploitation. As a result, [our] coast contains some of the most 
pristine waters, beaches and salt marshes (a vital nursery for sea 
life) in the world.'' \1\ We are also proud of the science that is done 
in those untouched inlets and coastal forests by universities across 
the state and the country--science that helps us understand the 
interconnectedness of all life.
---------------------------------------------------------------------------
    \1\ http: / / www.postandcourier.com / opinion / letters_to_editor 
/ letter-seismic-testing / article_ afba5e44-5299-11e7-a1a5-
4be4ae320b7d.html?utm_medium=social&utm_source=facebook&utm_ 
campaign=user-share.

    In that context, you can imagine my shock and dismay in the fall of 
2013 when I started noticing articles and op-eds in our local newspaper 
written by our County Councilman and State Representative supporting 
oil and gas exploration in the Atlantic \2\ \3\ [Figs. 3, 4]. Why would 
these men put our precious coast and economy at risk?
---------------------------------------------------------------------------
    \2\ Coastal Observer, ``House District 108: Questions for Stephen 
Goldfinch,'' October 30, 2014.
    \3\ Coastal Observer, ``Offshore Drilling, An Opportunity for 
Economic Growth'' by Bob Anderson, former Georgetown County 
Councilmember, District 6, October 24, 2013.

    Those articles set in motion a series of events that culminated in 
a small group of individuals in Pawleys Island forming an organization 
called ``SODA-Stop Offshore Drilling in the Atlantic'' in February 
2015. SODA is an all volunteer, non-partisan, grassroots organization 
formed because of our desire to protect and preserve the health and 
economy of the Atlantic coast, our home. Our sole mission is to prevent 
offshore seismic testing and drilling for oil and gas in the Atlantic. 
We have an extremely dedicated and talented core team that has been 
meeting at least twice a month since our founding, and are joined by 
approximately 2,000 active members engaged in educating the citizens 
and elected officials of South Carolina about offshore issues, and 
---------------------------------------------------------------------------
advocating for our coast at the Federal, state and local levels.

    Since March 2015, we have been researching and sharing with 
literally thousands of people the facts about why offshore oil and gas 
drilling and seismic airgun surveys are not good for South Carolina. 
One of the most important contributions SODA has made to the effort is 
a study called Tourism vs. Oil (TVO), written by three SODA team 
experts [Fig. 5]. This analysis compared the financial trade-offs of 
the proposed venture to drill for oil in the Atlantic Ocean off the 
South Atlantic states with the projected value of South Carolina's 
tourism-based economy, based on the study prepared for the American 
Petroleum Institute and the National Ocean Industries Association, 
titled, The Economic Benefits of Increasing U.S. Access to Offshore Oil 
and Natural Gas Resources in the Atlantic, authored by Quest Offshore 
Resources (the Quest Report). The TVO analysis concludes that the 
overly optimistic projections for state revenues included in the Quest 
Report are only 1/27th of the conservative estimates of South 
Carolina's tourism economy over the same time period. In other words, 
the TVO analysis shows, in indelibly stark numbers, that it is not in 
the economic interest of the state of South Carolina or its residents 
to support drilling in the Atlantic.\4\
---------------------------------------------------------------------------
    \4\ http://www.drilldownsc.com/#!tvo/c1sav.

    Looking at the entire Atlantic coast economy, nearly 1.4 million 
jobs and over $95 billion in gross domestic product rely on a healthy 
coast and ocean ecosystems, mainly through fishing, tourism and 
recreation. To expose the Atlantic to offshore drilling and seismic 
testing is, as South Carolina Governor McMaster says, ``killing the 
---------------------------------------------------------------------------
goose that laid the golden egg.''

    As you know, offshore oil and gas exploration and development 
begins with seismic airgun surveys, an extremely loud and dangerous 
process used to search for potential oil and gas deposits deep below 
the seafloor. The airgun blasts--one of the loudest man-made noises in 
the ocean--are discharged every 10-12 seconds, 24 hrs/day for months at 
a time. The noise can be heard more than 2,500 miles from the source, 
approximately the distance from New York to Las Vegas. Five companies, 
some of which are internationally based, are currently applying for 
Incidental Harassment Authorizations (IHAs) from NOAA [Fig. 6]. The 
standard they must meet to obtain the IHA is that the number of takings 
would:

    <bullet> be of small numbers,

    <bullet> have no more than a ``negligible impact'' on those marine 
            mammal species or stocks, and

    <bullet> not have an ``unmitigable adverse impact'' on the 
            availability of the species or stock or ``subsistence'' 
            uses.

    The seismic companies will be running over 90,000 miles of seismic 
lines across all the Mid- and South Atlantic Planning Areas, roughly 
170 million acres. Combined, they will run a total of 906 days of 
seismic within a 1-year permit period. This is an unprecedented amount 
of noise. When comparing this amount of seismic to all the seismic run 
from 1968 through 1997, there is no other year in any Federal OCS area 
that ran this much seismic.\5\
---------------------------------------------------------------------------
    \5\ Geological & Geophysical Data Acquisition, Outer Continental 
Shelf Through 1997, George Dellagiarino, Patricia Fulton, Keith Meekins 
and David Zinzer, U.S. DOI MMS, OCS Statistical Report MMS 98-0027.

    The five companies collectively have requested over 435,000 
individual Level B harassments, and the proposed mitigation only 
compresses the time frame during which the airgun blasts occur. There 
is nothing ``small'' or ``negligible'' about that impact, given that 
the airgun sound travels thousands of miles. There is nowhere for the 
impacted mammals like whales, dolphins and sea turtles to escape the 
noise, and we know the noise negatively affects mammals' ability to 
communicate, navigate, feed and mate. For small populations of mammals, 
such as the fewer than 500 North Atlantic Right Whales, this amount of 
---------------------------------------------------------------------------
noise will certainly cause population-level adverse impact.

    It is important to note that one of the companies seeking a permit 
to conduct seismic airgun blasting, CGG, is a French-based company that 
is relying on selling the data from this permit to avoid bankruptcy. 
The U.S. Federal Government is literally putting the interest of French 
oil companies over its own coastal economies and residents.\6\
---------------------------------------------------------------------------
    \6\ https://www.reuters.com/article/france-cgg-idUSL8N1JB6H8.

    Numerous studies show the detrimental impact seismic airguns have 
on fisheries and marine mammals, thereby affecting the catch that 
anglers bring dockside and the revenues generated by associated 
businesses. A 2014 study conducted off North Carolina's coast by the 
University of North Carolina Chapel Hill, Duke University and NOAA, 
found that during seismic surveying the abundance of reef-fish declined 
by 78 percent. Just last month, a new study published in Nature Ecology 
and Evolution found that noise from seismic airguns can also kill 
zooplankton from a distance of almost three-quarters of a mile away, 
further than previously thought.\7\ Zooplankton is the foundation of 
our marine food web. The resultant effects of this impact also damage 
commercial fishing, restaurants and the recreational fishing businesses 
in our coastal communities. This is why every major commercial fishing 
association has opposed seismic surveys and offshore drilling.
---------------------------------------------------------------------------
    \7\ https://www.nature.com/articles/s41559-017-0195.

    Some in government are saying, ``We should know what's out there. 
Let's at least run the seismic.'' But we are now acutely aware of the 
damage airgun blasts wreak on our marine life--from our largest marine 
mammals down to the tiniest zooplankton. And it is very important to 
note that seismic surveys alone do NOT definitively tell us what is out 
there. Five applications for permits are currently under review to run 
2D seismic in the Atlantic. Historically, 2D seismic alone is only 
successful in finding oil and gas approximately 20-25 percent of the 
time. After the requested 2D surveys, seismic companies will be back 
here asking for permits to run 3D seismic, a second blast of non-stop 
airgun noise in our ocean. And 3D seismic only increases the odds of 
finding oil and gas to 40-50 percent of the time, in true ``wildcat'' 
exploration. If seismic surveys were able to definitively find oil and 
gas, Royal Dutch Shell would not have spent $7 billion on a dry hole in 
the Arctic 2 years ago. In order to find oil and gas, you will not 
---------------------------------------------------------------------------
``know what's out there'' until you drill.

    Some proponents of opening drilling in the Atlantic make the 
argument that seismic airgun surveys for oil and gas deposits would 
allow local communities to learn more about what resources might be 
available. The reality is that, by law, the seismic surveys are 
proprietary for 25 years and only available to BOEM and to the oil and 
gas companies which purchase them. The public, local government 
officials and even Members of Congress would not have access to the 
survey data. This inability to access information leaves coastal 
communities without the opportunity to perform substantive cost-benefit 
analyses for extracting oil and gas reserves off their coasts. Local 
stakeholders would be left taking on significant risk without being 
involved in future development decisions.

    The dangers of offshore drilling, its associated onshore 
infrastructure and the transportation of crude oil, liquefied natural 
gas (LNG) and refined products are well known. The BP Deepwater Horizon 
catastrophe should inform our decisions about the Atlantic. DWH was an 
exploratory well in the Gulf of Mexico, located just 41 miles off the 
coast. That blowout killed 11 men, pumped 210 million gallons of oil 
into the waters off Louisiana, Mississippi, Alabama and Florida, and 
contaminated over 1,100 miles of coastal marshes and beaches [Fig. 7]. 
It took months to regain well control. The impact of that disaster on 
fisheries could total $8.7 billion by 2020, with the loss of 22,000 
jobs and 10 million user-days of beach, fishing and boating activity. 
Leisure-visitor spending in Louisiana alone in 2010 dropped by $247 
million.\8\
---------------------------------------------------------------------------
    \8\ http: / / usa.oceana.org / sites / default / files / 
deepwater_horizon_anniversary_report_updated_ 4-28.pdf.

    While that blowout was extraordinary, at least monthly we hear news 
of a spill from offshore drilling, transporting, storing or refining 
oil and natural gas. According to the Bureau of Ocean Energy 
Management, there were 232 oil spills in the Gulf of Mexico between 
1964 and 2012 resulting in a total of 223,332,900 gallons of oil dumped 
into the Gulf.\9\ In 2016 alone, 497 accidents (damages, injuries and 
spills) involving offshore oil rigs were reported.\10\ \11\
---------------------------------------------------------------------------
    \9\ https: / / www.bsee.gov /sites /bsee.gov /files /reports /
incident-and-investigations /spills-greater-than-50-barrels1964-2012-
as-of-august-3-2012.pdf.
    \10\ https://www.doi.gov/sites/doi.gov/files/migrated/budget/
appropriations/2016/upload/FY2016_ NRDA_Greenbook.pdf.
    \11\ https://www.fastcompany.com/40406093/how-satellite-data-
caught-gulf-oil-companies-hiding-enormous-oil-spills.

    We know from industry reports that oil companies are particularly 
interested in drilling in deep (>1,000 ft.) and ultra-deep (>5,000 ft) 
water depths, along the escarpment of the outer continental shelf \12\ 
[Fig. 8]. Deep water exploration is the most dangerous type of 
drilling. Not only does it require more sophisticated and oftentimes 
new and untested technology, it is often located farther away from the 
coast, hence farther away from emergency support services in the case 
of a blowout. Note that while the Deepwater Horizon was located only 41 
miles from shore, it was drilled in a water depth of 5,000 ft, which 
made it much more difficult to cap, ultimately allowing the well to 
blow out for 87 days while a relief well was drilled. The Atlantic 
seismic permit applications request survey lines run in over 16,000 ft 
of water. The deepest water depth a well has been drilled to date is 
11,156 ft.\13\ This raises another concern that oil companies may want 
to explore for the first time at record water depths.
---------------------------------------------------------------------------
    \12\ The Economic Benefits of Increasing U.S. Access to Offshore 
Oil and Natural Gas Resources in the Atlantic, authored by Quest 
Offshore Resources, December 2013.
    \13\ http://gcaptain.com/maersk-venturer-begins-drilling-worlds-
deepest-well/.

    Every U.S. coast where offshore oil and gas is produced and 
transported has suffered multiple massive spills and billions of 
dollars in damages--most notably oil spills off the Santa Barbara 
coast, the Exxon Valdez, near-daily spills in Galveston Bay, and spills 
and ongoing leaks caused by hurricane damage to hundreds of offshore 
platforms and thousands of miles of pipelines in the Gulf of Mexico 
---------------------------------------------------------------------------
[Fig. 9]. The Atlantic coast will be no different.

    Those of us who live near or visit the Atlantic wonder, ``Why would 
anyone want to put at risk this ocean, our jobs, our property, our 
favorite vacation spots and our way of life?'' Opening the Atlantic to 
seismic testing and drilling jeopardizes our coastal businesses, 
fishing communities, tourism and our national defense. It opens the 
door to even greater risks from offshore oil and gas production down 
the road. Do we need to drill in the Atlantic to be ``energy 
independent,'' or as Interior Secretary Zinke likes to say, ``energy 
dominant?'' The answer is ``no.'' Because of the ``shale revolution,'' 
the United States is already the world's leader in oil and gas 
production. The United States has been first in the world in natural 
gas production since 2009, when American output surpassed Russia. U.S. 
production of petroleum hydrocarbons exceeded that of Saudi Arabia in 
2013 \14\ [Fig. 10].
---------------------------------------------------------------------------
    \14\ https://www.oilandgas360.com/despite-oil-downturn-u-s-ranks-
no-1/.

---------------------------------------------------------------------------
    So why is there is a desire to drill in the Atlantic?

    In my work with CEOs across many industries, I have seen how the 
constant need to increase stock price drives a lot of bad decisions. 
Wall Street's need to see increasing growth and ever higher returns 
pushes companies to only think of consistently delivering the bottom 
line. In an extraction industry like oil and gas, where the resource is 
finite, non-renewable and depleting, you have to continuously find new 
oil and gas reserves to `feed the beast' and seek new markets around 
the world to export those newly developed quantities of oil and gas.

    Oil companies want to drill in the Atlantic to be able to export 
even more U.S. oil and gas overseas. Since December 2015, when Congress 
allowed oil companies to export our crude oil for the first time since 
the Arab oil embargoes of the 1970s, we have been steadily increasing 
our crude exports and are now sending more than a million barrels a day 
to countries like China \15\ [Figs. 11 and 12]. We are also now 
exporting over 187 billion cubic feet of liquefied natural gas (LNG) a 
year \16\ \17\ \18\ [Fig. 13]. In addition, Congress and the 
Administration have proposed selling off half of our Strategic 
Petroleum Reserve because, according to OMB Director Mulvaney, ``We 
think it's the responsible thing to do.'' Mr. Mulvaney told the press, 
``I don't need to take this much of your money to bury it in the ground 
out in West Texas someplace for domestic security and national security 
reasons when we have domestic supplies like we do.'' \19\
---------------------------------------------------------------------------
    \15\ https://www.eia.gov/dnav/pet/hist/
LeafHandler.ashx?n=PET&s=MCREXUS1&f=M.
    \16\ https://www.eia.gov/dnav/pet/pet_move_expc_dc_NUS-
Z00_mbbl_m.htm.
    \17\ https://www.oilandgas360.com/despite-oil-downturn-u-s-ranks-
no-1/.
    \18\ https://www.eia.gov/todayinenergy/detail.php?id=31532.
    \19\ http://thehill.com/policy/energy-environment/334811-budgets-
oil-provisions-divide-congress-white-
house?utm_source=&utm_medium=email&utm_campaign=8890.

    If the Administration believes that our energy supply is secure 
enough to sell off 50 percent of our strategic reserve, then why would 
it risk the $95 billion in annual GDP from the Atlantic region and 
instead take on the significant economic, health and environmental 
---------------------------------------------------------------------------
risks associated with exploration and development of the Atlantic?

    While oil companies' stock prices may benefit from these export 
sales, U.S. consumers lose. When demand (domestic plus export) exceeds 
supply, prices go up. According to the Energy Information Agency 
(EIA)'s latest Short-Term Energy Outlook (STEO), ``New natural gas 
export capabilities and growing domestic natural gas consumption 
contribute to the natural gas spot price rising from an average of 
$3.16/MMBtu in 2017 to $3.41/MMBtu in 2018.'' \20\
---------------------------------------------------------------------------
    \20\ https://www.eia.gov/outlooks/steo/report/natgas.cfm.

    The Atlantic coast developed differently than the Gulf coast. 
Offshore oil and gas has been part of the Gulf's economy since the 
1930s. The offshore waters and marshlands of south Louisiana were 
carved by canals dug through them to position rigs and gather 
production. ``Going to the beach'' means something very different in 
south Louisiana than it does along the mid and south Atlantic. To now 
bring to the Atlantic region the onshore infrastructure, pipelines, 
vessel traffic and pollution that accompanies offshore drilling 
guarantees destruction of the beautiful beaches, healthy marshes and 
---------------------------------------------------------------------------
rivers--as well as the economy--of our coast.

    Our health and quality of life are also at risk. Onshore 
infrastructure, including oil and gas storage, refineries and gas 
liquefaction plants, and the diesel and chemicals stored there for use 
in drilling, are a necessary part of the drilling and production 
support bases. Bases like Port Fourchon, Louisiana are pollution 
threats to water and air quality, especially when hurricanes strike 
[Fig. 14]. This type of infrastructure and the petrochemical industry 
that frequently locates nearby is not only incompatible with our 
tourism and recreation-based economies; it is also inconsistent with 
the healthful environment people seek when they move here.

    We must also consider the impact of the oil and gas industry on our 
children. The Annie E. Casey Foundation has published the ``Kids Count 
Data Book'' for nearly three decades which tracks the well-being of the 
nation's children, state by state, using a comprehensive index, 
including indicators across four domains: Economic Well-Being, 
Education, Health, and Family & Community. The overall ranking of the 
four Gulf states were some of the lowest in the Nation (TX 41st, AL 
44th, LA 48th, and MS 50th). The overall ranking of the mid and south 
Atlantic states were higher (VA 10th, MD 16th, NC 33rd, SC 39th, FL 
40th, GA 42nd) \21\ [Fig. 15]. While this doesn't prove that states 
that don't have oil and gas industry revenues have better child well-
being, it certainly raises the question: why do states that are heavily 
dependent on oil and gas revenues rank so low?
---------------------------------------------------------------------------
    \21\ http://www.aecf.org/resources/2017-kids-count-data-book/
?gclid=CPzat7Wm-tQCFc1LDQodua QGcw.

    Some people who live here, including many of our government 
officials, were initially under the impression that because you can't 
see the rigs from the beaches (assuming the 50 mile buffer will be 
included in the new proposed plan), that there will be no harm to our 
coast. They think that somehow the rigs just come, drill, and then go 
away, without considering the deleterious effect of oil and gas 
---------------------------------------------------------------------------
production on the local economy and environment.

    We have found it helpful to share with them the history of Southern 
California's experience with the oil and gas industry:

    In California, the first Federal OCS lease sale was held in 1963. 
Six years later the first Santa Barbara spill occurred which caused 
such an uproar against drilling that the U.S. Secretary of the Interior 
removed Federal tracts near Santa Barbara from oil and gas leasing. 
However, the Federal Government quickly resumed offshore leasing and 
continued to hold sales through 1982, when the U.S. Congress directed 
that no Federal funds be used to lease additional Federal tracts off 
the coast of California. No Federal lease sales have been proposed for 
offshore California since then--until President Trump's Executive Order 
was signed this April which will require California to once again be 
considered.

    During this same time, the California State Lands Commission, which 
owns and controls the mineral resources within 3 nautical miles of the 
coast, had not permitted leasing of state offshore tracts since the 
Santa Barbara oil spill in 1969.

    In 1996, Chevron removed four of its oil and gas platforms off the 
Santa Barbara and Ventura coast which led to Federal plans for the 
decommissioning of the remaining offshore California structures. At 
that time, there were a total of 27 oil and gas platforms and 
approximately 200 miles of associated pipelines located off the coast 
of Southern California. All of this oil infrastructure was installed as 
a result of the initial lease sales, but remained even after the 1982 
ban on further lease sales.

    A second large Santa Barbara oil spill happened just before 
Memorial Day weekend 2015, when an underground pipeline that transports 
oil from an offshore platform to refineries ruptured, spilling 142,000 
gallons of crude oil into a coastal state park. The spill, caused by 
corrosion in a pipeline that did not have automatic shutoff valves, 
closed nearby beaches for 2 months, killed hundreds of animals, 
including birds, sea lions, and dolphins, and cost $96 million to clean 
up.

    By law, as long as Federal OCS wells are producing commercial 
quantities of petroleum, oil companies may continue to produce from 
those leases, drill more wells, or sell the property to another 
operator. In the California OCS waters, oil companies have produced 
from some of these OCS leases for over 50 years--more than 40 years 
after the Santa Barbara spill.\22\<SUP>,</SUP>\23\
---------------------------------------------------------------------------
    \22\ http: / / www.ogj.com / articles / 2017 / 06 /boem-to-
identify-california-offshore-platform-decommissioning-issues.html.
    \23\ http://www.mercurynews.com/2017/04/17/first-california-
offshore-oil-platform-to-be-removed-in-20-years/.

    Despite the long-term bans on new leasing in California state 
waters (since 1969) and Federal waters (since 1982), drilling and 
production have continued on these leases. The point of reviewing this 
history is to educate Atlantic coast residents and elected officials 
that when the oil business comes to town, it is very slow to leave, if 
---------------------------------------------------------------------------
ever.

    Some of the same people who thought the rigs would just come, 
drill, and then go away, have also heard that drilling technology has 
improved, and it's safer since the Deepwater Horizon disaster. Although 
the Department of the Interior adopted many of the safety 
recommendations from the National Commission on the BP Deepwater 
Horizon Oil Spill, President Trump's April 28 Executive Order on 
offshore energy threatens to abolish these safety improvements. Bob 
Graham, a former Florida Governor and U.S. Senator, and William K. 
Reilly, a former administrator of the Environmental Protection Agency, 
were co-chairmen of the commission. They, along with the other 
commission members are unanimous in their view that the actions 
proposed in the President's Executive Order are unwise.\24\
---------------------------------------------------------------------------
    \24\ https: / / www.nytimes.com / 2017 / 07 / 05 / opinion / trump-
oil-drilling-energy-gulf.html?smid= fb-share.

    ``I don't have any doubt it's safer than before, but you can't 
eliminate risks in operations like this,'' says Michael Bromwich, who 
led the Interior Department's newly created agency to regulate the 
industry after the Gulf spill. ``Anytime you go deeper, the 
technological risks increase.'' Deepwater drilling still relies on the 
same underlying technology and a skilled workforce, says Paul Bommer, 
who holds the Chevron lectureship in petroleum engineering at the 
University of Texas at Austin. ``It's still a people business,'' Bommer 
says.\25\
---------------------------------------------------------------------------
    \25\ http://news.nationalgeographic.com/2015/04/150420-bp-gulf-oil-
spill-safety-five-years-later/.

---------------------------------------------------------------------------
    And people make mistakes.

    As an engineer, I was taught to identify the problem and solve it. 
While earning an MBA, my problem-solving and decision-making horizon 
expanded. I learned that effective leaders consider both the short-term 
and long-term aspects of a problem. While Wall St. demands short-term 
results, responsible leadership requires making decisions that are 
consistent with our values and goals as a society.

    Whether or not to drill in the Atlantic is a leadership challenge 
which requires considering all the issues, then thinking about our 
values and the impact on our children and their futures. If the 
Atlantic is opened to offshore drilling and seismic testing, will 
Winyah Bay near my home still host those beautiful redfish? Will North 
Inlet's salt marshes still be a pristine nursery for crabs, shrimp and 
oysters? Will the snowy egrets and blue herons still vie for the best 
places to roost while keeping an eye on the alligators at Huntington 
Beach State Park? Will my son's children and their children still 
remember the beautiful beach where Grandma and Grandpa took them to 
look for sea turtle tracks in the morning and watch for dolphins on the 
horizon at day's end?

    I don't expect that I--or most of you for that matter--will still 
be here in 40 years when we will know the consequences of these 
decisions about seismic blasting and drilling in the Atlantic. I want 
to believe that the Atlantic Ocean and our coast will still be as 
magnificent as they are today and future generations will be inspired 
by our legacy, because this is a FOREVER decision.

    I look forward to answering any questions you may have today. Thank 
you.

                                 *****

The following document was submitted as a supplement to Ms. Howell's 
testimony. This document is part of the hearing record and is being 
retained in the Committee's official files:

    --APPENDIX, containing Figures 1-15.

                                 ______
                                 

    Dr. Gosar. I thank the gentlewoman.
    Ms. Howell. Interested in taking your questions later.
    Dr. Gosar. The Chair now recognizes Mr. Whatley for his 
testimony.

    STATEMENT OF MICHAEL WHATLEY, EXECUTIVE VICE PRESIDENT, 
      CONSUMER ENERGY ALLIANCE, CHARLOTTE, NORTH CAROLINA

    Mr. Whatley. Thank you, Mr. Chairman, Ranking Member 
Lowenthal, and members of the Subcommittee. It is an honor to 
be here today on behalf of Consumer Energy Alliance (CEA) to 
testify on the important need for expanded oil and natural gas 
leasing on the Outer Continental Shelf.
    Consumer Energy Alliance is a national, non-profit, non-
partisan trade association with more than 280 affiliate members 
which represent truckers, manufacturers, farmers, and nearly 
every sector of the U.S. economy, along with 450,000 
individuals across the country who are dedicated to developing 
and implementing energy policies which will promote affordable 
and reliable energy.
    CEA strongly supports expanded offshore energy development 
as a critical component of a rational, balanced, all-of-the-
above energy policy, and we applaud the decision by the Trump 
administration to develop a new 2019-2024 offshore energy 
leasing program.
    With 94 percent of the Federal waters currently closed to 
leasing, the development of a new 5-year plan will provide an 
important opportunity for the Interior Department to reassess 
and revise existing restrictions and expand leasing in the 
Arctic, Gulf of Mexico, and the Atlantic.
    As a resident of North Carolina, the benefits of potential 
Atlantic development are important to me. According to a recent 
study conducted by Quest Offshore Resources, Atlantic energy 
development could create more than 55,000 jobs, add more than 
$4 billion annually to the state's economy, and generate nearly 
$4 billion in new state revenues in North Carolina alone.
    More broadly, Atlantic development could generate almost 
280,000 jobs, nearly $200 billion in increased economic 
activity, and $51 billion in new public revenues, regionally.
    Furthermore, Atlantic development could generate an 
additional 1.3 million barrels of oil equivalent per date. This 
is enough to replace nearly two-thirds of the crude oil and 
petroleum products that we import daily from the Persian Gulf.
    Expanded access in the Atlantic, Gulf of Mexico, Pacific, 
and Alaska could provide significant benefits for the entire 
Nation. Access to the 404 trillion cubic feet of natural gas 
and 90 billion barrels of oil projected to sit in the Outer 
Continental Shelf would create more than 840,000 jobs, $550 
billion in increased economic activity nationwide, and more 
than $395 billion in increased government revenues, as well as 
keep prices of gasoline, diesel, and jet fuel affordable, which 
is critical for every segment of the U.S. economy.
    In terms of American energy security, it is important to 
note the U.S. military. The single largest energy user in the 
world relies heavily on oil, bunker fuel, and jet fuel to 
protect U.S. interests around the world. In Fiscal Year 2014, 
the Department of Defense used over 87 million barrels of fuel 
at a cost of nearly $14 billion. With oil roughly $100 per 
barrel cheaper than it was in 2008, we are now saving $8.7 
billion per year in fuel, money that could be spent on body 
armor, new weapon systems, or other critical programs.
    Increased domestic production can also provide U.S. allies 
with energy supplies, in turn reducing their dependence on 
hostile regimes in opening global markets.
    It is very important that the offshore energy development 
is safe, and that it gets safer every day. Growing up, I spent 
a lot of time with my family on beaches at Nags Head, Kitty 
Hawk, and Topsail Island, North Carolina. Now I take my 
children to the beach every year for vacation. It is important 
to me, just like it is for all of the residents and vacationers 
who visit America's beaches every year, that the industry and 
the Federal Government work together to ensure that any 
exploration and development of offshore energy resources is 
done without harm to these national treasures.
    Both the Federal Government and the offshore energy 
industry have made great strides improving every aspect of 
offshore energy production. Among these changes are the 
creation of new, collaborative containment companies that stand 
ready to deploy state-of-the-art containment technologies at 
the first sign of any wellhead spill; the development of more 
than 600 industry standards and 100 Federal standards covering 
all aspects of energy production; and the creation of the 
Center for Offshore Safety, which works with independent third-
party auditors and government regulators to create an industry-
wide culture of ongoing safety improvement.
    More than 40,000 wells have been safely drilled in the Gulf 
of Mexico, and more than 700 are operating at depths of more 
than 5,000 feet today. This record, and the fact that 99.999 
percent of all oil produced, transported, and refined in the 
United States reaches its destination safely are important 
points for Congress and the Trump administration to consider 
when anti-development activists claim that the industry cannot 
operate safely, or that a major spill is inevitable.
    There is strong support across the country for opening up 
new areas in the Arctic, Gulf of Mexico, and the Atlantic. In 
addition to my full written testimony, I would ask to submit 
for the record several letters from stakeholders and state 
legislators in Virginia, North Carolina, South Carolina, 
Georgia, and Florida, expressing strong support for the 
Administration's decision to move forward with this new plan, 
and asking for expanded OCS leasing, which will put Americans 
to work, boost the economy, provide significant revenues to 
help fund the government, and reduce our alliance on overseas 
imports.
    Thank you again for the opportunity to testify today.
    [The prepared statement of Mr. Whatley follows:]
   Prepared Statement of Michael Whatley, Executive Vice President, 
                        Consumer Energy Alliance
    Chairman Gosar, Ranking Member Lowenthal, and members of the 
Subcommittee, it is an honor to be here today on behalf of Consumer 
Energy Alliance to testify on developments surrounding offshore oil and 
natural gas development in America's Federal waters.
    Consumer Energy Alliance (CEA) is a nationwide non-profit, non-
partisan trade association which represents families and businesses in 
advocating for balanced policies that support access to affordable, 
reliable energy. CEA's membership includes over 275 affiliate members 
that represent nearly every sector of the U.S. economy and more than 
450,000 individuals across the country dedicated to developing and 
implementing energy policies which will promote affordable and reliable 
energy.
                   the need for expanded ocs leasing
    The Federal Government forecasts that energy consumption will 
continue to rise in the coming decades, with petroleum and natural gas 
comprising more of the Nation's energy consumption portfolio in 2040 
than it did in 2016,\1\ making it vital for the Federal Government to 
promote opportunities to develop America's natural resources in order 
to secure long-term affordable, reliable energy.
---------------------------------------------------------------------------
    \1\ https://www.eia.gov/outlooks/aeo/pdf/0383(2017).pdf.
---------------------------------------------------------------------------
    CEA strongly supports expanded offshore energy development as a 
critical component of a rational, balanced all-of-the-above energy 
policy. Along with a robust pipeline network which can move offshore 
energy to refineries, natural gas processing facilities and--
ultimately--to energy consumers, offshore energy production is 
essential to meeting our national energy needs.
    In addition to providing tens of thousands of high-paying jobs and 
adding billions of dollars to the American economy, domestic offshore 
oil and natural gas production has helped keep gasoline, diesel and jet 
fuel prices affordable and greatly enhanced our national energy 
security. Over the past 10 years, CEA has worked with the Bush and 
Obama administrations, as well as dozens of governors, hundreds of 
state legislators and stakeholders and hundreds of thousands of 
individual energy consumers to support expanded leasing in the Gulf of 
Mexico, Alaska and Atlantic OCS regions.
    Consumer Energy Alliance applauds the decision by the Trump 
administration to develop a new offshore energy leasing program and 
urges the Department of the Interior to expand leasing in the Arctic, 
Gulf of Mexico and the Atlantic. With 94 percent of Federal waters 
currently closed to leasing, the development of a new program will 
provide an important opportunity to reassess and reverse existing 
restrictions in areas including the Arctic, Gulf of Mexico and the 
Atlantic. Expanding leasing into these areas will generate significant 
economic benefits for the entire United States and can be done safely.
                           atlantic benefits
    As a resident of North Carolina, the benefits of potential Atlantic 
development are important to me. According to a recent Quest Offshore 
Resources study, for North Carolina alone, Atlantic energy development 
could create more than 55,000 jobs, add more than $4 billion annually 
to the state's economy, and cumulatively generate over $26 billion in 
spending and nearly $4 billion in new state revenue.\2\
---------------------------------------------------------------------------
    \2\ http://www.noia.org/wp-content/uploads/2013/12/The-Economic-
Benefits-of-Increasing-US-Access-to-Offshore-Oil-and-Natura....pdf.
---------------------------------------------------------------------------
    This would provide a much needed boost at a time when North 
Carolina's middle class is struggling. A North Carolina State 
University economist reported just last week that North Carolina 
middle-class jobs fell 5 percent from 2001 to 2015, while the national 
average rose 6 percent, leading one professor at the University of 
North Carolina to note that ``We are effectively seeing indications of 
the disappearance of the middle class.'' \3\
---------------------------------------------------------------------------
    \3\ http://www.citizen-times.com/story/news/2017/07/06/economist-
middle-class-wage-crunch-worse-north-carolina/103462192/.
---------------------------------------------------------------------------
    Underscoring the need for an adequate supply of affordable energy, 
Inside Energy notes that while economists consider ``affordable'' 
energy to equate to 6 percent of income, households in North Carolina, 
South Carolina, and Georgia with incomes below 50 percent of the 
Federal poverty level spend about 30-40 percent of their income on 
energy, while such households in Virginia spend roughly 40-50 percent 
of their income on energy.\4\
---------------------------------------------------------------------------
    \4\ http://insideenergy.org/2016/05/08/high-utility-costs-force-
hard-decisions-for-the-poor/.
---------------------------------------------------------------------------
    More broadly, Atlantic development could generate almost 280,000 
jobs, nearly $200 billion in Gross Domestic Product, and over $194 
billion in capital investment and spending and $51 billion in new 
public revenue. For the Atlantic Coast region only, that includes more 
than 215,000 jobs and over $130 billion in Gross Domestic Product, $109 
billion in capital investment and spending, and $19 billion in new 
state revenue.
    Furthermore, the study found that Atlantic development could 
generate an additional 1.3 million barrels of oil equivalent per day. 
That is enough to replace nearly two-thirds of the 2.1 million barrels 
of crude oil and petroleum products that we import daily from the 
Persian Gulf.\5\
---------------------------------------------------------------------------
    \5\ https://www.eia.gov/dnav/pet/
pet_move_impcus_a2_nus_ep00_im0_mbblpd_m.htm.
---------------------------------------------------------------------------
    Public polling in Atlantic coastal states underscores the support 
that exists for offshore development in the region. A recent poll 
commissioned by Consumer Energy Alliance found continued majority 
support for expanded drilling in Virginia and North Carolina,\6\ while 
Harris Polls establish similar majority support for offshore 
development in South Carolina \7\ and Georgia.\8\
---------------------------------------------------------------------------
    \6\ https://consumerenergyalliance.org/2017/05/poll-finds-virginia-
west-virginia-north-carolina-voters-support-atlantic-coast-pipeline-
energy-development-infrastructure/.
    \7\ http://www.api.org/?/media/Files/News/2016/16-February/What-
America-Is-Thinking-South-Carolina-Feb-2016-Questionnaire.pdf.
    \8\ http://www.api.org/?/media/files/news/2015/15-january/what-
america-is-thinking-offshore-drilling-ga-january-2015.pdf.
---------------------------------------------------------------------------
                           national benefits
    Nationally, expanded access to the Atlantic, Gulf of Mexico, 
Pacific, and Alaska will provide significant benefits including the 
creation of more than 893,000 jobs, $450 billion in new private sector 
spending, $550 billion in increased economic activity nationwide and 
more than $395 billion in increased government revenues.\9\
---------------------------------------------------------------------------
    \9\ http://www.noia.org/wp-content/uploads/2013/12/The-Economic-
Benefits-of-Increasing-US-Access-to-Offshore-Oil-and-Natura....pdf; 
http://www.noia.org/wp-content/uploads/2014/11/The-Economic-Benefits-
of-Increasing-US-Access-to-Offshore-Oil-Natural-Gas-Resources-in-the-
Eastern-GoM.pdf; http://www.noia.org/wp-content/uploads/2014/11/The-
Economic-Benefits-of-Increasing-U.S.-Access-to-Offshore-Oil-and-
Natural-Gas-Resources-in-the-Pacific.pdf; and http://
arcticenergycenter.com/wp-content/uploads/2015/08/National-Effects-
Report-FINAL.pdf.
---------------------------------------------------------------------------
    Access to the 404 trillion cubic feet of natural gas and 90 billion 
barrels of oil projected to sit in the Outer Continental Shelf will 
ensure a stable, steady supply of energy for American energy consumers 
with reduced reliance on imports from hostile overseas regimes. It will 
also keep prices of gasoline, diesel and jet fuel affordable--which is 
critical to every segment of the U.S. economy.
    In terms of American energy security, it is important to note that 
the U.S. military--the single largest energy user in the world--heavily 
relies on oil, bunker fuel and jet fuel to protect our interests around 
the world. In Fiscal Year 2014, the Department of Defense used over 87 
million barrels of fuel, at a cost of nearly $14 billion.\10\ With oil 
hovering around $100 per barrel less than 2008 prices, we are saving 
around $8.7 billion per year in fuel costs--which can now be spent on 
body armor, new weapons systems or other critical programs. Increased 
domestic production can also provide U.S. allies with energy supplies, 
in turn reducing their dependence on hostile regimes.
---------------------------------------------------------------------------
    \10\ http://www.acq.osd.mil/eie/OE/OE_index.html.
---------------------------------------------------------------------------
                                 safety
    It is very important that offshore energy development is safe--and 
is getting safer every day. Growing up, I spent a lot of time with my 
family on the beaches of Nags Head, Kitty Hawk, and Topsail Island, NC. 
Now, I take my children on vacations to the beach every year. It is 
important to me--as it is to all of the residents and vacationers who 
visit the Atlantic beaches every year--that the industry and the 
Federal Government will work together to ensure that any exploration 
and development of offshore energy resources is done without harming 
these national treasures.
    Both the Federal Government and the offshore energy industry have 
made great strides in improving all aspects of offshore energy 
production. Among these changes are the creation of new collaborative 
containment companies which stand ready to deploy state-of-the-art 
containment technology at the first sign of any wellhead spill, the 
development of more than 600 industry standards covering all aspects of 
production and the creation of the Center for Offshore Safety, which 
works with independent third-party auditors and government regulators 
to create an industry-wide culture of continuous safety improvement.
    More than 40,000 wells have been safely drilled in the Gulf of 
Mexico and more than 700 are operating at depths of more than 5,000 
feet. This record and the fact that 99.999 percent of all oil produced, 
transported and refined in the United States reaches its destination 
safely are important points for Congress and the Trump administration 
to consider when anti-development activists claim that the industry 
cannot operate safely or that a major spill is inevitable.
    Moreover, these accomplishments have occurred while the country has 
been making environmental strides, with net U.S. greenhouse gas 
emissions in 2015 being 11.5 percent lower than they were in 2005,\11\ 
and as President Obama noted last year, at a time when the country has 
``reduced the pace at which we are emitting carbon dioxide into the 
atmosphere faster than any other advanced nation.'' \12\ This 
underscores the fact that American energy development and a healthy 
environment go hand-in-hand.
---------------------------------------------------------------------------
    \11\ https://www.epa.gov/sites/production/files/2017-02/documents/
2017_complete_report.pdf.
    \12\ https://obamawhitehouse.archives.gov/the-press-office/2016/10/
03/remarks-president-south-south-lawn-panel-discussion-climate-change.
---------------------------------------------------------------------------
                               conclusion
    The development of a new leasing program for 2019-2024 presents an 
opportunity to expand OCS leasing in the Arctic, the Gulf of Mexico and 
the Atlantic. To be sure, this is a long process. Assuming that these 
areas are ultimately included in the new program, additional 
environmental and public reviews, Federal approvals, and business 
determinations will have to occur before any actual on-the-water 
activity takes place. Given the long lead-times associated with 
development in new OCS regions, actual production would be unlikely to 
take place before the mid-2030s.
    This important and comprehensive process provides ample opportunity 
to ensure that all issues and concerns are fully coordinated and 
addressed. At the same time, the fact that the process takes such a 
long time underscores why it is imperative for the Department of the 
Interior to take steps today to make sure that ample opportunities are 
available to meet our energy needs well into the future.

                                 *****

The following documents were submitted for the record as supplements to 
Mr. Whatley's testimony.
                              ATTACHMENTS

                  Associated Industries of Florida,
                                       Tallahassee, Florida

                                                      July 10, 2017

Hon. Paul Gosar, Chairman,
Hon. Alan Lowenthal, Ranking Member,
House Subcommittee on Energy and Mineral Resources,
Washington, DC 20515.

    Dear Chairman Gosar and Ranking Member Lowenthal:

    On behalf of Associated Industries of Florida (AIF), a state trade 
association representing a broad spectrum of industry, I write today 
regarding your July 12, 2017 oversight hearing on ``Evaluating Federal 
Offshore Oil and Gas Development on the Outer Continental Shelf,'' I 
write to convey my strong support for including the Atlantic in the 
2019-2024 National Outer Continental Shelf Oil and Gas Leasing Program.
    While energy development may not be occurring directly off the 
Florida Atlantic coast, businesses throughout Florida will benefit in 
servicing the operations while creating jobs for Florida's residents. 
In addition to helping to secure access to affordable, reliable energy 
for the state's residents and businesses, exploration and production 
leads to good-paying jobs and generate substantial economic activity.
    In addition, to ensure that Florida is adequately positioned to 
bear costs related to development in adjacent waters and has access to 
the same benefits as other states with offshore oil and gas activity, I 
fully support the expansion of revenue-sharing to states beyond the 
Gulf of Mexico, including Florida.
    I appreciate your interest in this important subject and urge your 
support for expanding the nation's leasing program to include the 
Atlantic and expanding revenue-sharing to all states including Florida 
with adjacent offshore oil and gas activity.

            Sincerely,

                                         Brewster B. Bevis,
                                           Senior Vice President,  
                                         State and Federal Affairs.

                                 ______
                                 

                  Florida House of Representatives,
                                       Tallahassee, Florida

Hon. Paul Gosar, Chairman,
Hon. Alan Lowenthal, Ranking Member,
House Subcommittee on Energy and Mineral Resources,
Washington, DC 20515.

    Dear Chairman Gosar and Ranking Member Lowenthal:

    In connection with your July 12, 2017 oversight hearing on 
``Evaluating Federal Offshore Oil and Gas Development on the Outer 
Continental Shelf,'' I write to convey my strong support for including 
the Atlantic in the 2019-2024 National Outer Continental Shelf Oil and 
Gas Leasing Program.
    The State of Florida is positioned to realize significant benefits 
from future Atlantic oil and natural gas development. While energy 
development may not be occurring directly off the Florida Atlantic 
coast, Florida's businesses up and down the coast will benefit in 
servicing the operations while creating jobs for Florida's residents. 
In addition to helping to secure access to affordable, reliable energy 
for the state's residents and businesses, exploration and production 
leads to good-paying jobs and generate substantial economic activity.
    Furthermore, I support the prompt approval of pending applications 
to conduct Atlantic oil and gas seismic exploration and issue the 
permits and necessary approvals. Obtaining an updated oil and gas 
resource estimate is critical to ensuring informed decisions related to 
possible future Atlantic oil and gas development. With existing 
estimates based on decades-old technology, it is vital that new 
exploration using modern techniques be applied to ensure economically 
and environmentally-efficient activity should development ultimately 
take place.
    Finally, to ensure that Florida is adequately positioned to bear 
costs related to development in adjacent waters and has access to the 
same benefits as other states with offshore oil and gas activity, I 
fully support the expansion of revenue-sharing to states beyond the 
Gulf of Mexico, including Florida.
    I appreciate your interest in this important subject and urge your 
support for expanding the nation's leasing program to include the 
Atlantic and expanding revenue-sharing to all states with adjacent 
offshore oil and gas activity.

            Sincerely,

                                             Jason Fischer,
                                       Representative, District 16.

                                 ______
                                 

                  Georgia House of Representatives,
                                           Atlanta, Georgia

                                                      July 11, 2017

Hon. Paul Gosar, Chairman,
Hon. Alan Lowenthal, Ranking Member,
House Subcommittee on Energy and Mineral Resources,
Washington, DC 20515.

    Dear Chairman Gosar and Ranking Member Lowenthal:

    In connection with your July 12, 2017 oversight hearing on 
``Evaluating Federal Offshore Oil and Gas Development on the Outer 
Continental Shelf,'' I write to convey my strong support for including 
the Atlantic in the 2019-2024 National Outer Continental Shelf Oil and 
Gas Leasing Program.
    The State of Georgia is positioned to reap significant benefits 
from future Atlantic oil and natural gas development even though we 
have a small coastline. Future oil and gas exploration activities could 
generate 5,000 jobs and over $2.1 billion in cumulative spending and 
over $700 million in new revenue for our state--based on estimates by 
Quest Analytics. This would create significant economic activity at our 
ports and help improve the quality of life with new opportunities 
across the state.
    In addition, I also support the swift approval of pending 
applications to conduct Atlantic oil and gas seismic exploration and 
issue the permits and necessary approvals. It's critical that we have 
updated oil and gas resource information using the latest technology to 
ensure informed decision-making is being made about resource estimates 
in our federal waters in the Atlantic. With existing estimates based on 
decades-old technology, it is vital that new exploration using modern 
techniques be applied to ensure economically and environmentally-
efficient activity should development ultimately take place.
    Finally, to ensure that Georgia is adequately positioned to bear 
costs related to development in adjacent waters and has access to the 
same benefits that other states enjoy under federal with offshore oil 
and gas activity, I fully support the expansion of revenue-sharing to 
states beyond the Gulf of Mexico, including my home state.
    I appreciate your interest in this important subject and urge your 
support for expanding the nation's leasing program to include the 
Atlantic and expanding revenue-sharing to all states with adjacent 
offshore oil and gas activity.

            Sincerely,

                           Charles E. ``Chuck'' Martin, Jr.
                                       Representative, District 49.

                                 ______
                                 

                       The James Madison Institute,
                                       Tallahassee, Florida

                                                      July 11, 2017

Hon. Paul Gosar, Chairman,
Hon. Alan Lowenthal, Ranking Member,
House Subcommittee on Energy and Mineral Resources,
Washington, DC 20515.

    Dear Chairman Gosar and Ranking Member Lowenthal:

    As the President and CEO of The James Madison Institute, Florida's 
oldest and largest policy think tank, our commitment to free market 
principles extends to all areas of economic prosperity. It is within 
this context that I write to you today.
    In connection with your July 12, 2017 hearing on ``Evaluating 
Federal Offshore Oil and Gas Development on the Outer Continental 
Shelf,'' I wish to convey JMI's support for North American energy by 
including the Atlantic in the 2019-2024 National Outer Continental 
Shelf Oil and Gas Leasing Program.
    Florida's economy will benefit from working to support the energy 
sector while ensuring that we maintain low energy costs which help our 
state especially in the tourism and transportation industries.
    Furthermore, JMI supports the prompt approval of pending 
applications to conduct Atlantic oil and gas seismic exploration and 
issue the permits and necessary approvals. Obtaining an updated oil and 
gas resource estimate is critical to ensuring informed decisions 
related to possible future Atlantic oil and gas development. With 
existing estimates based on decades-old technology, it is vital that 
new exploration using modern techniques be applied to ensure 
economically and environmentally-efficient activity should development 
ultimately take place.

            Sincerely,

                                  J. Robert McClure, Ph.D.,
                                                 President and CEO.

                                 ______
                                 

       North Carolina Farm Bureau Federation, Inc.,
                                    Raleigh, North Carolina

                                                      July 10, 2017

Hon. Paul Gosar, Chairman,
Hon. Alan Lowenthal, Ranking Member,
House Subcommittee on Energy and Mineral Resources,
Washington, DC 20515.

    Dear Chairman Gosar and Ranking Member Lowenthal:

    In connection with your July 12, 2017 oversight hearing on 
``Evaluating Federal Offshore Oil and Gas Development on the Outer 
Continental Shelf,'' North Carolina Farm Bureau coveys its strong 
support for including the Mid- and South Atlantic in the 2019-2024 
National Outer Continental Shelf Oil and Gas Leasing Program.
    Agriculture is North Carolina's number one industry generating more 
than $84 billion annual economic activity and accounting for almost one 
fifth of our State's jobs. Our agriculture economy is heavily dependent 
on energy. Farmers depend on oil and natural gas for growing crops, 
hauling them to market, food processing, crop drying and curing, crop 
protection chemicals and fertilizer production.
    Based on federal estimates, the Atlantic is home to significant 
resources that could provide a stable and secure source for 
domestically produced energy. In addition, one study found that 
Atlantic development could bring more than 55,000 jobs to North 
Carolina, grow the state's economy by $31 billion, and generate $4 
billion in new state revenue. Many of these benefits will promote 
needed economic development in our rural, eastern counties.
    Importantly, Atlantic resource estimates are based on decades-old 
seismic data and are likely to increase following new seismic surveys 
using modern technology. Incentives to update the data by conducting 
new studies will be limited to non-existent without the likelihood or 
at least the possibility of lease sales. Including the Atlantic in the 
Draft Proposed Program is critical to maintaining industry interest in 
conducting new studies that ultimately enable more economically and 
environmentally effective exploration.
    North Carolina Farm Bureau strongly supports inclusion of the 
Atlantic and urges your support as well.

            Sincerely,

                                           Larry B. Wooten,
                                                         President.

                                 ______
                                 

                 North Carolina General Assembly,  
                          House of Representatives,
                                    Raleigh, North Carolina

                                                      July 10, 2017

Hon. Paul Gosar, Chairman,
Hon. Alan Lowenthal, Ranking Member,
House Subcommittee on Energy and Mineral Resources,
Washington, DC 20515.

    Dear Chairman Gosar and Ranking Member Lowenthal:

    In connection with your July 12, 2017 oversight hearing on 
``Evaluating Federal Offshore Oil and Gas Development on the Outer 
Continental Shelf,'' I write to convey my strong support for including 
the Atlantic in the 2019-2024 National Outer Continental Shelf Oil and 
Gas Leasing Program.
    The State of North Carolina is positioned to realize significant 
benefits from future Atlantic oil and natural gas development. In 
addition to helping secure access to affordable and reliable energy for 
the state's residents and businesses, exploration and production of oil 
and natural gas offshore of our state will lead to increased employment 
opportunities and substantial economic activity. In turn, such economic 
activity would also provide the state and local governments with much-
needed revenue to fund public infrastructure projects that can 
contribute to further economic prosperity for our citizens.
    Furthermore, I support the prompt approval of pending applications 
to conduct Atlantic oil and gas seismic exploration. Obtaining an 
updated oil and gas resource estimate is critical to ensuring informed 
decisions related to possible future Atlantic oil and gas development. 
With existing estimates based on decades-old technology, it is vital 
that new exploration using modern techniques be applied to ensure 
economically and environmentally prudent decisions are made.
    Finally, to ensure that North Carolina is adequately positioned to 
bear costs related to development in adjacent waters, and has access to 
the same benefits as other states with offshore oil and gas activity, I 
fully support the expansion of revenue-sharing to states beyond the 
Gulf of Mexico, including North Carolina.
    I appreciate your interest in this important subject and urge your 
support for expanding the nation's leasing program to include the 
Atlantic and expanding revenue-sharing to all states with adjacent 
offshore oil and gas activity.

            Sincerely,

                               Representative Chris Millis,
                                                     16th District.

                                 ______
                                 

                        Palmetto Promise Institute,
                                             South Carolina

                                                      July 11, 2017

Hon. Paul Gosar, Chairman,
Hon. Alan Lowenthal, Ranking Member,
House Subcommittee on Energy and Mineral Resources,
Washington, DC 20515.

    Dear Chairman Gosar and Representative Lowenthal:

    In connection with your July 12, 2017 oversight hearing on 
``Evaluating Federal Offshore Oil and Gas Development on the Outer 
Continental Shelf,'' I write to convey my strong support for including 
the Atlantic in the 2019-2024 National Outer Continental Shelf Oil and 
Gas Leasing Program.
    The State of South Carolina is positioned to realize significant 
benefits from future Atlantic oil and natural gas development. In 
addition to securing a new source of affordable, reliable energy for 
the state's residents and businesses, offshore exploration could bring 
billions of dollars of fresh investment, create tens of thousands of 
jobs, generate up to several billion dollars in new tax revenue and 
lease payments, and bring all manner of new industries to the Palmetto 
State.
    Furthermore, I support the prompt approval of pending applications 
to conduct environmentally safe seismic exploration in the Atlantic and 
issue the permits and necessary approvals. Obtaining an updated oil and 
gas resource estimate is critical to ensuring informed decisions 
related to possible future Atlantic oil and gas development. With 
existing estimates based on decades-old technology, it is vital that 
new exploration using modern techniques be applied to ensure 
economically and environmentally-efficient activity should development 
ultimately take place.
    Finally, to ensure that South Carolina is treated fairly and has 
access to the same benefits as other states with offshore oil and gas 
activity, I fully support the expansion of revenue-sharing to states 
beyond the Gulf of Mexico, including South Carolina.
    With industry advances in technology and safety, I believe our 
state's cherished natural beauty and robust tourism industry can exist 
in harmony with offshore energy exploration. Guided by informed 
decision-making made possible by new seismic maps and expanded revenue-
sharing for Atlantic states, we could be facing a generational 
opportunity for the people of South Carolina.
    I appreciate your interest in this important subject and urge your 
support for expanding the nation's leasing program to include the 
Atlantic and expanding revenue-sharing to all states with adjacent 
offshore oil and gas activity. Thank you for your consideration.

            Sincerely,

                                           Ellen E. Weaver,
                                                         President.

                                 ______
                                 

                Virginia Manufacturers Association,
                                         Richmond, Virginia

                                                      July 11, 2017

Hon. Paul Gosar, Chairman,
Hon. Alan Lowenthal, Ranking Member,
House Subcommittee on Energy and Mineral Resources,
Washington, DC 20515.

    Dear Chairman Gosar and Congressman Lowenthal:

    As you explore the state of offshore oil and natural gas 
development in Federal waters at your July 12, 2017 oversight hearing, 
the Virginia Manufacturers Association (VMA) offers its strong support 
for expanded leasing opportunities, including in the Atlantic.
    The Virginia Manufacturers Association has been a leader on 
Atlantic access, going back to the 2006 legislation that created the 
Virginia Energy Plan which first prioritized offshore energy 
exploration 50 miles off our shores and overwhelmingly passed the 
General Assembly 70-20 and Virginia Senate 37-0. Again, in 2010 the VMA 
championed the legislation to prioritize exploration and production of 
offshore energy while also considering the impact on affected 
localities, the armed forces, and the Mid-Atlantic regional spaceport, 
which again sailed through the General Assembly (69-28) and Senate (32-
8) by wide margins. This consideration included dedicating potential 
offshore lease royalty revenue to the VA Transportation Trust Fund, the 
VA Coastal Energy Research Consortium and local government 
infrastructure. Finally, in 2014, the VMA supported amendments to the 
VA Energy Plan to dedicate offshore lease royalties to the Virginia 
Offshore Energy Emergency Response Fund. All the while, we have 
advocated for Federal offshore lease royalty revenue sharing with 
Virginia.
    The reasons for the strong history of support by VMA and members of 
both parties in the Commonwealth are simple. The economic benefits and 
energy independence that offshore energy, including wind energy, can 
bring to Virginia, the Mid-Atlantic and Southeast U.S. are badly 
needed. One study found that for Virginia alone, Atlantic-wide oil and 
natural gas development could generate nearly 25,000 jobs, $16.9 
billion in economic activity, and nearly $2 billion in new state 
revenue. The industry has also made incredible technological advances 
to improve environmental safety. Simply put, we disagree with the false 
narrative that you cannot develop offshore energy safely. Virginia can 
put the best minds and technology to work for our economy and our 
environment, and develop our offshore energy without harming the 
environment.
    For Virginia's 5,000+ manufacturers, the development of these 
resources could mean new orders and long-term affordable energy prices 
for an industry that contributes $43 billion to the gross state product 
and accounts for over 84 percent of the state's manufactured goods 
exported to the global economy. More stable and affordable energy 
supplies also mean lower overhead, more capital available to hire 
Virginians, and manufactured products that are made in Virginia.
    Moreover, with the domestic energy renaissance, foreign energy 
imports still account for over half of our nation's total daily supply. 
Yet, the untapped Atlantic may hold enough resources to reduce our 
imports from the Persian Gulf by more than 60 percent, which could 
significantly move the needle toward greater U.S. energy self-
sufficiency.
    Opening up the Atlantic not only makes sense from an economic and 
national security perspective, it also makes sense for our environment. 
As the Obama administration itself noted in 2016, in addition to losing 
out on as much as $37 billion in incremental net benefits, foregoing 
the previously proposed Mid- and South Atlantic lease sale could cause 
between $1.6 billion and $2.9 billion in negative incremental 
environmental and social costs, primarily due to greater reliance on 
other sources for energy.
    These are just a few of the reasons why leaders of both parties 
helped make it the official policy of the Commonwealth to support the 
exploration and development of offshore energy. VMA appreciates the 
opportunity to provide input as you engage in this important issue, and 
urges your support for expanding leasing access to the Atlantic.

            Sincerely,

                                           Brett A. Vassey,
                                                   President & CEO.

                                 ______
                                 

    Dr. Gosar. Thank you for your testimony.
    The Chair now recognizes Dr. Knapp for his testimony.

 STATEMENT OF JAMES H. KNAPP, Ph.D., PROFESSOR, SCHOOL OF THE 
 EARTH, OCEAN, AND ENVIRONMENT, UNIVERSITY OF SOUTH CAROLINA, 
                    COLUMBIA, SOUTH CAROLINA

    Dr. Knapp. Good morning, Chairman Gosar, Ranking Member 
Lowenthal, and distinguished members of the House Subcommittee 
on Energy and Mineral Resources. It is a pleasure and an honor 
to appear again before this Committee, and I applaud you for 
holding this hearing today.
    For the record, I am James H. Knapp, a Professor in the 
School of the Earth, Ocean, and Environment at the University 
of South Carolina in the Great Palmetto State. My comments 
today represent my own views, and should not be construed to 
reflect those of my institution or entities that support our 
research.
    I will summarize my written testimony in these opening 
comments, which I submit for the record. And today I would like 
to emphasize three points.
    The premise that offshore development is inconsistent with 
other uses and activities in the near and offshore is a 
demonstrably false one, as Ms. LeBlanc has eloquently pointed 
out.
    Secondly, even with modern technology, discovery of new 
energy resources remains a challenging and expensive 
proposition, as it has from its earliest days.
    And third, informed decisions about offshore development 
potential can only be made with new state-of-the-art data.
    By way of background, I am an environmentalist through my 
upbringing in California during the 1960s and 1970s. I was in 
Southern California when the Santa Barbara spill occurred. I am 
an earth scientist through my academic training at Stanford and 
MIT, and for most of the past decade, I have been a vocal 
advocate for the acquisition of new seismic data on the 
Atlantic OCS.
    I believe an all-of-the-above strategy is the only sensible 
and responsible approach to meeting the energy demands of a 
vibrant U.S. and world economy, going forward.
    In the spirit of full disclosure, we currently receive 
Federal grant support from both the Bureau of Ocean Energy 
Management, or BOEM, and the National Energy Technology 
Laboratory of the U.S. Department of Energy. Our BOEM funding 
supports evaluation of the sea bed and subsurface of offshore 
areas of South Carolina for establishing wind energy 
infrastructure.
    Through funding from the Department of Energy, we, along 
with colleagues from a number of organizations, are evaluating 
the offshore geologic storage potential of CO<INF>2</INF> as a 
means of mitigating future fossil fuel carbon emissions. The 
Atlantic OCS, in particular, appears to offer significant 
potential for CO<INF>2</INF> storage, in part because previous 
exploratory drilling has not compromised potential reservoirs 
suitable for storage.
    At the request of the former Minerals Management Service, 
and subsequently BOEM, the Department of Defense prepared an 
evaluation of compatibility of offshore oil and gas development 
with DoD activities. The 2010 analysis concluded that no more 
than 1 percent of the entire Federal OCS was unsuitable for oil 
and gas development, and an additional 2 percent was unsuitable 
for permanent oil and gas surface structures.
    The 2015 study arrived at similar numbers for areas 
included within the 2015 draft proposed plan, concluding that 
more than 96 percent of the OCS was either unrestricted or had 
site-specific restrictions.
    Even with modern technology, the discovery of subsurface 
energy reserves remains challenging. By way of example, I can 
cite the history of petroleum exploration in Florida, which 
began with the first well in Escambia County in 1900. It was 
more than 50 years and hundreds of exploration wells later that 
the first discovery of oil was made in southern Florida. By 
1970, when the Jay Field was discovered in the Florida 
Panhandle, it was the largest domestic discovery in the United 
States since the giant Prudhoe Bay discovery in the 1960s.
    As is typically the case with such petroleum data, these 
Florida wells played a significant role in establishing the 
scientific basis for plate tectonic theory during the 1960s, 
documenting based on the rocks discovered at depth that North 
America and Africa were once connected, and the Atlantic Ocean 
had subsequently opened where the continents split.
    While new seismic methods have evolved particularly for the 
offshore, the challenge to identify new energy reserves remains 
a proposition with, at best, a 70 percent success rate. 
Obviously, neither seismic surveying nor offshore exploration 
are new to the Atlantic OCS. More than 240,000 line miles of 2D 
seismic reflection were acquired off the shores of the U.S. 
Atlantic between the late 1960s and late 1980s, in support of 
an earlier phase of petroleum exploration.
    In preparation for these activities, extensive 
environmental impact studies were carried out by Federal 
agencies, much as they are today, evaluating the potential 
impacts of seismic surveying and offshore drilling on tourism, 
commercial and recreational fishing, marine shipping, and 
commerce. These other uses of the marine and near-shore 
environment have continued apace over the last 50 years, 
despite the previous efforts for offshore energy development, 
belying the claim that such activities are mutually exclusive.
    In conclusion, I am encouraged that the new Administration 
appears poised to reinstate an opportunity for market forces to 
determine whether offshore development of the Atlantic OCS is 
warranted. Those decisions can only be made in an informed way 
on the basis of new, state-of-the-art seismic surveys, such 
that the Federal Government may fairly execute its statutory 
obligation to adequately evaluate the resource potential. I 
will yield back my time.

    [The prepared statement of Dr. Knapp follows:]
Prepared Statement of James H. Knapp, Ph.D., Professor in the School of 
 the Earth, Ocean, and Environment at the University of South Carolina

                              introduction

    Good morning, Chairman Gosar, Chairman Bishop, Ranking Member 
Lowenthal, and honorable members of the House Subcommittee on Energy 
and Mineral Resources. It is a pleasure and honor to appear again 
before this Committee, and I applaud you for holding this hearing 
today. For the record, I am James H. Knapp, Professor in the School of 
the Earth, Ocean, and Environment at the University of South Carolina, 
in the great Palmetto State. My comments today represent my own views, 
and should not be construed to reflect those of my institution or 
entities that support our research. I will summarize my written 
testimony in these opening comments, which I submit for the record.

    Today I would like to emphasize three points:

    <bullet> The premise that offshore development is inconsistent with 
            other uses and activities in the near and offshore is a 
            demonstrably false one;

    <bullet> Even with modern technology, discovery of new energy 
            resources remains a challenging and expensive proposition, 
            as it has from its earliest days; and

    <bullet> Informed decisions about offshore development potential 
            can only be made with new state-of-the-art data.

                               background

    By way of background, I am an environmentalist through my 
upbringing in California during the 1960s and 1970s, an Earth scientist 
through my academic training at Stanford and M.I.T., and for most of 
the past decade, a vocal advocate for the acquisition of new seismic 
data on the Atlantic OCS. I believe an all-of-the-above strategy is the 
only sensible and responsible approach to meeting the energy demands of 
a vibrant U.S. and World economy going forward.

                         compatible uses of ocs

    In the spirit of full disclosure, we currently receive Federal 
grant support from both the Bureau of Ocean Energy Management (BOEM) 
and the National Energy Technology Laboratory of the U.S. Department of 
Energy (DoE). Our BOEM funding supports evaluation of the seabed and 
subsurface of offshore areas of South Carolina for establishing wind 
energy infrastructure (Figure 1). Through funding from DoE, we along 
with colleagues from a number of organizations are evaluating the 
offshore geologic storage potential of CO<INF>2</INF> as a means of 
mitigating future fossil fuel carbon emissions (Figure 2). The Atlantic 
OCS in particular appears to offer significant potential for 
CO<INF>2</INF> storage, in part because previous exploratory drilling 
has not compromised potential reservoirs suitable for storage.

[GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]


Figure 1. Map of offshore wind energy study area (red boxes) funded 
  by the Bureau of Ocean Energy Management, offshore South Carolina. 
  Marine geophysical methods are used to characterize the seabed and 
subsurface for suitability of offshore wind energy installations. Study 
    is a collaboration between Coastal Carolina University and the 
                     University of South Carolina.


[GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]


Figure 2. Location map of the Southeast Offshore Storage Resource 
  Assessment (SOSRA) study, funded by the National Energy Technology 
Laboratory (NETL) of the U.S. Department of Energy, showing (A) map of 
 point sources of CO<INF>2</INF> in the eastern United States (NATCARB 
database) and (B) location of legacy marine seismic reflection and well 
data used to characterize reservoir storage potential in the offshore. 
 Study area extends from offshore Delaware to offshore Louisiana, and 
 includes collaborators from Virginia Polytechnic Institute, Virginia 
Department of Mines, Mining, and Energy, Oklahoma State University, the 
 South Carolina Geological Survey, the Alabama Geological Survey, and 
            coordinated by the Southern States Energy Board.

    At the request of the former Minerals Management Service (MMS) and 
subsequently BOEM, the Department of Defense prepared an evaluation of 
compatibility of offshore oil and gas development with DoD activities 
(Figure 3). The 2010 analysis concluded that no more than 1 percent of 
the entire Federal OCS was unsuitable for oil and gas development, and 
an additional 2 percent was unsuitable for permanent oil and gas 
surface structures. The 2015 study arrived at similar numbers for areas 
included within the 2015 Draft Proposed Plan, concluding that more than 
96 percent of the OCS was either unrestricted (67.2 percent) or had 
site-specific restrictions (29.5 percent).



[GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]


Figure 3. Data from (1) Report on the compatibility of Department 
 of Defense (DoD) activities with oil and gas resource development on 
     the Outer Continental Shelf (OCS) (2010); and (2) DoD Mission 
  Compatibility Planning Assessment: BOEM 2017-2022 Outer Continental 
     Shelf (OCS) Oil and Gas Leasing Draft Proposed Program (2015).

                        challenge of exploration
    Even with modern technology, the discovery of subsurface energy 
reserves remains challenging. By way of example, I can cite the history 
of petroleum exploration in Florida, which began with the first well in 
Escambia County in 1900. It was more than 50 years and hundreds of 
exploration wells later that the first discovery of oil was made in 
southern Florida, in the Sunniland trend. In 1970, when the Jay field 
was discovered in the Florida panhandle, it was the largest domestic 
discovery in the United States since the giant Prudhoe Bay discovery in 
the 1960s. As is typically the case with such petroleum data, these 
Florida wells played a significant role in establishing the scientific 
basis for plate tectonic theory during the 1960s, documenting based on 
the rocks discovered at depth that North America and Africa were once 
connected, and the Atlantic Ocean had subsequently opened where the 
continents split. While new seismic methods have evolved, particularly 
for the offshore, the challenge to identify new energy reserves remains 
a proposition with at best a 70 percent success rate.
                        modern seismic surveying
    Obviously, neither seismic surveying nor offshore exploration are 
new to the Atlantic OCS. More than 240,000 line miles (385,000 line km) 
of 2-D seismic reflection data were acquired off the shores of the U.S. 
Atlantic between the late 1960s and late 1980s (Figure 4), in support 
of an earlier phase of petroleum exploration. In preparation for these 
activities, extensive environmental impact studies were carried out by 
Federal agencies, much as they are today, evaluating the potential 
impacts of seismic surveying and offshore drilling on tourism, 
commercial and recreational fishing, and marine shipping and commerce. 
These other uses of the marine and near-shore environment have 
continued apace over the last 50 years, despite the previous efforts 
for offshore energy development, belying the claim that such activities 
are mutually exclusive.

[GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]




Figure 4. Map of legacy 2-D seismic data on the Atlantic OCS 
(courtesy of BOEM.) Approximately 380,000 line km (240,000 line miles) 
of 2-D seismic data were collected in the Atlantic OCS between 1966 and 
                                 1988.

    Despite the enormous scientific value of these legacy seismic data, 
fully 80 percent of the territory that was originally included in the 
draft 2017-2022 5-year plan has never been evaluated with commercial 
seismic surveys (Figure 5). Furthermore, modern seismic surveys, driven 
globally by exploration activities over the last two decades (Figure 
6), have ushered in fundamentally new models for how continents break 
and continental margins evolve.


[GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]

Figure 5. Area within Mid- and South Atlantic OCS Planning Areas 
originally included in the BOEM Draft Proposed Plan for 2017-2022. Red 
  boundary represents 50 mile buffer zone from state waters. Fully 80 
 percent of area which was under consideration for exploration leases 
has never been the subject of commercial seismic surveys. (Produced at 
  the Tectonics and Geophysics Lab at USC with information from BOEM.)
  
  
[GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]
  
Figure 6. Map showing current offshore exploration efforts in the 
   Atlantic Basin. Conspicuously absent are the Atlantic continental 
margin and Eastern Gulf of Mexico of the United States. (Courtesy of G. 
                        Steffens, Shell Oil Co.)

                               conclusion
    In conclusion, I am encouraged that the new administration appears 
poised to reinstate an opportunity for market forces to determine 
whether offshore development on the Atlantic OCS is warranted. Those 
decisions can only be made in an informed way on the basis of new, 
state-of-the-art seismic surveys, such that the Federal Government 
might fairly execute its statutory obligation to adequately evaluate 
the resource potential of this essentially frontier petroleum province, 
and the private sector might pursue environmentally responsible energy 
development in the national interest.

                                 ______
                                 

 Questions Submitted for the Record by Rep. Gosar to Dr. James Knapp, 
                Professor, University of South Carolina
    I thank the Hon. Chairman Gosar for the questions, and the 
opportunity to register these responses on the record. At the risk of 
sacrificing brevity for clarity, I will endeavor to support my 
responses with some appropriate background and references.

    Question 1. What is the difference between large air-gun seismic 
surveys being proposed for the Atlantic versus seismic surveys in other 
regions of the U.S. OCS?

    Answer. The short answer is, the design of the proposed seismic 
surveys for the Atlantic Outer Continental Shelf (OCS) (1) does not 
differ significantly from those previously carried out in other regions 
of the U.S. OCS, and (2) is appropriate, including the size of the 
airgun source, for the objective of resource potential evaluation.
    Broadly speaking, geophysical surveying can be thought of as the 
process of remotely sensing those parts of the Earth (generally the 
subsurface, which is not readily observable directly), based on their 
physical properties (composition, density, rigidity, shear strength, 
porosity, fluid composition, magnetic susceptibility, etc.) and 
variables of state (temperature and pressure). Accordingly, the design 
of any geophysical survey is typically based on a combination of (a) 
the scale or size of the inferred target, (b) the anticipated depth of 
the target, and (c) the physical properties of interest. Seismic 
surveying is only one, but arguably the most powerful, geophysical 
surveying technique, providing quantitative information on the rocks, 
sediments, and fluids in the subsurface on a regionally significant 
spatial scale.
    ``Seismic surveying'' in the context of the U.S. OCS refers 
typically to the method of ``seismic reflection surveying,'' wherein 
acoustic energy (sound) is introduced to the subsurface, and is 
recorded at or near the surface as it is ``reflected'' off boundaries 
in the subsurface between bodies with differing physical properties. 
While the technique has evolved considerably since the earliest 
pioneering marine seismic surveys at the mouth of Chesapeake Bay (e.g., 
Ewing et al, 1937), the theoretical basis of the approach remains 
unchanged. In particular, seismic reflection surveying has become the 
essential tool for the evaluation of subsurface resource potential, as 
it provides not only a graphic image of the features in the subsurface 
and their geometric relationships, but also a quantitative measure of 
the physical properties thereof.
    Extensive marine seismic reflection surveys were carried out over 
the past half century within the U.S. Exclusive Economic Zone (EEZ) 
(Figure 1; Triezenberg et al, 2016), as well as globally (e.g. Figure 
2, for northwestern Europe). The primary technological innovation since 
commercial seismic reflection surveys were last recorded on the 
Atlantic OCS during the 1970s and 1980s is the evolution from 2-D to 3-
D surveys. Whereas 2-D surveys provide a vertical cross-section through 
the subsurface, 3-D surveys provide a volumetric image, much as modern 
medical tomographic imaging does with the human body. While marine 3-D 
seismic surveys are now commonplace worldwide, (1) only one small 
commercial 3-D survey was ever collected on the Atlantic OCS before 
moratoria were implemented, and (2) both survey designs have relevance 
in evaluating resource potential on and exploring for petroleum 
deposits within the essentially frontier province of the Atlantic OCS.


[GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]



 .epsFigure 1. Map of 2-D and 3-D marine seismic reflection surveys in 
U.S. waters (pink lines), acquired by or contributed to U.S. Department 
of the Interior agencies, downloaded on 26 July 2017 from the National 
 Archive of Marine Seismic Surveys, Pacific Coastal and Marine Science 
Center of the U.S. Geological Survey (https://walrus.wr.usgs.gov/namss/
search/). 3-D seismic surveys (150) cover >121,000 km<SUP>2</SUP>, and 
   2-D seismic surveys (32,400 tracklines) cover >2,282,490 line km 
(Triezenberg et al, 2016). Included are surveys in the Atlantic Ocean, 
  Pacific Ocean, Gulf of Mexico, and territorial waters of Alaska and 
                Hawaii, spanning more than six decades.
                
[GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]
                
                
Figure 2. Map of proprietary 2-D and 3-D marine seismic reflection 
 surveys in NW Europe, available from Spectrum Geo Ltd., downloaded on 
26 July 2017 from their online interactive seismic data library (http:/
    /www.spectrumgeo.com/seismic-data-library/multi-client-library/
  interactive-map). Each color in a given area represents a different 
                   marine seismic reflection survey.

    Despite the acquisition of more than 385,000 line km of marine 
seismic reflection data in the Atlantic OCS during the late 1960s to 
the late 1980s (Post et al, 2012), this province is still considered a 
frontier basin. Thousands of exploration wells have been drilled 
onshore along the Atlantic margin of the United States, but only 60 
such wells have been drilled in the Atlantic OCS. Moreover, as much as 
80 percent of the Atlantic OCS territory that was under consideration 
for leasing in the 2017-2022 Draft Proposed Plan (Figure 3) has never 
been the subject of commercial seismic surveying. It is therefore 
difficult to understand how (1) the Federal Government could be 
fulfilling its statutory obligation to evaluate fairly the resource 
potential of, or (2) industry could realistically assess the viability 
of exploration of the Atlantic OCS in the absence of new, state-of-the-
art seismic reflection surveys. While this region may yet prove to be 
unprospective for commercial resource development, such a determination 
could only be informed by new data and analyses.


[GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]



Figure 3. Area within Mid- and South Atlantic OCS Planning Areas 
 originally included (and later removed) in the Bureau of Ocean Energy 
   Management (BOEM) Draft Proposed Plan for 2017-2022. Red boundary 
 represents 50-mile buffer zone from state waters. Fully 80 percent of 
the area which was under consideration for exploration leases has never 
   been the subject of commercial seismic surveys. (Produced at the 
   Tectonics and Geophysics Lab at UofSC with information from BOEM.)

    Question 2. Does seismic harm marine mammals?

    Answer. As a Professor of geology and geophysics, and a former 
employee in the petroleum industry, I have familiarity with a number of 
aspects of marine seismic acquisition and offshore oil and gas 
exploration and development. I cannot claim, however, to be an 
authority on marine biology or marine mammal behavior. Having said 
that, I am familiar with some of the peer-reviewed scientific 
literature on the interaction of marine life with marine seismic 
operations. Gordon and others (2004) provided a useful summary of 
observations of behavioral change in various marine mammal species in 
response to airguns and seismic surveys (Figure 4). While acknowledging 
effects such as changes in vocalization, these authors concluded that 
avoidance was the primary response documented across a variety of 
species and in a geographic area of global extent where the studies 
were conducted (Gordon et al, 2004).



[GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]

Figure 4. Summary of studies from the scientific literature of 
observed effects of marine seismic operations on various marine mammal 
                     species (Gordon et al, 2004).

    Perhaps some of the most compelling data on the putative adverse 
effect of acoustic energy on marine mammals comes from the Federal 
Government. Established in 1991, The Working Group on Marine Mammal 
Unusual Mortality Events (UME) under the aegis of the Office of 
Protected Resources with the National Oceanic and Atmospheric 
Administration (NOAA) has formally identified 63 marine mammal UME in 
U.S. waters over the last 26 years (Figure 5). In most cases where a 
cause has been determined (32), infections and/or biotoxins were 
indicated; of the 63 UME, not even one has been attributed to marine 
seismic operations.


[GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]

Figure 5. Cause of reported Unusual Mortality Events (UME) in U.S. 
   waters (63 total) between 1991 and 2017 (NOAA Fisheries Office of 
      Protected Resources; downloaded on 26 July 2017 from http://
 www.nmfs.noaa.gov/pr/health/mmume/). While the cause of a significant 
 number (31) of UME remains ``undetermined/pending,'' only three have 
been attributed to ``human interactions,'' and in no instance has a UME 
             been attributed to marine seismic operations.

    A graph of the incidence of UME by geographic region is similarly 
instructive (Figure 6). Of the total 63 events documented for the 
period 1991-2017, the majority are nominally equally distributed 
between the Atlantic, Pacific, and Gulf of Mexico, during a period when 
extensive commercial seismic surveys have been conducted in the GOM, 
but not on the Atlantic and Pacific margins. One might reasonably 
expect a spatial and temporal correlation of UME with marine seismic 
operations were there a causal relationship. These data suggest the 
contention that marine seismic surveys result in mass mortality events 
of marine mammals is likely a chimera.


[GRAPHIC(S) NOT AVAIALBLE IN TIFFF FORMAT]



Figure 6. Percentage of reported Unusual Mortality Events (UME) in 
 U.S. waters (63 total) by geographic area between 1991 and 2017 (NOAA 
  Fisheries Office of Protected Resources; downloaded on 26 July 2017 
from http://www.nmfs.noaa.gov/pr/health/mmume/). During the observation 
period, extensive commercial seismic surveys have been conducted in the 
        Gulf of Mexico, but not in the Atlantic or Pacific OCS.

    While not from the peer-reviewed literature, BOEM Chief 
Environmental Officer William Brown was categoric in his statement on 
the issue: ``To date, there has been no documented scientific evidence 
of noise from airguns used in geological and geophysical (G&G) seismic 
activities adversely affecting marine animal populations or coastal 
communities. This technology has been used for more than 30 years 
around the world. It is still used in U.S. waters off of the Gulf of 
Mexico with no known detrimental impact to marine animal populations or 
to commercial fishing'' (Brown, 2014). Brown continued in a follow-on 
statement (Brown, 2015) that the lack of evidence for adverse 
population-level effects on marine mammals does not conclusively prove 
they do not occur, but ``since 1998, BOEM has invested over $50 million 
on protected species and noise-related research, including marine 
mammals.'' Given the historic level of marine seismic acquisition, both 
in U.S. waters and globally, one might reasonably be led to the 
conclusion that the preponderance of data suggests there is no 
definitive correlation between marine seismic activities and 
detrimental impacts to marine mammal populations.

    Question 3. Does seismic harm fish?

    Answer. As with the preceding question concerning marine mammals, I 
cannot claim to be an authority on marine biology. Unlike many who 
would claim to be authorities on marine acoustics and geophysical 
methods, apparently without credential, I would not presume to have a 
comprehensive knowledge of this subject. I would say I am unaware of a 
credible body of scientific literature demonstrating a clear causal 
relationship between marine seismic operations and detrimental impacts 
on fish populations. Brown (2014) included ``marine animal 
populations'' in his statement on the lack of documented scientific 
evidence for such a relationship, which would include fish.
    As was mentioned during the hearing, a recent study by McCauley et 
al (2017) suggests there is a direct and mortal effect of seismic 
airgun sources on zooplankton. Upon closer inspection, this study 
appears flawed on a number of levels, even without knowledge of the 
biology of zooplankton. Statistical analysis on an insufficient data 
sample, inconsistencies between the raw and filtered data presented, 
and unexplained variations in sample size between exposed and control 
populations raise serious questions about the scientific methodology of 
this study. Were these results robust, one might reasonably expect that 
the oceans would now be devoid of life after many decades of marine 
seismic operations worldwide.
Cited References/Sources:
Brown, W.Y., 2014, Science notes: The science behind the decision, 
Bureau of Ocean Energy Management, 3 p.

Brown, W.Y., 2015, Science notes: Applied science for informed decision 
making, Bureau of Ocean Energy Management, 2 p.

Ewing M., Crary, A.P., and Rutherford, H.M., 1937, Geophysical 
investigations in the emerged and submerged Atlantic Coastal Plain, 
Part I: Methods and Results, Bull. Geol. Soc. Am., v. 48, p. 753-802.

Gordon, J., Gillespie, D., Potter, J., Frantzis, A., Simmonds, M.P., 
Swift, R., and Thompson, D., 2004, A review of the effects of seismic 
surveys on marine mammals, Marine Technology Society Journal, v. 37, n. 
4, p. 16-34.

Marine Mammal Unusual Mortality Events, Office of Protected Resources, 
National Marine Fisheries Service, National Oceanographic and 
Atmospheric Administration, U.S. Department of Commerce (http://
www.nmfs.noaa.gov/pr/health/mmume/events.html).

McCauley, R.D., Day, R.D., Swadling, K.M., Fitzgibbon, Q.P., Watson, 
R.A., and Semmens, J.M., 2017, Widely used marine seismic survey air 
gun operations negatively impact zooplankton, Nature Ecology & 
Evolution, Volume 1; Article Number: 0195, DOI: 10.1038/s41559-017-
0195.

National Archive of Marine Seismic Surveys, Pacific Coastal and Marine 
Science Center, U.S. Geological Survey, U.S. Department of the Interior 
(https://walrus.wr.usgs.gov/namss/).

Post, P., Klazynski, R., Klocek, E., DeCort, T., Riches, T., Li, K., 
Elliott, E., and Poling, R., 2012, Assessment of undiscovered 
technically recoverable oil and gas resources of the Atlantic Outer 
Continental Shelf 2011 as of January 1, 2009, BOEM 2012-016, 39 p.

Triezenberg, P.J., Hart, P.E., and Childs, J.R., 2016, National Archive 
of Marine Seismic Surveys (NAMSS): A USGS data website of marine 
seismic reflection data within the U.S. Exclusive Economic Zone (EEZ): 
U.S. Geological Survey Data Release, doi: 10.5066/F7930R7P.

                                 ______
                                 

    Dr. Gosar. I thank the gentleman. I thank the panel for 
their testimony. Reminding the Members that the Committee Rule 
3(d) imposes a 5-minute limit on questions, the Chairman will 
now recognize Members for questions they may wish to ask the 
witnesses.
    I will recognize myself.
    Ms. MacGregor, the Mid and South Atlantic OCS planning 
areas were not included in the previous 2017-2022 5-year plan. 
The Beaufort and Chukchi Seas off of northern Alaska were also 
not included. Why has the new Administration chosen to 
reconsider these areas at this time?
    Ms. MacGregor. Thank you for the question. Just to clarify, 
when it comes to initiating the new 5-year plan, we are at the 
very early stages of a very long process that is outlined in 
the Outer Continental Shelf Lands Act. So, for those who have 
mentioned this earlier in their testimony, we are starting in 
the same place that all administrations have always started, 
which is all 26 planning areas are on the table, and will be 
further evaluated thoroughly.
    The Arctic and Mid-Atlantic planning areas are areas that 
in the past have enjoyed wide bipartisan support, and I believe 
that is one of the reasons why those have been selected for 
further review.
    Dr. Gosar. How would they be considered differently?
    Ms. MacGregor. They will be considered equally among all 26 
planning areas.
    Dr. Gosar. When developing a new OCS leasing plan, how does 
BOEM engage with state leaders, coastal communities, and other 
stakeholders?
    Ms. MacGregor. BOEM and the Department are very, very 
engaged with all stakeholders, especially governors and local 
and public leaders. It is actually written into Federal law 
that BOEM work and receive feedback from governors. We have 
already sent out our initial letters requesting feedback on 
that, and we will be working with the public every step of the 
way.
    The process has 255 days of statute-required public 
comment, as well.
    Dr. Gosar. So, plenty of access to have opportunity to 
voice your opinion?
    Ms. MacGregor. Absolutely. We welcome everyone's input.
    Dr. Gosar. Mr. Whatley, should the Mid and South Atlantic 
planning regions be leased and developed, and how are the 
Atlantic coastal states and communities prepared to handle the 
offshore infrastructure?
    Mr. Whatley. Well, the first part of the work that would be 
done, in terms of once leasing blocks are put out there, would 
be evaluations of the area. Those will be run mostly out of the 
ports, such as Norfolk in Virginia; Charleston in South 
Carolina; Savannah; Wilmington. And those states will have 
time.
    It is important to note what Kate mentioned with the 
timelines in the plan, because once the leasing is done, there 
is a 7- to 10-year time period where they evaluate the lease 
blocks, where they do exploratory drilling. And then, 
ultimately, you would get to a production point. The states 
would know that this is coming and have the opportunities to 
develop the infrastructure that they need in those areas.
    Dr. Gosar. How would the states benefit from the leasing 
and production?
    Mr. Whatley. The jobs and the economic impacts that would 
take place for exploration and production are very significant. 
As I have mentioned in my testimony, the numbers that we have 
seen in the Atlantic are that it would contribute, overall, 
about 840,000 jobs, $550 billion in increased economic 
activity, and $395 billion in increased government revenues.
    And those would be, obviously, enhanced if revenue share 
was put into place. But we think that the economic drivers for 
the activity that would take place in the ports and in the 
states is significant.
    Dr. Gosar. Mr. Whatley, you work with many business 
associations and State Congress folks throughout the Atlantic 
states who have expressed interest in exploration and 
development off their coasts. What value do these groups see in 
the OCS development off the Atlantic?
    Mr. Whatley. I think the primary benefits that they see are 
twofold. First, there are the jobs that are going to be 
created, the increased spending that would be done in the 
state, and the government revenues that would flow from that. 
But also, it is very important in terms of the economic 
benefits of lower fuel prices.
    So, when you talk about gasoline and diesel prices being 
significantly lower because of American production, when you 
talk about manufacturing that is coming back to the United 
States because of lower natural gas and electricity prices, 
those have long-term benefits for it.
    We understand that energy prices are low today, and that is 
great. But the offshore opportunity gives us a long-term 
planning horizon for these companies to understand that the 
energy prices will continue to be low, going forward.
    Dr. Gosar. I appreciate it.
    Ms. LeBlanc, Louisiana is the Number one state for OCS 
production, and is home to an advanced energy industry. But 
Louisiana is also known as a sportsman's paradise. How does a 
state reconcile a robust offshore oil and gas industry and 
environmental stewardship? I mean, I want my cake and eat it, 
too. I like clean air, I like clean water, but I also like to 
do my hunting and fishing, and like to have my fuels to get me 
there.
    Ms. LeBlanc. Thank you, Chairman, for the question. I think 
in south Louisiana, we are very blessed with an abundance of 
natural resources, and that includes our offshore oil and gas 
production, as well as the hunting, the fishing, and the 
wildlife watching. And we have taken tremendous strides to 
protect our environment and to allow it so that we can have 
multiple stakeholders and multi-use of our environment in south 
Louisiana.
    We have done a tremendous effort of balancing those two. We 
have a very strong coastal restoration program right now, and 
it is just really about balancing energy production and coastal 
stewardship, environmental stewardship in order to be the 
sportsman's paradise capital of the world.
    Dr. Gosar. So, it is not mutually exclusive to have both?
    Ms. LeBlanc. No, absolutely not. We are not an either-or 
state, and we do not have to sacrifice our environment for 
offshore production. I think that some of the statistics I 
provided in my testimony demonstrate that.
    I know a lot of folks are very concerned about tourism. 
And, you know, Louisiana is a very, very strong tourist state, 
as are the other Gulf Coast states that support oil and gas.
    Dr. Gosar. Thanks, Ms. LeBlanc. I now recognize the Ranking 
Member for his questions.
    Dr. Lowenthal. Thank you. I just want to frame it, just try 
to understand if I am clear, as I ask my questions.
    The 2017-2022 Federal offshore oil and gas development on 
the Outer Continental Shelf, that plan, as I understand, was 
just completed in January of this year, 2017, the plan that we 
are now about starting the process to undo. It did not go into 
effect until last month.
    It talked about prohibiting oil and gas development on the 
Atlantic, Pacific, and Arctic, except for one area, I believe, 
on Cook Island, and it promoted oil and gas development in the 
Gulf, by saying that the plan would have a more strategic and 
sustainable place where we would have our oil and gas 
development. It was not one-sided, it was really thoughtful.
    So, now we are going to undo that. I really want to know 
what is the basis for that. My first question is to Ms. 
MacGregor.
    The amount of oil produced offshore in 2016 was 17 percent 
higher than in 2008. In fact, production hit a record high 
amount in January of this year, and is still rising. So, the 
question is, are all these offshore oil companies currently 
complying with the safety regulations and policies that were 
put into place after Deepwater Horizon?
    Ms. MacGregor. Sir, all of the regulations that are on the 
books that have been enacted are being adhered to and being 
inspected to, specifically.
    As for your figures, yes, Fiscal Year 2016 we had 
significant oil production. Fiscal Year 2009 was actually 
higher.
    Dr. Lowenthal. That is true. But we know that was the 
highest year. Then last year was the second highest, so we are 
talking about still very high oil and gas production. Is that 
not true?
    Ms. MacGregor. That is true. Production is increasing, and 
I think that is such an important point, because----
    Dr. Lowenthal. Under the existing planning process, and the 
new planning that we have in place, production is increasing.
    Ms. MacGregor. Actually, you struck that point exactly. It 
is under existing leases, and most of the production that came 
on-line, some of the big projects, such as Stones in 2016 that 
came on-line, it was leased in 1996, and that is why leasing is 
so incredibly important.
    Dr. Lowenthal. And we still have large numbers of leases. 
But I guess we talked about earlier on the onshore that have 
been permitted, and have been approved but not implemented.
    Ms. MacGregor. Right. When we lease, whether it is the 
BLM--we provide a 10-year lease term offshore. The lease terms 
are 5, 7, and 10 year terms, and companies who bid and acquire 
that lease are able to develop on it. But----
    Dr. Lowenthal. I appreciate it, and I am going to 
interrupt----
    Ms. MacGregor. Oh, sorry.
    Dr. Lowenthal. I apologize. But my question really is not 
about the leasing.
    My question, as I asked you about complying with the safety 
regulations under Deepwater Horizon, you said yes, they are. 
But now Interior is currently reviewing or has recently 
reviewed those regulations and policies to determine if they, 
and let me quote, ``potentially burden the development of 
energy resources.'' Is that correct?
    Ms. MacGregor. It is correct. BOEM, BSEE, and Department-
wide, we are reviewing all of our regulations.
    Dr. Lowenthal. So, you are reviewing those, and given that 
oil production is at a high and has been increasing, and 
companies are meeting all--as you pointed out--the new safety 
regulations and policies, it does not appear that these 
policies are burdening energy development. Is that not true?
    Ms. MacGregor. Actually, we are still in the process of 
evaluating all of these policies.
    Dr. Lowenthal. But if you look at the data, and you get 
back, there does not seem to be any reduction. Or we have not 
seen these new policies that have had a negative impact----
    Ms. MacGregor. Well, frankly, several of the policies, such 
as the Arctic Rule or Well Control Rule--for instance, in the 
Arctic Rule there is no Federal offshore production in the 
Arctic. So, we don't know how that is actually working.
    Dr. Lowenthal. Got it.
    Ms. MacGregor. Well control is the same way. It was just 
put into place last year, there is somewhat of a lag between 
implementing policies on safety, and actually seeing how they--
--
    Dr. Lowenthal. How are you going to measure benefits? How 
will you be measuring the benefits?
    Ms. MacGregor. Well, the Executive Order by the President 
put forward some pretty straightforward requirements when it 
comes to evaluating the regulations. When it came to benefits, 
it simply says we are going to evaluate based on imposed costs 
that may or may not exceed benefits.
    But I guess, at the end of the day, we will adhere to all 
requirements by the government agencies.
    Dr. Lowenthal. Will you be making them public before you 
make any regulatory changes?
    Ms. MacGregor. When we make regulatory changes, whether it 
is a recision, revision, or anything to regulations, we will be 
adhering to the APA process, which requires----
    Dr. Lowenthal. So, you will be providing the public with a 
cost benefit analysis publicly before you make any----
    Ms. MacGregor. Yes, it is part of the Administrative 
Procedure Act. We have to not only provide an RIA, but also 
look at providing notice and comment, which I know that in the 
past was a big concern for several folks raising regulations 
that were finalized in the last administration that in some 
cases did not provide the ability to have notice and comment.
    So, we will absolutely be ensuring that there is comment on 
those.
    Dr. Lowenthal. Thank you. Thank you for your testimony, and 
I yield back.
    Dr. Gosar. I thank the gentleman. The gentleman from 
Colorado, Mr. Lamborn, is recognized for his 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman, and thanks for having 
this hearing.
    Ms. MacGregor, thanks for coming back to the Committee. I 
have a question I would like to ask you, and then turn to Dr. 
Knapp on the same question.
    There are concerns over the ecological impact of seismic 
testing. How are seismic surveys required to mitigate potential 
environmental effects of seismic testing?
    Ms. MacGregor. Thank you for that question. Seismic is, of 
course, the scientific endeavor of using acoustic sound to 
determine what is occurring below the sea bed, and it is used 
for a multitude of purposes. Aside from just determining where 
hydrocarbons are, it also is used for aiding and siting 
renewable energy projects offshore, locating potential sand and 
gravel resources that we utilize in areas like Florida to help 
in coastal restoration, and identifying geological hazards.
    Right now, there are a multitude of mitigation techniques 
that are employed to make sure that we are working to be 
respectful of the marine mammals that are also in that 
environment. Many companies, I believe, are required to have 
marine mammal observers on board to simply point out when there 
is some sort of occurrence of a marine mammal.
    You have to go through a very thorough permitting process 
through the Department, and also through partner agencies like 
the Department of Commerce, that has to issue an incidental 
harassment authorization. But there are very many mitigation 
techniques that are used right now.
    Mr. Lamborn. Dr. Knapp, can you add to that?
    Dr. Knapp. Thank you for the question, former Chairman 
Lamborn. I will not reiterate what Ms. MacGregor has already 
said, but I would add to that, as I tried to bring out in my 
testimony, seismic studies are the first, foremost, and 
fundamental way that we understand what is beneath the ground, 
short of actually putting a hole in the ground and recovering 
material.
    But it is used for any number of purposes. For those of us 
in the scientific community, especially geophysicists, as we 
call ourselves, it is something that is fundamental to our 
ability to understand image, as essentially a doctor would a 
human: a three-dimensional picture of what is beneath the 
surface.
    Mr. Lamborn. Can it be done in an environmentally safe and 
responsible manner?
    Dr. Knapp. Absolutely, it can. It has been done for 
decades, globally, in many sensitive areas. And the data 
clearly show that there is yet to be any scientific data that 
show significant effects on marine mammal populations, despite 
even recent studies that are somehow suggesting that marine 
seismic surveys are detrimental even to the micro-organisms in 
the ocean. I think that there is yet to be conclusive evidence 
coming forward that there is demonstrable damage to any of 
those communities on a long-term basis.
    Mr. Lamborn. Would it be fair to conclude, at least as some 
people have, that those arguments are more emotional than 
scientific?
    Dr. Knapp. Well, I think that there is probably that 
element of it. Again, as a scientist, I can tell you that 
science is not some rigid body of facts. We, as scientists, 
never actually prove something. We are constantly disproving 
things.
    So, I would say that the body of evidence so far indicates 
that there is no evidence to support the idea that there is 
long-term damage to any of those marine communities.
    Mr. Lamborn. Shifting gears, can seismic testing be 
compatible with Department of Defense needs and uses of the 
offshore areas?
    Dr. Knapp. Right, and that is what I tried to bring out in 
my testimony, because I have heard that put forward as a reason 
to limit offshore activities. Understandably, defense of the 
Nation is first and foremost, and I think that there are few 
people that would argue that. But by their own analysis, the 
Department of Defense has come forward and said that, in terms 
of oil and gas activities in the Outer Continental Shelf, 3 
percent or less of that area is off limits, based on their 
needs for carrying out their mission. So, essentially, 97 
percent is either unrestricted--the vast majority of it--or 
might have some conditions that are site-specific, but even 
those, I think, are more in terms of timing and coordination.
    Mr. Lamborn. Thank you.
    Mr. Whatley, I would like to ask you a question. What is 
the difference in depth between the deep water of the Gulf of 
Mexico and the Outer Continental Shelf off the Atlantic? And 
then I have a followup.
    Mr. Whatley. Sure. And I will defer to Dr. Knapp on this, 
but the Outer Continental Shelf, where the resource base is 
that folks are looking at, is going to be anywhere from 70 to 
150 miles offshore, so we are not talking about----
    Mr. Lamborn. No, no. Depth, depth.
    Mr. Whatley. Yes, and out there you are talking about deep 
water. You are talking 5,000-plus feet that are going to be out 
there, very similar to the deep water in the Gulf.
    Mr. Lamborn. But on the shelf, itself.
    Mr. Whatley. Yes. It is going to be deep water, in terms of 
where the exploration and productions are going to play.
    Dr. Knapp. I will just say, from a geologic definition, the 
continental shelf ends at 200 meters water depth. So, 
essentially, 700 feet, but there are certainly areas that are 
prospective and of interest to the industry that are in deeper 
water, though.
    Mr. Lamborn. OK, thank you. I yield back.
    Dr. Gosar. I thank the gentleman. The gentlewoman from 
Massachusetts, Ms. Tsongas, is recognized for her 5 minutes.
    Ms. Tsongas. Thank you, Mr. Chairman. As I said during our 
hearing last week--and I want to reiterate again here today--I 
believe our Nation is in the midst of a clean energy 
revolution. More and more of our electricity is being produced 
from renewable resources. According to the Bureau of Labor 
Statistics, the Nation's fastest-growing occupation is a wind 
turbine technician, a good-paying job available to those coming 
right out of high school.
    It is also worth noting that the states with the highest 
average salary for a wind turbine technician are Pennsylvania, 
Iowa, North Dakota, South Dakota, and Oregon.
    Instead of expanding investments in fossil fuel 
development, especially in places like the Atlantic Ocean where 
there is no existing infrastructure, we should be looking to 
the future, and investing in renewable energy resources.
    Massachusetts was proud to be among the first states to 
participate in Federal offshore wind development lease sales. 
Just last September, Secretaries Jewell and Moniz held a press 
conference announcing the national offshore wind strategy in 
Massachusetts at the Wind Technology Testing Center, a state-
of-the-art blade testing facility in Boston that is helping to 
develop the next generation of both land-based and offshore 
wind turbine technologies.
    Massachusetts is also working with our electric utility 
companies to reach our state-mandated offshore wind goals over 
the next decade, goals that were signed into law by our 
Republican Governor.
    While the Administration claims to support all-of-the-above 
energy production, clean energy is not prioritized in policy 
proposals and Executive Orders, nor is it adequately funded in 
its Fiscal Year 2018 budget request. It is not surprising that 
the Administration recently announced, and we are discussing 
here, how it will be fast-tracking approvals of fossil fuel 
permits on public lands, but made no mention of similarly 
improving development of clean energy resources.
    Clean energy on public lands and waters offers tremendous 
opportunities for job creation and home-grown energy 
production. I believe the Trump administration needs a 
thoughtful, aggressive plan to promote these jobs, if it really 
wants to claim that it is supporting all-of-the-above energy 
development. We need action, not words.
    Ms. Howell, I am just one of many East Coast Members of 
Congress from both sides of the aisle who are opposed to 
offshore drilling in the Atlantic. My constituents and 
residents across the state strongly believe that opening new 
areas to offshore drilling will undermine critical efforts to 
protect our oceans that we value deeply, support our recreation 
and tourism--I was just on Cape Cod this past week and I see 
how important it is to the economy of that part of the state, 
to support our tourism and recreation economies, and our 
commercial fisheries that we value quite deeply.
    You spent your career working in the oil and gas industry, 
and yet you oppose new drilling in the Atlantic. Can you 
reiterate why you don't believe that offshore drilling is 
compatible with existing Atlantic Ocean activities?
    Ms. Howell. Yes. Thank you very much, Congresswoman. For 
several reasons oil and gas are inconsistent with the East 
Coast economy.
    To begin with, the nature of the work required to drill 
offshore--it is a dirty industry. It requires several different 
ways in which oil and gas are a threat to the coast, not only 
through the drilling process, but also through transportation, 
bringing the oil and gas to the onshore facilities, where it is 
refined or liquified, as liquified natural gas. There are a 
variety of ways in which oil and gas can enter the coastal 
stream, and that does not have to require a blowout.
    The Gulf Coast has a history of leaks of all sorts from 
these types of activities. In addition, the nature of the 
tourist economy on the Atlantic is that we have grown up with 
tourism on the Atlantic, as opposed to the Gulf of Mexico, 
which grew up with the oil and gas business. You don't go to 
the beach in south Louisiana. The tourism that Ms. LeBlanc 
referred to, of course, is centered around New Orleans, which 
is 100 miles from the coast.
    My son grew up going to Cape Cod in the summertime. We 
spent 20 years at North Eastham Beach. I know how precious that 
place is, as well as the coastline where I live now.
    When Deepwater Horizon happened in the Gulf, the spill was 
of such a magnitude it cost just the state of Louisiana alone 
$247 million in tourism revenue. And South Carolina benefited, 
unfortunately, from that spill--fortunate for us, unfortunately 
for Louisiana--because people left the Gulf of Mexico. They 
decided not to vacation there, and they came instead to the 
Carolinas. That is the cost. That is the real cost of tourism.
    Ms. Tsongas. Thank you. I yield back.
    Dr. Gosar. I thank the gentlewoman. The gentleman from 
Virginia, Mr. Wittman, is recognized for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman. I would like to thank 
our panelists today for joining us.
    Ms. MacGregor, I want to start with you. In 2015, the 
Department of Defense conducted a pretty significant 
compatibility planning assessment there in the Mid-Atlantic 
Region. They looked at the areas that were identified in the 
2017-2022 draft leasing program to look at where there would be 
issues, and they looked at that along a number of different 
continuums, and that is full exploitation there to no 
exploitation of the resources that are there, both oil and gas.
    In looking at that evaluation, the Department of Defense 
came to the conclusion that only about 5 percent of the area 
there was not compatible with DoD needs within that area, which 
means 95 percent was.
    Can you give me your perspective on how, as you are 
undertaking this look at the current proposed leasing program 
there for the Mid-Atlantic, how you would take into account 
DoD's findings? And then also how you see that compatibility 
with oil and gas and operational requirements for the military 
there, in the Mid-Atlantic?
    Ms. MacGregor. Sir, thank you for that question. I think 
that is one of the most important things that we need to focus 
on, moving forward. As we initiate this new plan, we will be 
moving very closely with the Department of Defense. It is 
required under the Outer Continental Shelf Lands Act.
    We also have a Memorandum of Agreement that has been in 
place since 1983 that we have been operating for decades 
successfully, and ensuring that not a single block is leased, 
not a single program is finalized, without the Department of 
Defense having input in this process.
    I think moving forward, and how it can be done 
successfully, there is an interesting stat that our office 
provided to me, which is 36 percent of the active leases in the 
Central Gulf of Mexico, which is one of the most producing 
areas off our coasts, 36 percent of the active leases there are 
operating in military areas, where it is subject to 
coordination and evacuation site-specific stipulations in the 
event of need by Defense for us to ask industry to potentially 
shut in, and other requests.
    So, I think it can be done very well as long as we continue 
to work together, and that relationship is extremely good right 
now at the Department, and we have worked closely with the 
Department of Defense. We will continue to do so, moving 
forward.
    Mr. Wittman. I want to ask you a little bit, too, about 
seismic analysis there in the Mid-Atlantic. As you know, the 
data that we have in the Mid-Atlantic, from a seismic 
standpoint, is about 40 years old. We have new technology today 
that provides much greater insight as to what is in those 
geologic layers below the ocean surface, as well as doing it in 
a very responsible way, both environmentally and from a natural 
resource perspective.
    Can you give me your thoughts on how you all are going to 
move forward with up-to-date seismic analysis there in the Mid-
Atlantic as important steps toward energy development and 
understanding what is there?
    Then also, where you see the Department moving forward in 
this with a time perspective on when you believe you would give 
the opportunity to these companies to do the seismic analysis 
there, based on current evaluations.
    Ms. MacGregor. Sure. No decisions have yet been made. As it 
works right now, we issue a permit, but so does the National 
Marine Fisheries Service at Commerce. So, they just extended 
their comment period a couple weeks ago, and I believe it has 
closed for the incidental harassment authorizations.
    But the President's Executive Order was very clear. He 
would like our departments to work very closely together. When 
it comes to offshore seismic, our Chief Environmental Officer 
at the Bureau of Ocean Energy Management has found that there 
is no documented scientific evidence of seismic activities 
adversely affecting animal populations. We are always welcoming 
new scientific studies into the Department to continue to 
evaluate that.
    A significant for the Atlantic environmental impact study 
was done and finalized, I believe, in 2014--that determined 
that seismic surveying can continue forward in the Atlantic 
safely, with specific mitigations to protect marine mammals.
    So, we intend to be able to move this process along, and we 
recognize the fact that the initial EIS and scoping was done in 
2009. So, whether you disagree or agree on seismic surveying 
being conducted, I think we can all agree that a government 
process that takes 8 years to get through is just not working. 
We are going to work together with other Federal partners to 
try to be more expedient.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Dr. Gosar. I thank the gentleman. The gentleman from 
Florida, Mr. Soto, is recognized for his 5 minutes.
    Mr. Soto. Thank you, Mr. Chairman. We are back again with 
another Committee meeting on 20th century jobs in the 21st 
century. My concern continues to be that we are propping up 
states that are addicted to oil jobs that have not diversified 
their economies like Florida has, and the whole world is 
barreling toward another climate change crisis.
    There was a time in our country when we embraced the 
future, like solar and wind and hydro-electric, bio-fuels and 
nuclear. And right now it just feels like we are being dragged 
to the past again.
    In Florida, we have a tourism and agriculture economy, and 
no one would ever confuse a Florida beach for beaches in some 
other states, that is for sure. Yet, we still suffered from 
this tragic Deepwater Horizon disaster that cost us billions 
and billions of dollars.
    I want to compliment Secretary Zinke for agreeing in his 
last hearing that the 125-mile buffer around our state until 
2022 is not in jeopardy.
    And we just received a letter from the Department of the 
Air Force that said, and I quote from General David L. 
Goldfein, ``The moratorium is essential for developing and 
sustaining the Air Force's future combat capabilities. Although 
the Gulf of Mexico Energy Security Act's moratorium does not 
expire until 2022, the Air Force needs the certainty of the 
proposed extension to guarantee long-term capability for future 
tests.''
    Ms. MacGregor, are there any additional comments, based 
upon the Air Force's letter supporting the moratorium in the 
Gulf around our state, subsequent to this letter being sent 
out?
    Ms. MacGregor. Absolutely. Obviously, that moratorium was 
put in place by statute by the U.S. Congress under the Gulf of 
Mexico Energy Security Act. I believe that statute has that 
area expiring for a moratorium in 2022.
    Mr. Soto. But is there any additional information on 
consideration of extending the moratorium based upon the Air 
Force's letter?
    Ms. MacGregor. Sorry. The decision to extend the moratorium 
will ultimately need to be approved and put into legislation by 
Congress.
    Mr. Soto. There was a June 30, 2017 letter that was sent by 
my colleague, Congressman Beyer, along with over 100 Members of 
Congress: 10 Republicans, 11 Democrats from my state. That is a 
pretty large group of Members opposing any seismic testing on 
the Atlantic Coast.
    Ms. MacGregor, have you received any letters of support 
from Members of Congress to have seismic testing on the 
Atlantic Coast?
    Ms. MacGregor. I am not familiar with these letters, but I 
am more than happy to take a look at what letters have come 
into the Department and get back to you on that.
    Mr. Soto. There is over $95 billion worth of GDP on the 
Atlantic Coast economies, according to a letter, and 1.4 
million jobs associated with it, and they would face seismic 
airgun blasting every 10 seconds, 24 hours a day in the areas 
that would be under siege under any potential opening, which 
could result in a 78 percent decline in reef fish, 138,000 
estimated deaths of whales and dolphins.
    I wanted to hear from Ms. Howell about how would it affect, 
do you think, the tourism fishing and beaches and other 
aspects, if we have that kind of decline?
    Ms. Howell. Yes, thank you very much, Congressman. There 
are a couple of points about seismic that I think need to be 
clarified.
    The first one is, as you pointed out, there have been 
scientific, peer-reviewed studies that have come out in recent 
years, demonstrating that not only is there harm--78 percent 
reef fish decline--as a result of seismic testing, but a very 
recent study that just came out that zooplankton, which is the 
basis of our food chain, our marine food web, is killed at a 
distance of almost three-quarters of a mile away, which is 
further than previously thought.
    The reference that Ms. MacGregor made a little bit ago to 
the chief scientist's letter from BOEM saying that seismic was 
safe was issued in 2014.
    Mr. Soto. Thank you, and I appreciate it, but my time is 
running out. I do want to also express a great concern--we have 
the busiest space port in the world at the Cape in the district 
next to mine, and seismic testing could put this into jeopardy, 
as well. Those are thousands and thousands and thousands of 
high-tech jobs representing the future of our economy.
    So, I think it is noteworthy for this Committee that over 
100 Members of Congress have opposed the Atlantic seismic 
drilling, and we have yet to hear one support it.
    Dr. Gosar. I thank the gentleman. The gentleman from 
Louisiana, Mr. Graves, is recognized.
    Mr. Graves. Thank you, Mr. Chairman. I appreciate it. I am 
not sure where to start in responding to all the misinformation 
here. Let's see.
    First of all, can you put slides up, please? All right. 
While you are doing that, I will go ahead and jump over to 
fishing.
    Ms. Howell, I want to thank you for being here--I just 
looked up fishing on NOAA's website. I think it was the Office 
of Science and Technology. In 2015, which is the latest year 
they had data, South Carolina harvested approximately 14.4 
million pounds of fisheries. In the state of Louisiana, during 
the same year, we harvested approximately 1.07 billion pounds.
    I will say it again: 14.4 million pounds in South Carolina, 
1.07 billion pounds of seafood in the state of Louisiana. That 
is just commercial fishing. And certainly, while I would argue 
that our fishers are better than in South Carolina, even that 
factor would indicate that we have substantial ecological 
productivity in south Louisiana, despite the fact that we also 
have in some years, as Ms. LeBlanc noted, approximately 90 
percent of all the offshore energy production in Federal waters 
in the United States.
    [Slide]
    Mr. Graves. I want to point out this slide here, which is 
really important, because it helps to refute a lot of the 
claims that folks here from other states, that I want to be 
clear, do not produce offshore energy have been alleging.
    If you look at this slide from the Congressional Research 
Service from the Library of Congress, based upon data from the 
National Research Council--I would like to argue that this is 
probably pretty sound data--it shows that 62 percent of the 
releases of oil are from natural seeps, that 33 percent is 
actually from oil consumption, and that 4 percent is from the 
transportation of oil. There were comments made earlier about 
the dangerous pipelines and other transportation aspects--4 
percent is spilled from that and only 1 percent is tied back to 
actual oil extraction.
    So, let's go ahead and----
    Ms. Howell. May I comment on that, Mr. Graves?
    Mr. Graves. Yes, in just a minute. Next slide, please.
    [Slide]
    Mr. Graves. I also want to show here, which is another 
Congressional Research Service graphic that shows, dating back 
to 1973, Number one is the total volume of oil spilled, which 
are the blue bars. Number two is the number of individual 
spills. This clearly shows a trend where we are seeing 
extraordinary reductions, while at the same time we are seeing 
increased production of energy.
    The reality is this: We have produced billions of barrels 
of oil in the offshore. We have produced trillions of cubic 
feet of natural gas. And you can see the trends that are going 
in the right direction. We have done so safely.
    And before folks start throwing out Deepwater Horizon, I 
was the lead trustee for the state of Louisiana. BP can't stand 
me, because I fought them on everything. We reached the largest 
settlement in U.S. history from a single company because we 
continued fighting to make sure that we did what was right. I 
don't need a lecture on Deepwater Horizon.
    I grew up in south Louisiana. I fish there, I know the 
people that operate there. In 2011, 50 percent of this Nation's 
trade deficit was attributable to us importing energy from 
other places. I am glad you all came here in your solar and 
wind-powered airplanes, I am glad that you all walked here, and 
everything else. Look, the reality is it is an integral part of 
our economy. We are either giving other Nations billions and 
billions of dollars, and giving them millions of jobs, or we 
are going to do it here.
    And when we give it to any of these other countries--we all 
know these countries we are talking about--Venezuela, Middle 
East, African nations--what do you think they do with that 
money? Iran, what do you think they do with it? They come and 
challenge our sovereignty, challenge our allies, challenge our 
values, way of life, and then we go and spend millions or 
billions more fighting it again.
    Feel free to respond.
    Ms. Howell. Wonderful. Thank you so much for the 
opportunity to respond. Let me begin by your last point 
regarding imports from hostile countries.
    As you know, Congress, in December of 2012, began exporting 
crude oil for the first time since the oil Arab embargo in 19--
yes. It was approved, as well as selling off half of our 
strategic petroleum reserve. If we were so desperate for oil 
and gas, we would definitely----
    Mr. Graves. 2015.
    Ms. Howell [continuing]. Not be exporting. And the imports 
are coming from hostile countries like Canada and Mexico. Last 
time I checked, most of the oil and gas that was being imported 
was coming from friendly countries, not hostile countries.
    Mr. Graves. Top 10 includes Venezuela, includes, as I 
recall, Nigeria and other countries, including Iran.
    Ms. Howell. Saudi Arabia. And the reason for those imports, 
as you know, have to do with the refineries off the Gulf of 
Mexico, which are designed to process heavy crudes. Heavy 
crudes are not what we are producing in the United States. 
Until we change the refinery mix in the United States, we have 
to continue to import, to run those refineries, or your south 
Louisiana friends will be out of work.
    Second, with regard to natural oil seeps, you have the 
entire OCS mapped on there. The Atlantic Coast is not the home 
of natural oil seeps. I am arguing for protecting the Atlantic 
Coast. Those oil seeps are largely from the Gulf of Mexico and 
the California Coast. I think, if you do the geology associated 
with that graph, you would have a better understanding.
    Mr. Graves. Thank you, Mr. Chairman.
    I was hoping that I was going to be able to correct the 
record versus having more distortions that I need to correct 
again, but I am looking forward to, hopefully, a round two.
    Ms. Howell. Half-truths are not distortions.
    Dr. Gosar. I thank the gentlewoman, I thank the gentleman. 
The gentleman from Maryland, Mr. Brown, is recognized.
    Mr. Brown. Thank you, Mr. Chairman. Like all coastal 
communities, Maryland relies heavily on the health of our 
waters and the accessibility of our shoreline. I certainly 
appreciate the testimony about the experience in Louisiana.
    For us, the Chesapeake Bay is not just a source of great 
pride for our region, but it is also an economic driver. Our 
watermen, fisheries, crabbers, and tourism industry depend on 
the Bay and a clean coast for their livelihoods. The last thing 
that we should be focused on is putting the largest estuary in 
America and a multi-billion dollar economic catalyst that spans 
seven states at risk of an oil spill the same magnitude and 
size as the Deepwater Horizon spill.
    As we saw in the Gulf, it would be the states who bear the 
brunt of such a disaster. More than 120 local governments have 
passed formal resolutions opposing oil and gas exploration and 
drilling in the Atlantic and Eastern Seaboard. These include 
numerous local chambers of commerce, tourism, restaurant 
associations, commercial and recreational fishing associations, 
and the New England, Mid-Atlantic, and South Atlantic Fishery 
Management Councils.
    In Maryland, Ocean City, Berlin, Baltimore, and Montgomery 
County have formally passed resolutions, as well as the Ocean 
City Chamber of Commerce, Ocean City Hotel, Motel, Restaurant 
Association, and the Maryland Salt Water Sport Fishing 
Association have weighed in, formally opposing offshore 
drilling and seismic airgun blasting.
    At a time when renewable energy industries are exploding 
with respect to interest and job growth, and oil prices are at 
record lows, President Trump and Secretary Zinke are focused on 
putting our coastal communities at risk.
    I appreciate the contributions to energy development and 
production in Louisiana, but in Maryland we want to sort of 
take a different approach. If we are talking about all-of-the-
above, we would like to see the Eastern Seaboard used for 
renewable energy. Opening up the Atlantic Ocean to offshore 
drilling, we believe, is looking backwards and is not 
Maryland's energy choice.
    In 2013, when I was Lieutenant Governor, the Maryland 
General Assembly passed legislation intended to spur the 
state's offshore wind industry. And just last month, Maryland's 
Public Service Commission approved ratepayer subsidies to 
support two wind farms off the coast of Ocean City. This 
decision is paving the way for Maryland to become home to some 
of the Nation's first and largest offshore wind farms.
    It has been reported that these wind farms will prevent 
hundreds of thousands of pounds of carbon dioxide emissions, 
will bring in tens of millions of dollars in tax revenue, while 
creating nearly 10,000 jobs in the region. These wind farms are 
indicative of the direction not just Maryland is headed, but 
the country, as a whole.
    Moving at a rapid speed, the Trump administration seems 
eager to roll back policies protecting our vulnerable 
coastline, and to remove all restrictions for drilling on 
public lands. I strongly oppose these policies, and implore the 
Administration not to issue any new oil and gas lease sales on 
the Outer Continental Shelf.
    Again, I appreciate what you all are doing down in 
Louisiana. I am going to support all measures to protect the 
ecology and the economy in Louisiana, but when it comes to the 
Atlantic Outer Continental Shelf, we would like to go 
renewable, and not oil.
    Thank you, Mr. Chairman. I will yield back, but for any 
comments or responses that any of the panel may want to offer. 
Thank you, Mr. Chairman.
    Dr. Gosar. I thank the gentleman, and I recognize the 
gentleman from Georgia, Mr. Hice, for his 5 minutes.
    Dr. Hice. Thank you very much, Mr. Chairman, and I also 
want to say thank you to Ms. MacGregor for mentioning the role 
of the military.
    This is more than just about energy independence, it is 
about national security. I think, at the end of the day, most 
of us understand that role.
    Dr. Knapp, I appreciate you being here again, and for all 
that you do. I would like to engage with you on the aspect of 
alarmism in opposition to surveying. I would like to begin by 
reading a quote from Dr. William Brown, who is a Chief 
Environmental Officer at the DOI's Bureau of Ocean Energy 
Management. He gave this quote in August 2014. You may be 
familiar with it, but he said, ``To date, there has been no 
documented scientific evidence of noise from airguns used in 
geological and geophysical seismic activities adversely 
affecting marine animal populations or coastal communities. 
This technology has been used for more than 30 years around the 
world. It is still used in the United States' waters off the 
coast of the Gulf of Mexico with no known detrimental impact to 
marine animal populations or to commercial fishing.'' Would you 
agree with that statement?
    Dr. Knapp. That is consistent with my knowledge of the 
discipline, yes.
    Dr. Hice. All right. It is also my understanding that this 
same basic technology, the airgun that is used for oil surveys 
and so forth, is also used to investigate continental crust 
behaviors. So, how is it that some would be supportive of that 
technology being used in the study of continental shelf 
behavior, but alarmed by it being used for seismic surveying?
    Dr. Knapp. Well, I cannot claim to know all of the insights 
on that, but I would speculate that, as has been made public on 
many occasions, that seismic surveying, as it is known, is 
portrayed as the so-called gateway drug to oil and gas 
drilling, when, in fact, it has its own purpose. It is the tool 
by which we understand scientifically, as well as for applied 
purposes, what is beneath the surface.
    And I would make two other comments. One was that the very 
birthplace of marine seismic work was here, on the Atlantic 
Coast, 150 miles from where we are. In those days, they dropped 
100-pound dynamite charges off the back of marine vessels. And 
then, subsequently, during the 1970s and 1980s, there were 
hundreds of thousands of kilometers of seismic that were 
collected here on the Atlantic Coast. I do not recall a single 
report of a beached mammal or any other destruction that took 
place during those periods.
    Dr. Hice. Then why are there campaigns, misinformation or 
whatever, against it?
    Dr. Knapp. Again, I can only speculate that those are 
intended to somehow stop the efforts to actually fairly 
evaluate the resource potential.
    But it is certainly not a basis for well-informed policy 
decision making, and it is the antithesis of a scientific 
approach, where you would draw conclusions based on the 
collection and analysis of data, rather than predetermine what 
the result is before you even go collect the data.
    Dr. Hice. Would you say that is a problem, the 
predetermined conclusions?
    Dr. Knapp. It clearly is.
    Dr. Hice. Yes, as opposed to looking at scientific data.
    Dr. Knapp. Exactly. It goes counter to any scientific 
approach to understanding a certain problem.
    Dr. Hice. And you would know.
    Mr. Chairman, in closing, I would like to submit a letter 
for the record from the Georgia Department of Natural 
Resources.
    Mr. Graves [presiding]. Without objection.

    [The information follows:]

           Georgia Department of Natural Resources,
                                         Brunswick, Georgia

                                                       July 6, 2017

Jolie Harrison, Chief
Permits & Conservation Division
NMFS Office of Protected Resources
1315 East-West Highway
Silver Springs, MD 20910

Re: IHA Applications Incidental to Conducting G&G Activities in the 
        Atlantic Ocean RIN 0648-XE283

    Dear Ms. Harrison:

    Staff of the Georgia Coastal Management Program (GCMP), Georgia 
Department of Natural Resources' (GaDNR) Coastal Resources Division and 
GaDNR Wildlife Resources Division has reviewed the June 6, 2017 Federal 
Register notice (Vol. 82 No. 107) notice of National Marine Fisheries 
Service's (NMFS) receipt of five (5) proposed incidental harassment 
authorizations (IHAs) incidental to conducting geophysical surveys in 
the Atlantic Ocean, as well as reviewed five (5) individual 
applications: E14-001 TSG-NOPEC Geophysical Company, E14-003 ION 
GeoVentures, E14-004 WesternGeo LLC, E14-005 CGG Services, and E14-006 
Spectrum Geo, Inc). They propose to shoot 145,141 km of trackline in 
1,214 survey days using various airguns that will emit over 5 million 
shots. The vast majority of the surveying effort will occur east of the 
continental shelf break and only a small portion will be offshore of 
Georgia's coast. NMFS estimates that approximately 1,900 marine mammals 
will be injured and over 350,000 other marine mammals, including more 
than 100 Right whales, will be harassed.
    One (1) company will not be surveying at all off Georgia's coast 
(E14-004 WesternGeo) and one (1) company will not come within 80 miles 
offshore of Georgia's coast (E14-005 CGC). The remaining three (3) 
companies (TGS, ION and SpectrumGeo) coordinated with GCMP under the 
federal consistency provisions of the Coastal Management Act (CZMA) and 
received concurrence based on their amended applications to the Bureau 
of Ocean and Energy Management (BOEM) for geologic and geophysical 
(G&G) activities that incorporated four (4) additional mitigation 
measures while surveying in waters adjacent to the State of Georgia:

    <bullet> Notify GaDNR regarding operation of vessels in offshore 
            water adjacent to Georgia

    <bullet> Vessels will have functioning AIS (automatic 
            identification system) onboard and operating at all times 
            and vessel names and call signs will be provided to GaDNR

    <bullet> Airguns will not be discharged within 20 nm of Georgia 
            from April 1 to September 15

    <bullet> Airguns will not be discharged within 30 nm of Georgia 
            from November 15 to April 15

    The Georgia Coastal Management Program submitted a comment letter 
August 19, 2015 requesting NMFS to consider incorporating these 
mitigation measures as conditions of the IHA permits to provide 
enforceability at the federal level. The Federal Register notice 
includes all of these mitigation measures and more, including:

    <bullet> Applicants must notify NMFS when vessels are operating and 
            provide AIS call signs

          <SUP>o</SUP> This addresses our 1st CZM condition

    <bullet> All vessels must have functioning automatic identification 
            systems (AIS)

          <SUP>o</SUP> This addresses our 2nd CZM condition

    <bullet> Airguns may not be discharged within 16 nmi (30 km) of 
            Atlantic coast year-round to protect depleted bottlenose 
            dolphin stocks

          <SUP>o</SUP>  This addresses our 3rd CZM condition and 
        provides sea turtles protection between April 1st and September 
        15th during nesting season

    <bullet> Airguns may not be discharged within Right whale Critical 
            Habitat, shipstrike Seasonal Management Areas (SMAs) and a 
            migratory corridor linking those areas, plus a 10 km 
            buffer, between November 1st and April 30th

          <SUP>o</SUP> This addresses our 4th CZM condition

    <bullet> Airguns may not be discharged within Dynamic Management 
            Areas (DMAs), plus a 10 nm buffer, if Right whales are 
            sighted at other times and locations

    <bullet> Airguns may not be discharged within 54 nm of GA and SC 
            coast between June 1st and August 30th to protect Atlantic 
            spotted dolphins

    We appreciate NMFS's proposal to restrict seismic surveys along the 
Southeast U.S. coast at times of year when North Atlantic right whales 
are present. Georgia's coast lies at the heart of the right whale 
calving grounds, and protection of Southeast U.S. waters is critical 
for the species' recovery. Ga DNR, NNMFS and other partners are 
currently conducting a tagging study to investigate right whale 
movements in the Southeast and Mid-Atlantic U.S. Preliminary data from 
this study, combined with data from previous aerial survey and habitat 
modeling studies, suggest that the current airgun restricted area 
boundary is likely sufficient to protect right whales from injury. 
However, if future tagging data confirm that right whales use waters 
farther offshore, NMFS should expand the restricted area boundary for 
future seismic permits accordingly. We also appreciate NMFS's proposal 
to restrict airgun use within 16 nmi of shore to protect depleted 
coastal bottlenose dolphin stocks. Doing so will provide protection to 
threatened Florida manatees and strategic estuarine bottlenose dolphin 
stocks which also inhabit Georgia's nearshore ocean waters.
    In summary, the seismic and vessel mitigation measures adopted by 
BOEM through the G&G PEIS, and being proposed by NMFS, should minimize 
reasonably foreseeable effects of seismic surveys on Georgia's 
protected marine mammal species, and will mitigate potential impacts to 
nesting loggerhead sea turtles and coastal fisheries as well.
    NMFS acknowledges that visual and acoustic monitoring are imperfect 
and that marine mammals will likely go undetected by seismic vessels, 
especially for deep diving species that remain below the surface for 
long periods. As such, it is reasonable to assume that some marine 
mammals will be killed by airgun shots and that additional marine 
mammals may be injured in excess of the more than 1,900 animals that 
NMFS predicts. Most of these impacts will likely occur near the shelf 
break and beyond, due to the spatial extent of the proposed survey 
effort, and will therefore involve pelagic species, many of which are 
poorly understood. Potential effects on these species will need to be 
considered if seismic surveys become routine going forward.
    There is increasing evidence that chronic anthropogenic noise 
negatively impacts marine mammals. If seismic surveys become routine 
sources of noise in the Southeast and Mid-Atlantic, it is critical that 
NMFS implement a long-term noise monitoring program to assess 
cumulative effects of noise on Right whales and other marine mammal 
species.

            Sincerely,

                                    A.G. ``Spud'' Woodward,
                                                          Director.

                                 ______
                                 

    Dr. Hice. Basically, what is in this letter, as probably 
most of you know, the coast of Georgia is known to be a calving 
ground for the right whale. So, the Georgia DNR is very much 
concerned with protecting that species.
    This letter basically is affirming what we have been 
discussing here, that there is no evidence that these whales 
have been injured in any way. And if the testing is done, and 
the airguns are used in the manner in which they were designed, 
and used properly, that it is both good for the environment, 
the marine population and fishing community, across the board.
    I am grateful that Georgia is leading by example in this 
regard. I think it is important that we reduce the red tape 
that is associated with seismic surveying. It again comes back 
to national security, as well as energy independence, and I 
think we need to keep the proper perspective. I thank each of 
you for being here, and I thank the Chairman.
    Mr. Graves. The gentlewoman from California, Ms. Barragan, 
is recognized for 5 minutes.
    Ms. Barragan. Thank you, Mr. Chairman. My colleague just 
mentioned that this is more than about energy independence, it 
is about national security. I agree with that statement, 
although I believe climate change is a national security issue. 
When we take a look at opening up coastal waters to more oil 
drilling, you are talking about more risk to things like 
climate change.
    My colleague talked about things like looking at scientific 
data. That takes you right back to climate change, something 
that we do not talk about in this Committee, and it is very 
unfortunate. Very unfortunate.
    We just had record heat in Los Angeles, and people say, 
``Oh, it gets hot all the time.'' Record heats from over 
decades. The scientific data is there. Climate change is real, 
it is happening, and we need to act now to stop it, not to go 
the other way and to open up our coastline.
    Now, President Trump's Executive Order lays the groundwork 
to open up California's 840-mile coastline to dangerous 
offshore oil drilling.
    I spent the last several years fighting an oil company who 
wanted to drill inland and then out into the Santa Monica Bay. 
The Number one reason that we heard from the oil companies on 
why to do it was it was going to bring in all this revenue, we 
are going to have all these new--a new police department, 
better schools. At the end of the day, the voters decided 
overwhelmingly, by about 80 percent, that it was not worth the 
risk to the economy, to the jobs that the tourism provides, to 
the city where I was on the Council and served as mayor. The 
California economy relies so much on tourism. To put it at risk 
is totally unacceptable.
    Now, I would argue, for climate change, we should look at 
these things even in places like Louisiana. If you represent 
Louisiana, you want to open up your coast line, you want to put 
it at risk, I say stay off of my California coastline.
    There was an article recently, Ms. MacGregor, in the 
Houston Chronicle. It is dated July 5, and you are quoted in 
it. It is called ``Trump Appointees Offer Muscular Support for 
Oil and Gas.'' I think you certainly have heard that there is 
strong opposition to new leasing off of California's coastline.
    Historically, the California coastline has been off limits. 
In the Houston Chronicle article I just showed you, you 
recognized the coastal governors will have different views 
about offshore development. You will go on to indicate that the 
Secretary may be looking to pick a fight with my governor, 
Jerry Brown, and you said, and I quote, ``The Secretary has had 
quite a few questions about California and the areas that seem 
to come up every time we talk about the 5-year plan.''
    Can you give me an idea of what kind of questions he is 
asking about?
    Ms. MacGregor. Absolutely, and thank you for the question. 
We absolutely understand the needs of California and how 
tourism is so very much tied to a reliance on motor fuel and 
jet fuel. And at the end of the day, the 5-year plan gets back 
to our national need.
    California is one of the greatest consumers of petroleum 
products in our entire Nation----
    Ms. Barragan. Excuse me. I just want to go back to the 
question, because I have very limited time. My question is, you 
said the Secretary was asking questions about California. What 
kind of questions is he asking about California?
    Ms. MacGregor. The Secretary has asked for a full brief on 
how the 5-year planning process works, which, as I have stated, 
at the beginning of the RFI process, 26 planning areas are on 
the table, and it starts in that way for every planning process 
for the 5-year plan. It started like that under the past 
administration when they finalized two 5-year plans, as well.
    So, when it comes to informing the Secretary exactly how 
the 5-year plan works and what our outreach is, including the 
recent letters that we have sent out requesting your governor 
and other governors for their input--and we really welcome that 
input and your input, as well--those are the sort of questions 
that the Secretary has asked at least me to brief on.
    Ms. Barragan. So, just so I am clear, you generally said he 
was asking questions about how the 5-year plan works.
    Ms. MacGregor. Correct.
    Ms. Barragan. And then you mentioned input from our 
governor and representatives. Can you just clarify what kind of 
questions he is asking that are specific to California and the 
California coastline?
    Ms. MacGregor. Sure. I can get you a copy of the letter we 
sent to your governor, if that would work.
    Ms. Barragan. OK, so that is what you were referring to 
when you said that every time we talk about the 5-year plan he 
is asking about California, the questions that are in that 
letter?
    Ms. MacGregor. No, I am saying the questions in that letter 
are going to be continuously requested in the form of public 
input, as it relates to the 5-year planning process.
    Ms. Barragan. OK, so you don't have any other topics you 
can share with me today that are not in that letter?
    Ms. MacGregor. I am sorry, I am just unclear on what you 
are asking.
    Ms. Barragan. Well, your quote to the paper was that the 
Secretary has quite a few questions about California every time 
the 5-year plan comes up. As somebody who represents a district 
in California, I am curious about what kind of questions the 
Secretary is asking.
    Ms. MacGregor. It is simply informing the Secretary on how 
the 5-year planning process works. And again, I think that is 
important, because a lot of people ask that question: What does 
everything on the table mean?
    Well, everything on the table means that we look at the 26 
planning areas, as required by law, and then we winnow it down.
    Ms. Barragan. OK, thank you. I yield back.
    Mr. Graves. Thank you. The gentleman from Texas, Mr. 
Gohmert, is recognized for 5 minutes.
    Mr. Gohmert. Thank you, Mr. Chairman, and I appreciate the 
witnesses being here.
    All too often, we have seen with the LCWF that it has, in 
my opinion, been abused. The Federal Government continues to 
buy land when we are not taking care of what we have. And we 
have complaints all over the country, have them in my district. 
The Federal Government is not taking care of its Federal land 
areas.
    So, it has grieved me to see all this money going to buy 
new land when we are not taking care of what we have.
    I am curious--and I will make this to Ms. MacGregor and 
appreciate you very much, and knowing that you are working for 
a former member of this Committee, a very dear friend, I do 
appreciate the approach he has taken. But given the significant 
increase expected in phase two, how can we ensure that the 
funds are used in the most appropriate manner that the Federal 
Government were to get from the offshore drilling?
    Ms. MacGregor. When it comes to utilizing funds for Land 
and Water Conservation Fund?
    Mr. Gohmert. Yes.
    Ms. MacGregor. I believe, under the current budget--and I 
don't have those figures with me--but for the Department of the 
Interior, that budget has been reduced significantly when it 
comes to land acquisition under the Land and Water Conservation 
Fund. But I would be more than happy to get you that 
information.
    Mr. Gohmert. OK. I also want to ask--and also for you, Ms. 
MacGregor--due to declining oil and gas production in Alaska, 
California has turned to foreign oil to meet its energy needs. 
Last year, over half the crude oil supplied in California 
refineries came from foreign sources, while 11.4 percent came 
from Alaska.
    How can we get Alaska providing a more important role in 
reducing California and our country's heavy dependence on 
foreign crude?
    Ms. MacGregor. Sir, thank you for that question, as well. I 
believe that is one of the reasons that the Arctic planning 
areas, when it comes to offshore planning, have been included 
in the President's directive when we look at our next 5-year 
plan and planning for that, and signaling that those areas 
could potentially be reopened, as they were closed by the past 
administration.
    The Secretary was recently on the North Slope with the 
Senators. He toured the infrastructure that is already there 
from onshore production, and was able to see the Trans-Alaska 
Pipeline, which is one of the major infrastructure projects of 
the last century, I guess, when it comes to energy. He is aware 
of how important that is, and that most of that throughput it 
refined in California. So, we are taking a look at that, and we 
will consider that input when it comes to the 5-year plan.
    Mr. Gohmert. All right. We know NEPA-directed environmental 
review process is supposed to be integrated into the 
development of the leasing program, and then again throughout 
the leasing and the drill permitting process. According to 
BOEM, the same OCS parcel is reviewed up to four times.
    In your opinion--and if you know, the opinion of the new 
Secretary--are all these four different reviews necessary?
    Ms. MacGregor. Sir, when we move forward with conducting 
NEPA department-wide, we are taking a look at NEPA, but 
ultimately we will adhere to the regulations that are put forth 
by the Council for Environmental Quality, who essentially 
dictates how NEPA is to be implemented in the Department.
    Mr. Gohmert. It sounds like you are saying we need to 
inquire on another bureaucratic process to help the current 
bureaucratic process. I don't think that is going to save a lot 
of time and effort, when it seems to me that is a terrible 
waste, to have to go through that very cumbersome process over 
and over and over again when we are depending on foreign oil to 
such an extent that it is actually creating a dangerous 
international situation. So, I would encourage the Department 
to give us ways we can streamline that for you without relying 
on other bureaucratic processes.
    And I would like to encourage my friends across the aisle 
that have great concerns. When I was a kid, there was all kinds 
of gloom and doom that if we allowed drilling in our Gulf shore 
it would kill off all the fish in the Gulf. Well, they did 
drill. And now, when anybody wants to go fishing, usually the 
first place they want to head is for the drilling rigs. There 
is a vast backlog of requests for old drilling rigs to be 
dumped out in the Gulf, because of the tremendous increase in 
fishing that it provides.
    So, there is good news, even when you have a dry hole. I 
yield back.
    Mr. Graves. The gentleman from Virginia, Mr. Beyer, is 
recognized for 5 minutes.
    Mr. Beyer. Thank you, Mr. Chairman, and thank all of you 
for being with us all morning.
    I first want to reiterate for the record that I welcome the 
process and the decision of the Obama administration's 5-year 
oil and gas leasing plan for the Atlantic Coast, and I don't 
believe it needs revisiting. And I oppose the Secretary and the 
President's reopening of the 5-year plan.
    I also wish to note that the communities and businesses up 
and down the Atlantic Coast oppose offshore drilling and 
seismic airgun use, and we should listen to the people who live 
there, work closest to the shore--Virginia Beach, New Jersey, 
Florida, many places--and strongly consider their views. And 
this includes many, many Republicans, including this week the 
Republican Governor of Maryland, Larry Hogan.
    Ms. MacGregor, the Department of Commerce has recently 
solicited the comments for incidental harassment authorization 
and geophysical and geological companies to conduct seismic 
airgun blasting in the Atlantic. In fact, I understand there 
are five different surveys in an area twice the size of 
California right now.
    These permits were denied by the Obama administration for a 
variety of reasons, but specifically for the potential impact 
on marine life, and specifically for the North Atlantic right 
whale, which is critically endangered. The leading North 
Atlantic right whale scientists issued a letter outlining the 
dire threat of extinction. The only known calving grounds are 
exclusively in the area being proposed for oil and gas 
exploration.
    According to the scientists' letter, ``The North Atlantic 
right whale is among the most endangered whales on the planet. 
Only 500 individuals remaining. Recovery of the species has 
been painfully slow. And worryingly, the latest data indicate 
that population is no longer increasing in abundance, but now 
may be declining in numbers. This declining growth rate is 
thought to be directly linked to the disproportionately high 
level of human activity occurring along its East Coast range. 
Another major stressor to the environment in the form of 
seismic surveys would, we believe, substantially increase the 
risk that the population will slip further into decline and 
would jeopardize its survival.''
    There was a study sponsored by Shell Oil Company in the 
Arctic on the bowhead whales. It is a sister species that shows 
while conducting a seismic airgun blasting in the Beaufort 
Seas, the whales' calling rates decreased and eventually 
calling fell silent between the pods, which can lead to 
separation of mothers and calves, and potentially the death of 
a calf.
    Mr. Chairman, I would like consent to introduce the letter 
from the 28 North Atlantic right whale scientists, the Shell 
study, and a bipartisan letter led by Republican Congressman 
Rutherford and me, over 100 Members of Congress, on our 
opposition to seismic airgun blasting.
    Mr. Graves. Without objection.
    Mr. Beyer. I would also like to point out the paper last 
month about the high mortality rates of zooplankton from a 
single moderately sized airgun cannot be cavalierly dismissed. 
I mean all marine life is based on zooplankton, and we are 
about to undertake, really, a remarkable level of seismic 
exploration.
    Ms. MacGregor, since the permits were denied in January of 
this year, has the status of the North Atlantic right whale 
improved enough that the species is no longer at risk for 
slipping further toward extinction?
    Ms. MacGregor. The bureaus that are under ASLM, I don't 
have the recent data on North Atlantic right whale populations. 
I can say that there are actually 3D seismic vessels operating 
in the Atlantic today where Northern right whale habitat 
exists, it just happens to be in the Canadian OCS.
    As far as the decision in the last, I think, week before 
the changeover in the Administration to deny those permits, we 
felt that that decision was contrary to the same 
Administration's programmatic EIS of the Atlantic that found 
that Atlantic G&G activity--geological and geophysical 
activity--could go forward.
    Mr. Beyer. One of the things that confused me when 
Secretary Zinke was here was the proprietary nature of the 
seismic data. Is it true that the five companies that will get 
these permits will own the seismic data, and it will not be 
available to either scientists or to the public?
    Ms. MacGregor. When they make the investment to conduct 
that seismic surveying, if they so choose, it is proprietary, 
but it is shared with the Department. And we utilize that 
seismic data to further determine fair market value when it 
comes to evaluating leases. Our team in the Gulf is very 
strong, and does that in the Gulf of Mexico.
    Mr. Beyer. OK, great. Thank you, Mr. Chair. I yield back.
    Mr. Graves. Thank you. I want to give an opportunity to 
clarify.
    Ms. Howell, if I heard you correctly at the end, you said 
that I stated some half-truths, and I want to give you an 
opportunity to expand on that.
    Ms. Howell. Thank you very much for that opportunity. The 
graph you were showing represented the entire OCS, and the 
point you were making was that most of the oil spills come from 
natural seeps. That is correct. That is the correct part. The 
part that is not correct is that it varies very much by 
geology. The Atlantic Coast is not burdened in the same way as 
the West Coast and other locations by that same degree of 
natural seepage. So, that is the part that I think was a bit 
misleading as it relates to the Atlantic Coast.
    Mr. Graves. Are you disputing the fact that you have more 
oil that is spilled from transportation pipelines, from seeps 
and other things, than you do from actual oil exploration?
    Ms. Howell. The oil and pipelines come from offshore 
drilling, so I am not quite sure what your point is. Could you 
reframe the question?
    Mr. Graves. Well, that is not an accurate statement. Oil 
and pipelines do not come from offshore drilling. That is one 
of many forms of transportation, but it would come from all 
sorts of different needs to transport oil. It is a safer means 
of transportation, as compared to barges or trains or other 
things. It does not just come from the offshore----
    Ms. Howell. But the material in the pipeline is oil, or 
some derivative of oil.
    Mr. Graves. Sure.
    Ms. Howell. So, if you didn't have oil drilling, you 
wouldn't have oil pipelines.
    Mr. Graves. And if you didn't have oil drilling, you 
wouldn't be here today. You flew here I am going to assume.
    Ms. Howell. Yes, I am not arguing against oil and gas 
production in the United States. I am arguing against oil and 
gas production on the Atlantic Coast. I just want to be clear 
about that.
    Mr. Graves. OK. You made a statement about a half-truth, 
and I just wanted to make sure, if I said something inaccurate, 
that we clarified that.
    Ms. Howell. Good, I am glad we cleared that up.
    Mr. Graves. And I am not sure that anything happened there. 
But thank you.
    Ms. MacGregor, can I ask you a question? There was 
discussion earlier about the amount of production from offshore 
energy under a previous administration. This Administration 
thinks along those lines. Approximately how long does it take 
from a lease sale to actual production activities?
    Ms. MacGregor. It could be 7 to 10 years from a lease sale 
to reaching production-producing quantities. Oh, yes.
    Mr. Graves. So, effectively, as we discussed at the last 
hearing, OCS production in 2008, as I recall, or the lease sale 
generated approximately $17 billion. In the last year of the 
Obama administration, it was approximately 2.7 billion. The lag 
time, you add in 7 to 10 years for production. So, effectively, 
production is largely a result of the previous administration 
on the offshore?
    Ms. MacGregor. That would most likely be correct. And I 
think it is also important to point out that in 2008 a lot of 
the successful revenue results that you are citing involve 
Chukchi Sea lease sales, which we cannot conduct under the 
current plan.
    Mr. Graves. Thank you.
    Ms. LeBlanc, thank you very much for being here, and I 
appreciate all the work that you have done in the past. As I 
recall, approximately 35 percent of the oil and gas workforce 
in the state of Louisiana has lost their job within the past 2 
years.
    Could you comment a little bit about just what you see, 
anecdotally, for example, down in Fourchon in regard to the 
number of boats that are tied up, and things like that, just 
what your view of the state of the industry is?
    Ms. LeBlanc. Yes, Congressman, thank you for the 
opportunity to be here today. I appreciate that.
    Obviously, with the decline in commodity prices, as of 
lately we have seen a decline in oil and gas jobs in our 
economy in south Louisiana. It has been a hardship to the folks 
in Lafourche Parish, Terrebonne Parish, throughout the state, 
who service offshore oil and gas.
    I will also tell you that, besides just the crude oil--the 
market price and the commodity price, the increased regulatory 
regime that we are under have also hindered some of the 
offshore development and the investments offshore. So, it is 
tough times in Louisiana right now. We look forward to working 
with this Administration on not rolling back regulations, but 
reshaping regulations and re-evaluating the regulations, and 
some of the provisions in the regs actually may increase risk, 
due to their prescriptive nature.
    So, a combination of decreased commodity prices as well as 
increased regulatory regime, but it is tough times down in 
Louisiana right now.
    Mr. Graves. Ms. LeBlanc, you previously worked for Restore 
or Retreat, for coastal restoration and ecological restoration 
activities in Louisiana. Would you advocate or support anything 
that would result in increased oil spills in coastal Louisiana?
    Ms. LeBlanc. Absolutely not. The last thing that we want in 
Louisiana--like I said, we live here, we work here, we play 
here. We do not want an oil spill. Oil spills are a tragedy on 
many levels, and we absolutely do not want tragedy.
    I think, as you said earlier, there are so many 
misperceptions about the oil and gas industry, and I look 
forward to clarifying some of those.
    Mr. Graves. Two quick points. One, Ms. Tsongas mentioned 
their offshore wind production, and I want to commend 
Massachusetts for doing that, the Cape Wind project. I did some 
work on that years ago, and I think it is great. I also 
recall--and this statistic is certainly dated, but years ago, I 
had to calculate the energy production for the state of 
Massachusetts compared to Louisiana. At the time, Massachusetts 
consumed 65 times more energy than they produced, so it is 
important just to note that people actually need energy. It 
does not just come out of the socket. There is actually a whole 
upstream side behind it.
    Number two, I actually want to commend Mr. Brown. I thought 
his comments were very balanced and appropriate, and would like 
to associate myself with his comments. I think that we do need 
to continue looking across the board at all energy sources, 
including alternative. I think it is important to recognize 
that--I am going to take a wild estimation here and say, of the 
roughly $200 billion produced from offshore energy revenues, 
the far majority of that has gone back into the general 
treasury to fund things like alternative energy research, 
climate change research, energy efficiency programs, and many, 
many other things across government, including the Land and 
Water Conservation Fund.
    With that, I yield to the gentleman from California, Mr. 
Lowenthal.
    Dr. Lowenthal. Thank you. Mr. Chair, will it be possible 
also for Mr. Beyer to ask a question?
    Mr. Graves. Oh, I am sorry----
    Dr. Lowenthal. No, I am going to start next.
    Mr. Graves. Absolutely.
    Dr. Lowenthal. I am going to start next, but thank you. The 
first thing is I want to ask unanimous consent to submit three 
letters from the Department of Defense which support the 
moratorium on the Eastern Gulf of Mexico into the record.

    Mr. Graves. Without objection.

    [The information follows:]
                             DEPARTMENT OF DEFENSE,
                 Office of the Under Secretary of Defense, 
                                  Washington, DC 20301-4000

                                                     April 26, 2017

The Honorable Matt Gaetz
U.S. House of Representatives
Washington, DC 20515

    Dear Representative Gaetz:

    Thank you for your letter dated March 24, 2017, regarding 
maintaining the moratorium on oil and gas activities in the Gulf of 
Mexico beyond 2022. Since military readiness falls under my purview, I 
have been asked to respond to your letter on behalf of the Secretary of 
Defense. The Department of Defense (DoD) cannot overstate the vital 
importance of maintaining this moratorium.
    National security and energy security are inextricably linked and 
the DoD fully supports the development of our nation's domestic energy 
resources in a manner that is compatible with military testing, 
training, and operations. As mentioned in your letter, the complex of 
eastern Gulf of Mexico operating areas and warning areas provides 
critical opportunities for advanced weapons testing and joint training 
exercises. The moratorium on oil and gas ``leasing, pre-leasing, and 
other related activities'' ensures that these vital military readiness 
activities may be conducted without interference and is critical to 
their continuation. Emerging technologies such as hypersonics, 
autonomous systems, and advanced sub-surface systems will require 
enlarged testing and training footprints, and increased DoD reliance on 
the Gulf of Mexico Energy Security Act's moratorium beyond 2022. The 
moratorium is essential for developing and sustaining our nation's 
future combat capabilities.
    Since signing the 1983 ``Memorandum of Agreement Between the 
Department of Defense and the Department of the Interior on Mutual 
Concerns on the Outer Continental Shelf,'' the two departments have 
worked cooperatively to ensure offshore resource development is 
compatible with military readiness activities. During recent 
discussions between the DoD and the Department of the Interior's Bureau 
of Ocean Energy Management, a question arose concerning whether 
Congress intended the moratorium to prohibit even geological and 
geophysical survey activities in the eastern Gulf. We would welcome 
clarification from Congress concerning this matter.
    On behalf of the Secretary, I appreciate your interest in 
sustaining our testing and training activities in the eastern Gulf of 
Mexico.

            Sincerely,

                                               A. M. Kurta,
                    Performing the Duties of the Under Secretary of
                               Defense for Personnel and Readiness.

                                 ______
                                 

                             DEPARTMENT OF DEFENSE,
                              Department of the Air Force, 
                                       Washington, DC 20330

                                                      June 23, 2017

Hon. Rob Bishop, Chairman,
House Committee on Natural Resources,
U.S. House of Representatives,
Washington, DC 20510.

    Dear Mr. Chairman:
    I write this letter in whole-hearted support of a proposal seeking 
to extend the moratorium on leasing, pre-leasing, or any other related 
activity in any area east of the Military Mission Line in the Gulf of 
Mexico. I understand you, as Chairman of the Natural Resources 
Committee, must grant a jurisdictional waiver for this provision to be 
considered for the National Defense Authorization Act for Fiscal Year 
2018.
    The Air Force fully supports the development of our nation's 
domestic energy resources in a manner that is compatible with the 
military testing, training, and operations. The complex of eastern Gulf 
of Mexico operating areas and warning areas provides critical 
opportunities for advanced weapons testing and joint training 
exercises. The moratorium on oil and gas leasing, pre-leasing, and 
other related activities ensures that these vital military readiness 
activities may be conducted without interference and is critical to 
their continuation. Of course, we are always willing to work with the 
appropriate agencies to see if there are ways to explore for energy 
without hampering air operations.
    The moratorium is essential for developing and sustaining the Air 
Force's future combat capabilities. Although the Gulf of Mexico Energy 
Security Act's moratorium does not expire until 2022, the Air Force 
needs the certainty of the proposed extension to guarantee long-term 
capabilities for future tests. Emerging technologies such as 
hypersonics, 5th generation fighters, and advanced sub-surface systems 
will require enlarged testing and training footprints, and increased 
Air Force reliance on the moratorium far beyond 2022.
    Please don't hesitate to contact me if you have any questions. I 
look forward to continuing our work with you to ensure America's Air 
Force remains the very best.

            Sincerely,

                                         David L. Goldfein,
                                                     General, USAF 
                                                     Chief of Staff

                                 ______
                                 

                             DEPARTMENT OF DEFENSE,
                              Department of the Air Force, 
                                       Washington, DC 20330

                                                      June 27, 2017

The Honorable Bill Nelson
United States Senate
Washington, DC 20510

    Dear Senator Nelson:

    I write this letter in whole-hearted support of a proposal seeking 
to extend the moratorium on leasing, pre-leasing, or any other related 
activity in any area east of the Military Mission Line in the Gulf of 
Mexico. I understand this provision is being considered for inclusion 
in the National Defense Authorization Act for Fiscal Year 2018.
    The Air Force fully supports the development of our nation's 
domestic energy resources in a manner that is compatible with the 
military testing, training, and operations. The complex of eastern Gulf 
of Mexico operating areas and warning areas provides critical 
opportunities for advanced weapons testing and joint training 
exercises. The moratorium on oil and gas leasing, pre-leasing, and 
other related activities ensures that these vital military readiness 
activities may be conducted without interference and is critical to 
their continuation. Of course, we are always willing to work with the 
appropriate agencies to see if there are ways to explore for energy 
without hampering air operations.
    The moratorium is essential for developing and sustaining the Air 
Force's future combat capabilities. Although the Gulf of Mexico Energy 
Security Act's moratorium does not expire until 2022, the Air Force 
needs the certainty of the proposed extension to guarantee long-term 
capabilities for future tests. Emerging technologies such as 
hypersonics, 5th generation fighters, and advanced sub-surface systems 
will require enlarged testing and training footprints, and increased 
Air Force reliance on the moratorium far beyond 2022.
    Please don't hesitate to contact me if you have any questions. I 
look forward to continuing our work with you to ensure America's Air 
Force remains the very best.

            Sincerely,

                                         David L. Goldfein,
                                                     General, USAF 
                                                     Chief of Staff

                                 ______
                                 

    Dr. Lowenthal. Thank you. These questions on royalties are 
again for Ms. MacGregor. I appreciate your answers and your 
forthrightness, and I find it very refreshing.
    Last week, the Bureau of Ocean Energy Management (BOEM) 
announced that it was lowering the royalty rate for shallow 
water leases in next month's Gulf of Mexico lease sale. The 
announcement of this move noted that BOEM carefully considered 
the whole range of factors in making this decision. Will you 
make that analysis of BOEM available to this Committee?
    Ms. MacGregor. I will have to go back and grab it, but we 
can take a look and talk to you after.
    Dr. Lowenthal. Well, I strongly support, because we don't 
think that BOEM should have anything to hide. So, we would 
really appreciate your doing that, because the press release 
said that BOEM looked at market conditions.
    The question is, did the Bureau consider the value of 
waiting until prices were higher until leasing these areas? 
Because it seems to me that we have a huge glut now in the oil 
and natural gas, and there are two ways to handle these public 
resources and the situation. The first way is to make them even 
cheaper to encourage what we believe--I would, others might 
not--as unnecessary drilling and fewer royalties.
    Or, alternatively, keep the royalty rate where it is, and 
wait until the market adjusts to the point where it is actually 
worth drilling for those resources. Then the American public 
gets a fair return on the oil and gas that they own. This is a 
question that we have been wondering about.
    Did BOEM look at that?
    Ms. MacGregor. BOEM's economic team is absolutely stellar. 
They do hurdle price analysis all the time. Their economic 
analysis was very thorough.
    Dr. Lowenthal. Will we get a copy of that economic 
analysis?
    Ms. MacGregor. I hope to be able to share that with you.
    Dr. Lowenthal. Because we would like to be able to say it 
is stellar, also, but we cannot do that unless we see it. So, 
thank you, I do appreciate that.
    It just seems to me, from my point of view, that we should 
not be providing the subsidies to the companies just because 
oil and gas is cheap. We don't need to encourage the drilling 
just because we can. It should be a priority.
    If BOEM's analysis shows that it is, that is one thing. But 
just because it is cheap should not be a reason to encourage 
the drilling by lowering the prices at this time to the 
American public.
    BOEM also said it was looking at the price-based royalty 
system, which would provide an incentive to lease when prices 
are low, ensure a greater return to the American people when 
prices are high. As we have reached now record-high production 
with low oil prices, and royalty rates where they are right 
now, I certainly believe that royalty rates do not need to be 
any lower than they are right now.
    Can you assure us that BOEM will not lower the prices below 
where they are now, as a result of this review?
    Ms. MacGregor. By statute they cannot go below 12.5 
percent.
    Dr. Lowenthal. But they are 18.75 right now.
    Ms. MacGregor. Currently they are 18.75 in deep water. But 
for the lease sale this August, we only lowered the royalty 
rate for very shallow water leasing, which tends to be more 
natural gas-prone.
    Dr. Lowenthal. Will you give us all that data and what that 
analysis was, why it is only in certain particular spots and 
why you are justifying just doing it in particular areas?
    Ms. MacGregor. Sir, absolutely, and I would love for you to 
come to a lease sale, and we could talk about this, and 
actually see how it works and how it is implemented.
    Dr. Lowenthal. Because the critical question is not whether 
we support or don't support. I personally talked about the 
support of the Gulf. But we are talking about the royalty rates 
now, and how those rates are arrived at, and are the people 
getting a fair return on their money.
    Ms. MacGregor. Absolutely, and the Secretary has made that 
a high priority, as well, so you two share that goal. And he 
recently reinstituted the Royalty Policy Committee to take a 
look at that, as well.
    Dr. Lowenthal. Again, the more we are a partner in that, 
and we see that data, the more we will be able to either oppose 
it or support it based upon the facts. Thank you. I yield back.
    Mr. Graves. The gentleman from Virginia, Mr. Beyer, for 5 
minutes.
    Mr. Beyer. Thank you, Mr. Chairman, very much. My friend, 
the Chairman, Mr. Graves, had talked about the offshore wind 
potential in Massachusetts. In Virginia, we were very proud to 
be awarded the first wind energy research lease in these 
Atlantic Coast waters. They are highly desirable and 
competitive. It has been a lot slower than we predicted; we 
thought we were going to have the turbines in place by this 
year, and only this Monday, 2 days ago, did Dominion announce a 
deal to work with DONG Energy to put in the pilot turbines.
    So, Ms. MacGregor, given the timelines we have seen, is 
there anything that you can do or Interior can do to ensure 
that the companies who win the leases actually act on them?
    Ms. MacGregor. I would love to speak with you more about 
that. Again, I think that sometimes we get mischaracterized for 
some reason that we are not supporting all-of-the-above, and 
absolutely recognize that renewable energy is part of the 
Bureau of Ocean Energy Management's portfolio. Right now we 
have offshore wind lease sales off of every coast in the 
Atlantic, from North Carolina to Massachusetts. And we had our 
second-highest most successful offshore wind lease sale a few 
months ago, off the coast of North Carolina.
    But I am aware of Dominion and DONG's project, and we are 
more than happy to talk to you about what the next steps are, 
and ways to look at our own internal regulatory processes and 
areas that might burden that development.
    Mr. Beyer. Yes. And, Mr. Chairman, respecting that we will 
always be using some fossil fuels, I was very proud to note 
that Volvo announced in the last week to moving all-electric 
vehicles by 2018. As a 43-year Volvo dealer, that was a pretty 
cool thing.
    Ms. MacGregor, by the way, thank you for coming back again 
and again. You are long-suffering and very patient with us.
    [Laughter.]
    Mr. Beyer. At our last hearing, I asked you about, as 
Secretary Zinke looks at the reorganization of Interior, writ 
large, about potentially putting BOEM and BSEE back together 
again. Any progress on that?
    And will you ultimately be able to tell us, if that is the 
decision made, what the real advantages are to recombining 
them, and what the cost is of having split them out in the 
first place? You will recall at that point I mentioned that 
this came out of Deepwater Horizon. The concern was you would 
have the fox guarding the henhouse once again.
    Ms. MacGregor. Yes, I remember that question. I don't think 
I am the fox guarding the henhouse in any way. But, given that, 
I will only ever work for the American people.
    After the split-up of MMS, the agency was split into three 
separate bureaus. Obviously, this was done by Secretarial 
Order. There were different priorities, there were different 
reasonings behind that, and, you are right, there was an 
investment made by the Department to enact that. Again, no 
decision has been made yet. We are still evaluating our 
options, and looking at reorganization, department-wide. But 
when a decision is made, you can be sure that it will have an 
underpinning of analysis that will support our decision making.
    Mr. Beyer. Great. And let me just make the plea, as a 
humble member of the Democratic Minority, that that analysis 
recognizes the dilemma that the agency designed to oversee 
safety with the agency designed to stimulate production, and 
how you reconcile those two, essentially, competitive 
functions.
    Thank you, Mr. Chairman. I yield back.
    Mr. Graves. Thank you. I want to thank all the witnesses 
for their testimony, and all the Members for their questions 
today.
    Members of the Committee may have some additional questions 
for you, and we will ask you to respond to those in writing. 
Under the Committee Rule 3(o), members of the Committee must 
submit the witnesses' questions within 3 business days 
following the hearing, and the hearing record will be held open 
for 10 days for these responses.
    If there is no further business, without objection, the 
Subcommittee stands adjourned.

    [Whereupon, at 12:01 p.m., the Subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Beyer Submissions

    --  Letter from Members of Congress addressed to Secretary 
            Zinke, dated June 28, 2017

    --  Letter from a group of scientists addressed to the 
            President, dated April 14, 2016

                                 [all]
</pre></body></html>
